858

884 FEDERAL REPORTER, 3d SERIES

sales division’s gross margins improved
from -19% in 2010 to -14% in 2011 to -5%
in 2012, and were positive in Q1 and Q3 of
2012. Thus, rather than projecting a ‘‘facade of profitability,’’ the company’s original financials only misstated the degree of
the company’s unprofitability: SolarCity
reported a net loss of $91.575 million in
2012, even with the accounting error,
which was later restated to $113.726 million. These facts preclude us from holding
that the falsity of the erroneous financials
was necessarily ‘‘immediately obvious’’ to
Defendants–Appellees. Zucco Partners,
552 F.3d at 1001. To be sure, Webb’s
allegations regarding Defendants–Appellees’ hands-on approach to management
are relevant, and we have taken them ‘‘into
account when evaluating all circumstances
together.’’ S. Ferry, 542 F.3d at 786. Independently though they are not strong
enough to create an inference of involvement sufficient to satisfy the PSLRA. See
id.

any person liable under [the Securities
Exchange Act and its implementing regulations] shall also be liable jointly and severally with and to the same extent as such
controlled person to any person to whom
such controlled person is liable.’’ 15 U.S.C.
§ 78t(a). A plaintiff suing under § 20(a)
must demonstrate: ‘‘(1) a primary violation
of federal securities laws’’ and ‘‘(2) that the
defendant exercised actual power or control over the primary violator.’’ Howard v.
Everex Sys., Inc., 228 F.3d 1057, 1065 (9th
Cir. 2000).

Therefore, we conclude that on the
whole, Webb’s narrative of fraud is simply
not as plausible as a nonfraudulent alternative. See ESG Capital Partners, LP v.
Stratos, 828 F.3d 1023, 1035 (9th Cir.
2016). Admittedly, the magnitude of the
requisite restatement—15% to 67% per
quarter—and the seven-quarter duration
of the alleged fraud are troubling and potentially indicative of scienter. See In re
Daou Sys., Inc., 411 F.3d 1006, 1018, 1023
(9th Cir. 2005). But even those facts, cobbled together with all of the others aforementioned, are not enough to satisfy the
standard required by the PSLRA. Therefore, we affirm the dismissal of Webb’s
§ 10(b) and Rule 10b-5 claims.

For the foregoing reasons, we affirm the
district court’s dismissal of the TAC. Plaintiff–Appellant’s pending motion for judicial
notice is granted. Plaintiff–Appellant shall
bear the costs on appeal.

[15] The district court dismissed
Webb’s § 20(a) claim against Rive and
Kelly because Webb failed to state a claim
of a primary violation of the securities
laws. Because we also find that Webb
failed to state a claim for a primary violation, we affirm the dismissal of Webb’s
§ 20(a) claim.
CONCLUSION

AFFIRMED.

,
MING DAI, Petitioner,
v.
Jefferson B. SESSIONS III, Attorney
General, Respondent.
No. 15-70776

II.

Webb’s § 20(a) Claim

[14] Section 20(a) of the Securities Exchange Act establishes that ‘‘[e]very person who, directly or indirectly, controls

(1a)

United States Court of Appeals,
Ninth Circuit.
Filed March 8, 2018

2a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

859

Submitted October 13, 2017 * San
Francisco, California

3. Aliens, Immigration, and Citizenship
O639

Background:
Alien seeking asylum
sought review challenging the Board of
Immigration Appeals’ (BIA) decision affirming the decision of the Immigration
Judge (IJ) finding that alien, a citizen of
China, failed to meet his burden of proof
for asylum, withholding of removal, and
Convention Against Torture (CAT) protection.

If a noncitizen seeking asylum establishes past persecution, a rebuttable presumption of a well-founded fear arises, and
the burden shifts to the government to
demonstrate that there has been a fundamental change in circumstances such that
the applicant no longer has a well-founded
fear. Immigration and Nationality Act
§ 101, 8 U.S.C.A. § 1101(a)(42)(A).

Holdings: The Court of Appeals, Reinhardt, Circuit Judge, held that:

4. Aliens, Immigration, and Citizenship
O523(1)
An applicant for asylum alleging past
persecution has the burden of establishing
that: (1) his treatment rises to the level of
persecution; (2) the persecution was on
account of one or more protected grounds;
and (3) the persecution was committed by
the government, or by forces that the government was unable or unwilling to control. Immigration and Nationality Act
§ 101, 8 U.S.C.A. § 1101(a)(42)(A).

(1) the Court of Appeals was required to
treat alien’s testimony as credible;
(2) alien’s testimony set forth sufficient
specific facts on a protected ground to
constitute past persecution;
(3) alien’s testimony was persuasive; and
(4) alien was entitled to a presumption of a
well-founded fear of future persecution.
Petition granted and case remanded.
Trott, Circuit Judge, filed a dissenting
opinion.

1. Aliens, Immigration, and Citizenship
O388
The Court of Appeals cannot deny a
petition for review on a ground upon which
the Board of Immigration Appeals (BIA)
itself did not base its decision.
2. Aliens, Immigration, and Citizenship
O403(2)
The Court of Appeals reviews the
Board of Immigration Appeals’ (BIA) factual findings for substantial evidence.
* The panel unanimously concludes this case is
suitable for decision without oral argument.

5. Aliens, Immigration, and Citizenship
O642
If the testimony of an applicant for
asylum satisfies all three requirements
that their testimony must be credible, persuasive, and refer to specific facts sufficient to demonstrate that the applicant is a
refugee, then it alone meets the applicant’s
burden of proof. Immigration and Nationality Act §§ 101, 208, 8 U.S.C.A.
§§ 1101(a)(42)(A), 1158(b)(1)(B)(ii).
6. Aliens, Immigration, and Citizenship
O567, 572
If the credible testimony of an applicant seeking asylum alone is not sufficiently persuasive, the Immigration Judge (IJ)
must give the applicant notice of the corroboration that is required and an opporSee Fed. R. App. P. 34(a)(2).

3a

860

884 FEDERAL REPORTER, 3d SERIES

tunity either to produce the requisite corroborative evidence, or to explain why that
evidence is not reasonably available. Immigration and Nationality Act §§ 101, 208,
8
U.S.C.A.
§§ 1101(a)(42)(A),
1158(b)(1)(B)(ii).
7. Aliens, Immigration, and Citizenship
O567, 572, 643
If the credible testimony of an applicant seeking asylum alone is not sufficiently persuasive, the Immigration Judge (IJ)
must provide notice and an opportunity to
an applicant seeking asylum to produce
corroboration or explain its absence, if an
adverse credibility finding will be based on
a lack of corroborating evidence. Immigration and Nationality Act §§ 101, 208, 8
U.S.C.A.
§§ 1101(a)(42)(A),
1158(b)(1)(B)(ii).
8. Aliens, Immigration, and Citizenship
O580, 643
The Board of Immigration Appeals
(BIA) may find that an applicant seeking
asylum lied about one particular fact without making a general adverse credibility
finding. Immigration and Nationality Act
§§ 101, 208, 8 U.S.C.A. §§ 1101(a)(42)(A),
1158(b)(1)(B)(ii).
9. Aliens, Immigration, and Citizenship
O580
A statement by the Board of Immigration Appeals (BIA) that an applicant
seeking asylum is ‘not entirely credible’ is
not enough to constitute an adverse credibility finding. Immigration and Nationality Act §§ 101, 208, 8 U.S.C.A.
§§ 1101(a)(42)(A),
1158(b)(1)(B)(ii),
1158(b)(1)(B)(iii).
10. Aliens, Immigration, and Citizenship
O580
The Board of Immigration Appeals’
(BIA) adverse credibility finding of an applicant seeking asylum must be explicit.
Immigration and Nationality Act §§ 101,

208,
8
U.S.C.A.
§§ 1101(a)(42)(A),
1158(b)(1)(B)(ii), 1158(b)(1)(B)(iii).
11. Aliens, Immigration, and Citizenship
O638
In the absence of an adverse credibility finding by the Immigration Judge (IJ)
or the Board of Immigration Appeals
(BIA), the petitioner seeking asylum is
deemed credible. Immigration and Nationality Act §§ 101, 208, 8 U.S.C.A.
§§ 1101(a)(42)(A), 1158(b)(1)(B)(iii).
12. Aliens, Immigration, and Citizenship
O638
The rebuttable presumption provision
of the REAL ID Act, which requires that
the Board of Immigration Appeals (BIA)
must afford a rebuttable presumption of
credibility to an applicant seeking asylum
when the Immigration Judge (IJ) does not
make an adverse credibility finding, applies only to appeals to the BIA, not to
petitions for review in the Court of Appeals. Immigration and Nationality Act
§§ 101,
208,
240,
8
U.S.C.A.
§§ 1101(a)(42)(A),
1158(b)(1)(B)(iii),
1229a(c)(4)(C).
13. Federal Courts O3552
When the Court of Appeals reviews a
decision of a district court, the Court may
affirm on any ground supported by the
record even if the district court did not
consider the issue.
14. Aliens, Immigration, and Citizenship
O618(3)
Neither the Immigration Judge (IJ)
nor the Board of Immigration Appeals
(BIA) made an adverse credibility determination in the case of an applicant, a citizen
of China, who sought asylum after he was
allegedly beaten, jailed, and denied food,
water, sleep, and medical care after he
tried to stop the Chinese police from forcing his wife to undergo an abortion, and
therefore, the Court of Appeals was re-

4a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

861

quired to treat his testimony as credible in
applicant’s petition challenging the BIA’s
decision affirming that alien failed to meet
his burden of proof for asylum. Immigration and Nationality Act §§ 101, 208, 240, 8
U.S.C.A.
§§ 1101(a)(42)(A),
1158(b)(1)(B)(ii),
1158(b)(1)(B)(iii),
1229a(c)(4)(C).

An applicant for asylum may establish
persecution through physical abuse even if
he does not seek medical treatment. Immigration and Nationality Act § 101, 8
U.S.C.A. § 1101(a)(42).

15. Aliens, Immigration, and Citizenship
O642

19. Aliens, Immigration, and Citizenship
O529

Testimony of alien, a citizen of China,
set forth sufficient specific facts on a protected ground to constitute past persecution so as to support alien’s eligibility for
asylum that arose when alien was allegedly
beaten and jailed after he tried to stop the
Chinese police from forcing his wife to
undergo an abortion; the harm alien suffered was on account of his resistance to
China’s coercive population control program, alien was forcibly pushed to the
ground twice, repeatedly punched in the
stomach while handcuffed, jailed for ten
days, fed very little food and water, deprived of sleep through interrogation, and
denied medical care, after release alien
sought and received medical treatment for
his injuries, and alien lost his employment
as a result of the occurrence. Immigration and Nationality Act §§ 101, 208, 8
U.S.C.A. §§ 1101(a)(42), 1158(b)(1)(B)(ii).

Loss of employment is an economic
harm can contribute to a finding of persecution for asylum purposes. Immigration
and Nationality Act § 101, 8 U.S.C.A.
§ 1101(a)(42).

16. Aliens, Immigration, and Citizenship
O542
Police officers are the prototypical
state actor for asylum purposes. Immigration and Nationality Act § 101, 8
U.S.C.A. § 1101(a)(42).
17. Aliens, Immigration, and Citizenship
O530(1)
Physical violence is persecution for
asylum purposes. Immigration and Nationality
Act
§ 101,
8
U.S.C.A.
§ 1101(a)(42).

18. Aliens, Immigration, and Citizenship
O530(1)

20. Aliens, Immigration, and Citizenship
O643
Testimony of alien, a citizen of China,
was persuasive so as to support his eligibility for asylum arising from when alien was
allegedly beaten and jailed after he tried
to stop the Chinese police from forcing his
wife to have an abortion, even though alien
may have been untruthful about how wife
initially went to the United States and
then returned to China; alien’s fear of
persecution did not rest solely on wife’s
treatment, alien suffered his own distinct
harms, alien feared being forced to undergo involuntary sterilization should he return to China, any alleged credibility findings regarding alien’s truthfulness could
not be smuggled into the persuasiveness
inquiry, and alien’s economic reasons for
coming to the United States did not render
his testimony about past persecution unpersuasive. Immigration and Nationality
Act §§ 101, 208, 8 U.S.C.A. §§ 1101(a)(42),
1158(b)(1)(B)(ii).
21. Statutes O1156
Courts should not interpret statutes in
a way that renders a provision superfluous.

5a

862

884 FEDERAL REPORTER, 3d SERIES

22. Aliens, Immigration, and Citizenship
O520

26. Aliens, Immigration, and Citizenship
O502

A valid asylum claim is not undermined by the fact that the applicant had
additional reasons, beyond escaping persecution, for coming to or remaining in the
United States, including seeking economic
opportunity. Immigration and Nationality
Act § 101, 8 U.S.C.A. § 1101(a)(42).

The primary difference between the
standards for withholding of removal and
asylum is that, in order to be eligible for
withholding, the alien must demonstrate
that it is more likely than not that he
would be subjected to persecution based
on a protected ground if removed, which is
a higher standard than the well-founded
fear required for asylum. Immigration
and Nationality Act §§ 101, 208, 240, 8
U.S.C.A. §§ 1101(a)(42), 1158(b)(1)(B)(ii),
(iii), 1229a(c)(4)(B), (C).

23. Aliens, Immigration, and Citizenship
O639
Alien, a citizen of China, was entitled
to the rebuttable presumption of a wellfounded fear of future persecution so as to
support his eligibility for asylum arising
from when alien was allegedly beaten and
jailed after he tried to stop the Chinese
police from forcing his wife to undergo an
abortion; the record compelled the conclusion that alien testified to sufficient facts
that demonstrated his eligibility for asylum in that he was subjected to harm
rising to the level of past persecution, that
persecution was on account of a protected
ground, and the persecution was committed by the government. Immigration and
Nationality Act §§ 101, 208, 8 U.S.C.A.
§§ 1101(a)(42), 1158(b)(1)(B)(ii).
24. Aliens, Immigration, and Citizenship
O501
The decision to grant asylum is discretionary. Immigration and Nationality Act
§ 101, 8 U.S.C.A. § 1101(a)(42).
25. Aliens, Immigration, and Citizenship
O500
Withholding of removal is governed
by the same standards as asylum for demonstrating credibility, sufficiency, and persuasiveness. Immigration and Nationality
Act §§ 101, 208, 240, 8 U.S.C.A.
§§ 1101(a)(42),
1158(b)(1)(B)(ii),
(iii),
1229a(c)(4)(B), (C).

27. Aliens, Immigration, and Citizenship
O599
The Court of Appeals’ role in an immigration case is typically one of review, not
of first view.
On Petition for Review of an Order of
the Board of Immigration Appeals, Agency
No. A999995-836
David Z. Su, Law Offices of David Z. Su,
West Covina, California, for Petitioner.
Aimee J. Carmichael, Trial Attorney;
Mary Jane Candaux, Assistant Director;
Office of Immigration, Civil Division, United States Department of Justice, Washington, D.C.; for Respondent.
Before: Sidney R. Thomas, Chief Circuit
Judge, and Stephen Reinhardt and
Stephen S. Trott, Circuit Judges.
Dissent by Judge Trott
OPINION
REINHARDT, Circuit Judge:
Ming Dai is a citizen of China. He testified that he was beaten, arrested, jailed,
and denied food, water, sleep, and medical
care because he tried to stop the police
from forcing his wife to have an abortion.

6a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

The Board of Immigration Appeals (BIA)
nevertheless found that Dai was not eligible for asylum or withholding of removal.
There is one clear and simple issue in
this case: neither the Immigration Judge
(IJ) nor the BIA made a finding that Dai’s
testimony was not credible. Under our
well-established precedent, we are required to treat a petitioner’s testimony as
credible in the absence of such a finding.
We adopted this rule before the REAL ID
Act and reaffirmed it after its passage.
The dissent clearly disapproves of our
rule. We are, however, bound to follow it.
We might add, though it does not affect
our holding in this case, that we approve of
it. We think it not too much to ask of IJs
and the BIA that they make an explicit
adverse credibility finding before deporting someone on that basis. In any event,
under our well-established rule, Dai is unquestionably entitled to relief.
BACKGROUND
I.

Dai’s Persecution in China 1

Dai has been married for twenty years
to Li Ping Qin. Dai and Qin have a daughter, who was born in 2000. In April 2009,
Qin discovered that she was pregnant
again. Dai and Qin were ‘‘very happy’’
about the pregnancy and believed they
would be able to keep the child if they paid
a fine, despite China’s One Child policy.
However, the month after Qin found out
she was pregnant, she was visited at work
by a ‘‘family planning officer’’ who told Qin
that she was required to have an abortion.
Qin told the officer that she would need to
think about it. Two months later, five family planning officers came to Dai and Qin’s
house early in the morning from ‘‘the local
family planning office and also the police
1.

This factual summary is drawn primarily
from Dai’s testimony before the IJ. As we
discuss in more detail below, we treat Dai’s

863

station.’’ The officers were there to take
Qin to the hospital for a forced abortion.
Qin told the officers that she didn’t want to
go and Dai attempted to stop the officers
from taking Qin against her will. Dai and
the officers began arguing, with the officers telling Dai that Qin had to have the
forced abortion as a matter of ‘‘Chinese
policy’’ and Dai saying ‘‘you can’t take my
wife away.’’
When Dai continued resisting the officers’ efforts to take Qin for the forced
abortion, two of them pushed him to the
ground. Dai got up and tried again to stop
the officers, so they pushed him to the
ground again. This time, the officers handcuffed Dai and repeatedly beat him, causing substantial injuries. While Dai was
handcuffed and being beaten, the other
officers dragged Qin out of the house.
The police took Dai to the Zha Bei detention center. There, they ordered Dai to
confess to resisting arrest. Dai initially
refused to confess and insisted that he had
the right to protect his family. The officers
continued to interrogate him over the next
number of days. At times he was deprived
of sleep because he was interrogated in the
middle of the night. During the ten days
he spent in detention, Dai was interrogated approximately seven times. He was fed
one meal a day and often denied water.
Dai characterized his treatment as ‘‘mental[ ] torture.’’ Dai ultimately confessed to
resisting arrest and fighting with the officers. He was released about two days after
his confession.
Dai’s injuries occurred when the officers
beat him at his home. Despite telling the
police about his injuries, he received no
medical attention while in custody. When
he was released he went to the hospital for
testimony as credible because neither the IJ
nor the BIA made an adverse credibility finding.

7a

864

884 FEDERAL REPORTER, 3d SERIES

x-rays, which showed that his right arm
was dislocated and the ribs on his right
side were broken. The doctor put Dai’s
arm back in place and wrapped it to keep
it still for six weeks. Dai did not receive
any treatment for his broken ribs.
When Dai returned home he found Qin
crying. Qin told him that she had been
taken to the Guang Hua hospital in the
Chang Ning district, where a doctor made
her get undressed and then sedated her.
When she woke up, she learned that her
pregnancy had been terminated and that
an IUD had been implanted, all without
her consent.
In addition to Qin’s forced abortion and
Dai’s arrest, detention, and physical and
mental abuse, Qin, Dai, and their daughter
each suffered other repercussions arising
out of Qin’s unauthorized pregnancy and
Dai’s resistance to her forced abortion. Dai
was fired from his job, while Qin was
demoted and her salary was reduced by
thirty percent. Their supervisors specifically informed them that they were fired
and demoted because of the above events.
Their daughter was also denied admission
to more desirable schools despite good academic performance. Her teacher told Qin
that this was likewise because of the
events resulting from the illegal pregnancy.
On or about January 27, 2012, Dai, Qin,
and their daughter arrived in the United
States on tourist visas, with authorization
to remain until July 26, 2012. Qin and their
daughter returned to China in February
while Dai remained in the United States.
In the time since Qin and their daughter
have returned to China, the Chinese police
have come looking for Dai multiple times.
Dai is afraid that if he returns to China he
will be forcibly sterilized.
II.

Asylum Application

Approximately eight months after arriving in the United States, Dai filed an affir-

mative asylum application. The next
month, he was interviewed by an asylum
officer. The asylum officer took notes during the interview, but did not prepare a
verbatim transcript.
During the interview, Dai was not asked
whether his wife and daughter had accompanied him to the United States. Rather,
the asylum officer inquired whether they
ever traveled anywhere outside of China.
He told the asylum officer that both his
wife and his daughter had been to Taiwan
and Hong Kong and that his wife had been
to Australia. When asked if they had traveled anywhere else, he said they had not.
However, when told that government records showed that his wife and daughter
had traveled to the United States with
him, he agreed that they had done so.
When asked why he did not initially disclose this, Dai said (through an interpreter
and according to the non-verbatim notes of
the interview), ‘‘I’m afraid you ask why my
wife and daughter go back.’’ Dai explained
that his wife and daughter went back to
China ‘‘[s]o that my daughter can go to
school and in the US you have to pay a lot
of money.’’ Finally, Dai was asked, ‘‘Can
you tell me the real story about you and
your family’s travel to the US?’’ Dai responded, ‘‘I wanted a good environment
for my child. My wife had a job and I
didn’t and that is why I stayed here. My
wife and child go home first.’’
The asylum officer denied Dai’s asylum
application.
III.

Removal Proceedings

The Department of Homeland Security
(DHS) then issued Dai a Notice to Appear.
Dai conceded that he was removable and
sought asylum, withholding of removal,
and CAT protection. At a hearing before
the IJ, Dai testified about the events in

8a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

China we have described. When asked why
he came to the United States, he said,
‘‘[b]ecause I was persecuted in China and
my wife, my wife was forced to have an
abortion and I lost my baby. I was arrested. I was beaten[ ]. I lost my job. America
[ ] is a free country and it’s [ ] a democratic
country. I want to come here [ ] and have
my very basic human rights. I really, really hate Chinese dictatorship.’’
During cross-examination, the government asked Dai about his initial failure to
disclose his wife and daughter’s travel to
the United States. Dai testified that ‘‘I was
very nervous’’ and ‘‘because I was already
in the U.S. and they [ ] came with me to
the U.S. TTT I thought that you were
asking me anywhere other than the U.S.’’
In response to further questioning by the
government, Dai testified that his wife and
daughter returned to China so that his
wife could care for his father-in-law and
his daughter could attend school. When
asked why he didn’t keep them in the US
to protect them from forced IUDs or abortions, Dai reminded the government that
his wife’s IUD was already inserted before
she left China and that his daughter was
only 13.
When the government asked Dai if there
were any other reasons he was afraid to
return to China, Dai said, ‘‘if I return to
China, it’s impossible for me to get another
jobTTTT Just the sterilization and that.’’
Finally, when asked why he remained in
the U.S. when his wife returned to China
he responded, ‘‘Because at that time, I was
2.

The record clearly demonstrates that Dai
did not conceal this information from the IJ.
If he concealed it at all, it was only from the
asylum officer. To the extent the government
defends this finding by the BIA, it simply
notes that Dai ‘‘did not raise the information
during direct examination before the Immigration Judge.’’ However, Dai was not asked
about his family’s travel to the United States
and return to China during direct examina-

865

in a bad mood and I couldn’t get a job, so I
want to stay here for a bit longer and
another friend of mine is also here.’’ At the
time in question (when Qin returned to
China in February 2012), Dai did not know
about asylum. He first learned about the
existence of that process in March of that
year.
The IJ did not make an adverse credibility finding. Instead, the IJ found that Dai
failed to meet his burden of proof for
asylum, withholding of removal, and CAT
protection.
IV.

BIA Decision

The BIA affirmed the IJ’s denial of relief. The BIA first found that Dai ‘‘failed to
disclose both to the [DHS] asylum officer
and the [IJ] that his wife and daughter
had traveled with him to the United States
and voluntarily returned to China shortly
after’’ 2 and that Dai’s reason for concealing this information was that ‘‘he believed
that the true reasons for their return TTT
would be perceived as inconsistent with his
claims of past and feared persecution.’’ 3
The BIA acknowledged that the IJ did
not make an adverse credibility finding
and also did not make one itself. Instead,
the BIA held that ‘‘the [IJ] need not have
made an explicit adverse credibility finding
to nevertheless determine that the respondent did not meet his burden of proving
his asylum claim.’’ The BIA found that
Dai’s family returning to China and ‘‘his
tion, and when he was asked during cross
examination he answered truthfully.
3.

The BIA also found that ‘‘the respondent’s
contention that his wife and daughter returned to China before he became aware of
the possibility of asylum is not supported by
the record.’’ In fact, Dai’s testimony on this
point was unchallenged and uncontradicted
and the government does not defend this erroneous finding before this court.

9a

866

884 FEDERAL REPORTER, 3d SERIES

not being truthful about it’’ were ‘‘detrimental to his claim and [ ] significant to his
burden of proof.’’ The BIA concluded that
Dai failed to establish eligibility for asylum, withholding of removal, or CAT protection. Dai filed a timely petition for review challenging the BIA’s denial of relief.
SCOPE AND STANDARD
OF REVIEW
[1, 2] ‘‘[W]e cannot deny a petition for
review on a ground [upon which] the BIA
itself did not base its decision.’’ Hernandez-Cruz v. Holder, 651 F.3d 1094, 1110
(9th Cir. 2011). We review the agency’s
factual findings for substantial evidence.
Hamazaspyan v. Holder, 590 F.3d 744,
747 (9th Cir. 2009).
The scope of review in this case is unclear. While the BIA stated that it
‘‘adopt[ed] and affirm[ed] the Immigration
Judge’s decision,’’ it then went on to discuss and agree with most of the IJ’s specific reasons while omitting any discussion
of one of them.
On the one hand, we have held that
when ‘‘the BIA adopts the decision of the
IJ and affirms without opinion, we review
the decision of the IJ as the final agency
determination.’’ Smolniakova v. Gonzales,
422 F.3d 1037, 1044 (9th Cir. 2005); see
also Matter of Burbano, 20 I. & N. Dec.
872, 874 (BIA 1994). In this case, however,
the BIA did not affirm ‘‘without opinion.’’
On the other hand, we have also held
that when ‘‘the BIA relie[s] upon the IJ’s
opinion as a statement of reasons’’ but
‘‘state[s] with sufficient particularity and
clarity the reasons for denial of asylum
and d[oes] not merely provide a boilerplate
opinion,’’ we ‘‘look to the IJ’s oral decision
[only] as a guide to what lay behind the
BIA’s conclusion.’’ Tekle v. Mukasey, 533
4.

By ‘‘native country’’ we mean a person’s
country of nationality ‘‘or, in the case of a

F.3d 1044, 1051 (9th Cir. 2008) (quotation
marks and alterations omitted). ‘‘In so doing, we review here the reasons explicitly
identified by the BIA, and then examine
the reasoning articulated in the IJ’s oral
decision in support of those reasonsTTTT
Stated differently, we do not review those
parts of the IJ’s TTT finding that the BIA
did not identify as ‘most significant’ and
did not otherwise mention.’’ Id.; see also
Lai v. Holder, 773 F.3d 966, 970 (9th Cir.
2014). However, in those cases the BIA did
not say that it was adopting the decision of
the IJ.
Finally, this is not a case in which ‘‘the
BIA adopt[ed] the immigration judge’s decision and also add[ed] its own reasons.’’
Nuru v. Gonzales, 404 F.3d 1207, 1215 (9th
Cir. 2005). The BIA did not ‘‘add[ ] its own
reasons;’’ rather, it identified and expressly agreed with some (but not all) of the
IJ’s reasons.
We need not, however, resolve the precise scope of review in this case because
none of the reasons advanced by the IJ,
including the one omitted by the BIA,
provides a sufficient basis for the BIA’s
decision.
DISCUSSION
I.

Asylum

Asylum is available to refugees—that is,
anyone who is ‘‘ ‘unable or unwilling to
avail himself or herself of the protection of
[his or her native] country because of persecution or a well-founded fear of persecution on account of race, religion, nationality, membership in a particular social
group, or political opinion.’ ’’ Baghdasaryan v. Holder, 592 F.3d 1018, 1022–23 (9th
Cir.
2010)
(quoting
8
U.S.C.
§ 1101(a)(42)(A) ).4
person having no nationality, TTT [the] coun-

10a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

[3, 4] If a noncitizen establishes past
persecution, ‘‘a rebuttable presumption of
a well-founded fear arises, and the burden
shifts to the government to demonstrate
that there has been a fundamental change
in circumstances such that the applicant no
longer has a well-founded fear.’’ Tawadrus
v. Ashcroft, 364 F.3d 1099, 1103 (9th Cir.
2004) (quotation marks and citations omitted). ‘‘An applicant alleging past persecution has the burden of establishing that (1)
his treatment rises to the level of persecution; (2) the persecution was on account of
one or more protected grounds; and (3) the
persecution was committed by the government, or by forces that the government
was unable or unwilling to control.’’ Baghdasaryan, 592 F.3d at 1023.
[5–7] This case is governed by the
REAL ID Act of 2005, Pub. L. No. 109-13,
Div. B, 119 Stat. 231, 302–23. Under the
standards established by that Act, an applicant’s testimony alone is sufficient to
establish eligibility for asylum if it satisfies
three requirements: the ‘‘testimony is
credible, is persuasive, and refers to specific facts sufficient to demonstrate that
the applicant is a refugee.’’ 8 U.S.C.
§ 1158(b)(1)(B)(ii). In determining whether
the testimony is persuasive, ‘‘the trier of
fact may weigh the credible testimony
along with other evidence of record.’’ Id. If
the applicant’s testimony satisfies all three
requirements, then it ‘‘alone meets the applicant’s burden of proof.’’ Ren v. Holder,
648 F.3d 1079, 1093 (9th Cir. 2011). If,
however, the applicant’s credible testimony
alone is not sufficiently persuasive, ‘‘the IJ
must give the applicant notice of the corroboration that is required and an opportunity either to produce the requisite cortry in which such person last habitually resided.’’ 8 U.S.C. § 1101(a)(42)(A).
5.

The IJ must also provide notice and an
opportunity to produce corroboration or ex-

867

roborative evidence or to explain why that
evidence is not reasonably available.’’ Id.5
No notice regarding corroboration was given to Dai. We will next examine the three
requirements under the Act for meeting
the burden of proof, though not in the
order listed in the statute.
A.

Credibility

[8–10] Dai testified at his removal
hearing and the IJ made no adverse credibility finding. When this was called to the
BIA’s attention, it also made no adverse
credibility finding. Although the BIA identified one time that Dai allegedly failed to
disclose a fact and indicated that it did not
believe Dai’s explanation for not doing so,
‘‘this sort of passing statement does not
constitute an adverse credibility finding.’’
Kaur v. Holder, 561 F.3d 957, 962–63 (9th
Cir. 2009). The BIA may find that an
applicant lied about one particular fact
without making a general adverse credibility finding. Even a ‘‘statement that a petitioner is ‘not entirely credible’ is not
enough’’ to constitute an adverse credibility finding, Aguilera-Cota v. I.N.S., 914
F.2d 1375, 1383 (9th Cir. 1990), and the
BIA’s finding that Dai ‘‘failed to disclose’’
a single fact does not even rise to the level
of a finding that a petitioner is ‘‘not entirely credible.’’ In short, the adverse credibility finding must be explicit.
Large portions of the dissent are devoted to elaborating on the deference that we
owe to credibility findings by the IJ and
the BIA. We agree that such findings are
entitled to deference, but we cannot defer
to a finding that does not exist. The bulk of
our dissenting colleague’s concerns can
therefore be reduced to his objection to
plain its absence if an adverse credibility finding will be based on a lack of corroborating
evidence. Lai, 773 F.3d at 975–76.

11a

868

884 FEDERAL REPORTER, 3d SERIES

the rule that adverse credibility findings
must be explicit. It is difficult to identify,
however, a more well-established rule in
the review of immigration cases.6 The dissent offers no reason to overturn our longstanding requirement that adverse credibility findings be explicit and, in fact, the
REAL ID Act codifies the principle that
such findings must be ‘‘explicitly made.’’ 8
U.S.C.
§ 1158(b)(1)(B)(iii).
Therefore,
‘‘[t]he IJ’s decision not to make an explicit
adverse credibility finding,’’ Dissent at 30,
means that there is no finding to which we
can defer.7
Given that there is no adverse credibility
finding from the agency, the next question
is whether we can nostra sponte decide
that Dai’s testimony is not credible. Prior
to the REAL ID Act, we held that in the
absence of an explicit adverse credibility
finding by the IJ or the BIA we are required to treat the petitioner’s testimony
as credible. Kalubi v. Ashcroft, 364 F.3d
1134, 1137 (9th Cir. 2004); Navas v. I.N.S.,
217 F.3d 646, 652 n.3 (9th Cir. 2000). The
REAL ID Act enacted a variety of
changes to the standards governing credibility determinations, including—as noted
by the dissent—a provision that ‘‘if no
adverse credibility determination is explicitly made, the applicant or witness shall
6.

See, e.g., She v. Holder, 629 F.3d 958, 964
(9th Cir. 2010); Tijani v. Holder, 628 F.3d
1071, 1080 (9th Cir. 2010); Edu v. Holder, 624
F.3d 1137, 1143 n.5 (9th Cir. 2010); Karapetyan v. Mukasey, 543 F.3d 1118, 1123 n.4 (9th
Cir. 2008); Meihua Huang v. Mukasey, 520
F.3d 1006, 1007–08 (9th Cir. 2008) (per curiam); Singh v. Gonzales, 491 F.3d 1019, 1025
(9th Cir. 2007); McDonald v. Gonzales, 400
F.3d 684, 686 n.2 (9th Cir. 2005); Mansour v.
Ashcroft, 390 F.3d 667, 671–72 (9th Cir.
2004); Zhang v. Ashcroft, 388 F.3d 713, 718
(9th Cir. 2004) (per curiam); Lopez-Alvarado
v. Ashcroft, 381 F.3d 847, 851 (9th Cir. 2004);
Kalubi v. Ashcroft, 364 F.3d 1134, 1137–38
(9th Cir. 2004); Mendoza Manimbao v. Ashcroft, 329 F.3d 655, 658–59 (9th Cir. 2003);
Shoafera v. I.N.S., 228 F.3d 1070, 1074 n.3
(9th Cir. 2000); Navas v. I.N.S., 217 F.3d 646,

have a rebuttable presumption of credibility on appeal.’’ 8 U.S.C. § 1158(b)(1)(B)(iii).
[11] Neither this provision nor anything else in the REAL ID Act explicitly
or implicitly repeals the rule that in the
absence of an adverse credibility finding
by the IJ or the BIA, the petitioner is
deemed credible. To the contrary, in a
post-REAL ID opinion we stated and applied that rule. See Zhiqiang Hu v. Holder, 652 F.3d 1011, 1013 n.1 (9th Cir. 2011);
see also Kazemzadeh v. U.S. Attorney
Gen., 577 F.3d 1341, 1354 (11th Cir. 2009)
(W. Pryor, J.) (post-REAL ID application)
(‘‘Where an [Immigration Judge] fails to
explicitly find an applicant’s testimony incredible and cogently explain his or her
reasons for doing so, we accept the applicant’s testimony as credible.’’) (quotation
marks omitted). Hu controls here, a fact
the dissent entirely fails to acknowledge.
However, in Hu we did not explain why
our rule was unaffected by the new language in the REAL ID Act. We take this
opportunity to do so now.
[12] Properly understood, the rebuttable presumption provision of the REAL ID
Act applies only to appeals to the BIA, not
to petitions for review in our court.8 This is
652 n.3 (9th Cir. 2000); Prasad v. I.N.S., 101
F.3d 614, 616 (9th Cir. 1996); Hartooni v.
I.N.S., 21 F.3d 336, 342 (9th Cir. 1994).
7.

The dissent places great weight on Ling
Huang v. Holder, 744 F.3d 1149 (9th Cir.
2014). The distinction between that case and
this could not be clearer: ‘‘[T]he IJ found that
Huang’s testimony was not credible.’’ Id. at
1151.

8.

The proper application of the rebuttable
presumption provision is apparent in She v.
Holder, 629 F.3d 958 (9th Cir. 2010). In that
case, we quoted a different pre-REAL ID rule:
that ‘‘[a]bsent an adverse credibility finding,
the BIA is required to ‘presume the petitioner’s testimony to be credible.’ ’’ Id. at 964
(quoting Mendoza Manimbao v. Ashcroft, 329

12a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

demonstrated by the fact that the statute
says there is ‘‘a rebuttable presumption of
credibility
on
appeal.’’
8
U.S.C.
§§ 1158(b)(1)(B)(iii), 1229a(c)(4)(C) (emphasis added). In immigration cases, we do
not exercise appellate jurisdiction. Rather,
decisions by the finder of fact, the IJ, may
be appealed to the BIA. See 8 C.F.R.
§ 1003.1(b). We generally cannot review
an order of removal unless the non-citizen
has exhausted his appeal to the BIA. 8
U.S.C. § 1252(d)(1); see Ren, 648 F.3d at
1083–84. The ‘‘sole and exclusive means for
judicial review of an order of removal’’ is
by ‘‘a petition for review,’’ not a further
appeal. 8 U.S.C. § 1252(a)(5) (emphasis
added). Moreover, unlike an appeal, which
shifts an existing action to a new court, a
petition for review commences a new action against the United States. 28 U.S.C.
§ 2344; see also 8 U.S.C. § 1252(a)(1).
Thus, Dai is the petitioner, not the appellant, and the Attorney General is the respondent, not the appellee. A provision
that applies ‘‘on appeal’’ therefore does not
apply to our review, but solely to the BIA’s
review on appeal from the IJ’s decision.9
[13] The inapplicability of the rebuttable presumption provision to review in this
court is further confirmed by a fundamental distinction between appellate review
and review of administrative decisions that
the dissent ignores. When we review a
decision of a district court, we may ‘‘affirm
on any ground supported by the record
even if the district court did not consider
the issue.’’ Perfect 10, Inc. v. Visa Int’l
F.3d 655, 662 (9th Cir. 2003) ). In a footnote,
we acknowledged that the REAL ID Act prospectively altered this rule so that the BIA
must only afford ‘‘a rebuttable presumption of
credibility’’ when the IJ does not make an
adverse credibility finding. Id. at 964 n.5.
Thus, while the dissent is correct that the
REAL ID Act affected our precedent, it did
not disturb the distinct rule upon which we
rely in this case: that in the absence of an

869

Serv. Ass’n, 494 F.3d 788, 794 (9th Cir.
2007). When we review an administrative
decision, however, ‘‘we cannot deny a petition for review on a ground [on which] the
BIA itself did not base its decision.’’ Hernandez-Cruz, 651 F.3d at 1110; see also
Nw. Envtl. Def. Ctr. v. Bonneville Power
Admin., 477 F.3d 668, 688 (9th Cir. 2007).
The dissent is therefore incorrect to say
that ‘‘[w]hen it comes to our task of reviewing the credibility of witnesses in a
trial court or whether a witness’ testimony
suffices to carry his burden of proof [ ]
there is no material difference between an
appeal and a petition for review.’’ Dissent
at 38. In an appeal we may, in appropriate
circumstances and after affording appropriate deference, reject a district court’s
credibility finding (whether favorable or
adverse) in order to affirm the district
court on an alternative ground. However,
when the BIA has on appeal neither affirmed an adverse credibility finding made
by the IJ nor made its own finding after
deeming the presumption of credibility rebutted, we may not deny the petition for
review based on lack of credibility, not
only because under our well-established
case law we must deem the petitioner’s
testimony credible but also because a denial on that ground would require us to
adopt a justification not relied on by the
BIA.
[14] The plain text and context of the
statute dictate the conclusion that the
REAL ID Act’s rebuttable presumption of
adverse credibility finding by either the IJ or
the BIA, we are required to treat the petitioner’s testimony as credible.
9.

The fact that appeals and petitions for review are treated the same for purposes of the
Federal Rules of Appellate Procedure, see
Fed. R. App. P. 20; Dissent at 878–89, is
irrelevant. The provision in question, 8 U.S.C.
§ 1158(b)(1)(B)(iii), is not part of the those
rules.

13a

870

884 FEDERAL REPORTER, 3d SERIES

credibility applies only on appeal to the
BIA. In the absence of any other provision
in the Act affecting the procedures governing credibility findings,10 our rule that we
are required to treat a petitioner’s testimony as credible when the agency does not
make an adverse credibility finding remains applicable. Because neither the IJ
nor the BIA made an adverse credibility
determination in Dai’s case, we must treat
his testimony as credible.
B.

Sufficiency

[15, 16] Because Dai’s testimony must
be deemed credible, we must next consider
whether he testified to facts sufficient to
establish eligibility for asylum. By statute,
‘‘a person TTT who has been persecuted for
failure or refusal to [abort a pregnancy or
to undergo involuntary sterilization] or for
other resistance to a coercive population
control program, shall be deemed to have
been persecuted on account of political
opinion.’’ 8 U.S.C. § 1101(a)(42). The harm
Dai suffered was on account of his resistance to China’s coercive population control program and thus was on the basis of
a protected ground. In addition, ‘‘[p]olice
officers are the prototypical state actor for
asylum purposes.’’ Boer-Sedano v. Gonzales, 418 F.3d 1082, 1088 (9th Cir. 2005).
Therefore, the only question as to the sufficiency of Dai’s testimony is whether the
harm rose to the level of persecution.

361 F.3d 1194 (9th Cir. 2004), this court
held that facts similar to—but less serious
than—the facts in this case compelled a
finding of persecution. The applicant in
Guo was arrested, detained for a day and a
half, punched in the face, and kicked in the
stomach. Id. at 1202–03. In contrast, Dai
was forcibly pushed to the ground twice,
repeatedly punched in the stomach while
handcuffed, jailed for ten days, fed very
little food and water, deprived of sleep
through interrogation, and denied medical
care. An applicant may establish persecution through physical abuse even if he does
not seek medical treatment, see Lopez v.
Ashcroft, 366 F.3d 799, 803 (9th Cir. 2004),
but Dai did seek and receive such treatment for an injured shoulder and broken
ribs.
[19] In addition to the physical harm
he suffered, Dai lost his job as a result of
this occurrence. Such economic harm can
contribute to a finding of persecution. See
Vitug v. Holder, 723 F.3d 1056, 1065 (9th
Cir. 2013).
For these reasons, the harm Dai suffered rose to—and indeed, well surpassed—the established level of persecution. The record therefore compels the
conclusion that Dai’s testimony sets forth
sufficient specific facts to constitute past
persecution.
C.

Persuasiveness

[17, 18] Dai testified that he was beaten, arrested, detained, and deprived of
food and sleep because of his attempt to
oppose his wife’s involuntary abortion. ‘‘It
is well established that physical violence is
persecution.’’ Li v. Holder, 559 F.3d 1096,
1107 (9th Cir. 2009). In Guo v. Ashcroft,

The BIA did not make an adverse credibility finding, but instead found that Dai
had failed to ‘‘meet[ ] his burden of proving
his asylum claim.’’ As we have explained,
see pages 13–14, supra, an applicant’s testimony carries the burden of proof if it is
credible, persuasive, and sufficient. Two of

10. The only other significant change regarding credibility adopted by the REAL ID Act is
the rule that an adverse credibility finding
may now be based on ‘‘an inconsistency, inaccuracy, or falsehood [that does not go] to the

heart of the applicant’s claim.’’ 8 U.S.C.
§§ 1158(b)(1)(B)(iii), 1229a(c)(4)(C). That rule
is irrelevant to this case, as the IJ and BIA did
not make an adverse credibility finding.

14a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

those requirements have been satisfied: we
must treat Dai’s testimony as credible and
his testimony clearly set out sufficient
facts to establish past persecution. We
therefore treat the BIA’s general statement about Dai’s burden of proof as relating to the only remaining requirement for
testimony to carry that burden: persuasiveness. However, taking into account the
record as a whole, nothing undermines the
persuasiveness of Dai’s credible testimony—that is, the BIA’s determination that
Dai’s testimony was unpersuasive is not
supported by substantial evidence.
In evaluating persuasiveness the BIA is
required to ‘‘weigh the credible testimony
along with other evidence of record.’’ 8
U.S.C. § 1158(b)(1)(B)(ii). The BIA found
that Dai’s testimony was not persuasive
for two reasons. First, the record revealed
that Dai’s wife Qin and their daughter had
traveled to the United States with Dai, and
then voluntarily returned to China. Second, Dai initially tried to conceal this fact
from the asylum interviewer until he was
confronted with it. According to the BIA,
‘‘[t]he respondent’s family voluntarily returning and his not being truthful about it
is detrimental to his claim and is significant to his burden of proof.’’ The IJ identified a third reason for not finding Dai’s
testimony persuasive: the fact that when
asked for ‘‘the real story about you and
your family’s travel to the U.S.,’’ Dai responded, ‘‘I wanted a good environment
for my child. My wife had a job and I
didn’t, and that is why I stayed here. My
wife and child go home first.’’ However,
none of these reasons supports the BIA’s
conclusion that Dai’s testimony was not
persuasive in light of the record as a
whole.
We have held that a noncitizen’s ‘‘history
of willingly returning to his or her home
country militates against a finding of past
persecution or a well-founded fear of fu-

871

ture persecution.’’ Loho v. Mukasey, 531
F.3d 1016, 1017–18 (9th Cir. 2008). The
BIA relied heavily on Loho to justify its
decision. However, unlike in Loho, Dai
never returned to China—only his wife
and daughter did.
We have also recognized that a family
member’s voluntary return—or demonstrated ability to remain in the country
without further injury—can be relevant in
certain narrow circumstances: when the
applicant’s ‘‘fear of future persecution
rests solely upon threats received by his
family,’’ Tamang v. Holder, 598 F.3d 1083,
1094 (9th Cir. 2010) (emphasis added), or
when the family member and the applicant
are ‘‘similarly situated,’’ Sinha v. Holder,
564 F.3d 1015, 1022 (9th Cir. 2009).
[20] The IJ found that ‘‘the fundamental thrust of [Dai’s] claim is that his wife
was forced to have an abortion,’’ and Qin
‘‘therefore clearly has an equal, or stronger, claim to asylum than [Dai] himself.’’
The IJ also found that Qin was ‘‘the primary object of the persecution in China.’’
The BIA adopted this reasoning. However,
the findings are contrary to the reasoning
of our case law.
It is true that Dai and Qin’s persecution
arose out of the same general event, but
that is not the test that Tamang and Sinha establish. Dai’s fear of persecution does
not ‘‘rest solely’’ on Qin’s treatment, and
Dai and Qin are not ‘‘similarly situated.’’
As the harms suffered by Dai and Qin in
the past are qualitatively different and
give rise to different fears about future
persecution, we need not decide who has
the ‘‘stronger’’ claim. Neither the statutes
nor our case law endorses the IJ and
BIA’s approach of ranking distinct harms.
To the contrary, Dai’s claim is independently established by statute and is not

15a

872

884 FEDERAL REPORTER, 3d SERIES

dependent on any comparison with Qin’s.11
Qin’s hypothetical asylum claim arises
out of the invasive medical procedure imposed on her against her will—she was
‘‘forced to abort a pregnancy [and] to undergo involuntary sterilization.’’ 8 U.S.C.
§ 1101(a)(42). We certainly agree with the
BIA and the government that interference
with a person’s reproductive freedom is a
severe form of persecution and in no way
do we suggest that Qin would not have a
strong case for asylum had she applied for
it.
Dai, however, was ‘‘persecuted TTT for
[ ] resistance to a coercive population control program.’’ Id. He was subjected to
beatings, prolonged detention, and deprivation of food and sleep—none of which
was experienced by Qin. After the incident,
Dai was fired from his job while Qin was
only demoted. In addition, Qin had already
been subjected to the involuntary insertion
of an IUD, whereas Dai fears future involuntary sterilization. Since Qin returned to
China she has apparently not faced further
persecution, but the police have come looking for Dai several times. Dai and Qin’s
past experiences, as well as their fears
about the future, are therefore not so similar as to support the BIA’s finding that
Qin’s voluntary return to China undermines Dai’s claim for asylum.

to establish himself in the United States—
hoping that, once he did so, his family
would be able to join him. The BIA improperly substituted its own view of what
the members of the family should have
done for Dai and Qin’s own reasoned judgment in a manner that is not supported by
substantial evidence in the record.
The BIA’s second reason for finding
Dai’s testimony unpersuasive fares no better. The BIA held that even in the absence
of an adverse credibility finding, Dai ‘‘not
being truthful’’ about his family’s travel to
the United States and voluntary return to
China ‘‘is detrimental to his claim and is
significant to his burden of proof.’’

Moreover, Dai’s and Qin’s respective decisions make sense in context. Qin still had
a job in China, and their daughter had a
place in school—albeit not in as good a
school as she deserved. In this context, it
was entirely reasonable to think that the
family would be best off if Qin returned to
China to keep her job while Dai attempted

[21] The BIA’s framing of the issue
suggests that it is relevant because it casts
doubt on Dai’s credibility. However, the
exercise in which we engage when evaluating persuasiveness requires that in this
case we treat Dai’s testimony before the IJ
as credible. Other evidence is relevant only
to the extent that it affects the persuasiveness of the applicant’s testimony for reasons other than challenging his credibility.
Otherwise, the statutory command to
‘‘weigh the credible testimony along with
other evidence of record,’’ 8 U.S.C.
§ 1158(b)(1)(B)(ii) (emphasis added), would
not make sense. Once credibility is decided—here, as we have explained, by the
failure of the IJ or the BIA to make an
adverse credibility finding—the issue is
settled. Credibility concerns that do not
justify an adverse credibility finding cannot be smuggled into the persuasiveness
inquiry so as to undermine the finding of
credibility we are required to afford Dai’s
testimony.12 Indeed, despite pointing out

11. ‘‘For purposes of determinations under
this chapter, a person TTT who has been persecuted for TTT resistance to a coercive population control program, shall be deemed to
have been persecuted on account of political
opinion.’’ 8 U.S.C. § 1101(a)(42).

12. According to the dissent, ‘‘there is barely a
dime’s worth of substantive difference between ‘credible’ and ‘persuasive.’ ’’ Dissent at
45. This assertion is flatly contradicted by the
text of the REAL ID Act, which requires that
testimony be both ‘‘credible’’ and ‘‘persua-

16a

873

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

that Dai was ‘‘not [ ] truthful’’ about a
tangential point, the BIA never questioned
the facts regarding Dai’s persecution in
China.
Neither the IJ nor the BIA explained
how Dai’s concealment of his family’s travel to the United States and return to China was relevant in any way other than to
undermine Dai’s credibility. The government likewise offered no such explanation
before this court, and in any event we
independently discern no relevance beyond
Dai’s credibility. Therefore, neither the
family’s return nor Dai’s alleged concealment of that fact can support the BIA’s
finding that Dai’s credible testimony was
unpersuasive.
[22] Finally, contrary to the portion of
the IJ’s opinion not mentioned by the BIA,
Dai’s statement that ‘‘My wife had a job
and I didn’t, and that is why I stayed
here,’’ does not render his testimony about
his past persecution unpersuasive. A valid
asylum claim is not undermined by the fact
that the applicant had additional reasons
(beyond escaping persecution) for coming
to or remaining in the United States, including seeking economic opportunity. See
Li, 559 F.3d at 1105 (reversing an adverse
credibility determination that was based
on an applicant’s testimony that economic
opportunity was an additional reason for
coming to the United States). That is especially true when, as in this case, the loss of
economic opportunity in the home country
is part of the overall persecution. Dai testified about his reasons for coming to the
United States: ‘‘I was persecuted in ChinaTTTT I was arrested. I was beaten[ ]. I
lost my jobTTTT I want to come here [ ]
and have my very basic human rights.’’
Although Dai acknowledged that he had
additional reasons for coming to the Unitsive.’’ 8 U.S.C. § 1158(b)(1)(B)(ii). ‘‘It is a
well-established rule of statutory construction
that courts should not interpret statutes in a

ed States, he never recanted or contradicted his assertion that he feared persecution
if he returned to China, which is the only
subjective requirement for an asylum
claim.
* * *
[23] The BIA did not enter an adverse
credibility finding, so we are required to
treat Dai’s testimony as credible. The record compels the conclusion that he testified to sufficient facts to demonstrate his
eligibility for asylum: he was subjected to
harm rising to the level of persecution,
that persecution was on account of a protected ground, and the persecution was
committed by the government. Nothing in
the BIA’s burden of proof analysis raises
questions about whether Dai established
either of those elements. Treating that
analysis instead as going to the question of
persuasiveness, the BIA’s concerns are either unsupported by our case law or serve
only as attempts to impermissibly undermine the credibility determination. The
record therefore compels the conclusion
that Dai’s testimony satisfies his burden of
proof because it meets the three requirements of the statute: it is credible, persuasive, and sets forth sufficient facts. 8
U.S.C. § 1158(b)(1)(B)(ii).
[24] Because Dai has established that
he suffered past persecution, he is entitled
to a presumption of a well-founded fear of
future persecution. During the administrative proceedings, DHS
made no arguments concerning changed
country conditions to the IJ or the BIA,
and presented no documentary evidence
for that purpose. ‘‘In these circumstances, to provide [DHS] with another
opportunity to present evidence of
way that renders a provision superfluous.’’
Chubb Custom Ins. Co. v. Space Systems/Loral,
Inc., 710 F.3d 946, 966 (9th Cir. 2013).

17a

874

884 FEDERAL REPORTER, 3d SERIES

changed country conditions, when it
twice had the chance but failed to do so,
would be exceptionally unfair.’’
Ndom v. Ashcroft, 384 F.3d 743, 756 (9th
Cir. 2004) (quoting Baballah v. Ashcroft,
367 F.3d 1067, 1078 n.11 (9th Cir. 2004) );
see also Quan v. Gonzales, 428 F.3d 883,
889 (9th Cir. 2005). ‘‘In this situation, we
are not required to remand for a determination of whether [Dai] is eligible for asylum. We hold that he is eligible for asylum.
Because the decision to grant asylum is
discretionary, however, we remand for a
determination of whether [Dai] should be
granted asylum.’’ Ndom, 384 F.3d at 756
(citations omitted).
II.

Withholding of Removal

[25, 26] Withholding of removal is governed by the same standards as asylum for
demonstrating credibility, sufficiency, and
persuasiveness.
Compare
8
U.S.C.
§ 1158(b)(1)(B)(ii),
(iii),
with
§ 1229a(c)(4)(B), (C). The primary difference is that, in order to be eligible for
withholding, Dai must demonstrate that ‘‘it
is more likely than not that he would be
subjected to persecution’’ based on a protected ground if removed to China, a higher standard than the well-founded fear
required for asylum. Zhang v. Ashcroft,
388 F.3d 713, 718 (9th Cir. 2004) (quotation
marks omitted). However, as with asylum,
past persecution gives rise to a presumption of a sufficient likelihood of future persecution. Mutuku v. Holder, 600 F.3d
1210, 1213 (9th Cir. 2010); Tamang, 598
13. Dai does not challenge the BIA’s denial of
CAT relief here, so we do not consider it.
14. With all respect, Judge Trott’s lengthy laments regarding the need for the IJ and the
BIA to state explicitly that they find a petitioner’s testimony not credible are wholly unwarranted. Such has been the law for at least two
decades. It is not difficult for an IJ or the BIA
to follow that rule: the agency need only include a few words in its decision. When it
fails to do so, we can only assume that the

F.3d at 1091; Mousa v. Mukasey, 530 F.3d
1025, 1030 (9th Cir. 2008); Hanna v. Keisler, 506 F.3d 933, 940 (9th Cir. 2007); 8
C.F.R. § 1208.16(b)(1)(i).
The record compels the conclusion that
Dai has established past persecution for
his withholding claim for the same reasons
as for his asylum claim. The government
presented no evidence of changed country
conditions, nor did it argue that the resulting presumption has been rebutted or that
Dai is barred from withholding of removal
for any reason. We therefore remand with
instructions to grant Dai withholding of
removal. See Ndom, 384 F.3d at 756.13
CONCLUSION
[27] The dissent is correct that our
‘‘role in an immigration case is typically
one of review, not of first view.’’ Gonzales
v. Thomas, 547 U.S. 183, 185, 126 S.Ct.
1613, 164 L.Ed.2d 358 (2006) (quotation
marks omitted). It is the dissent, however,
that violates this cardinal rule. We do not
doubt that our dissenting colleague could
have written a more persuasive opinion on
behalf of the BIA denying relief to Dai,
but that is not the role of this court. We
are limited to reviewing the reasoning actually advanced by the agency and we
cannot substitute our own rationales for
those it relied on. Here, neither the IJ nor
the BIA made an adverse credibility finding, no matter how much the dissent
wishes that they had.14
failure is deliberate. In any event, the agency’s failure in a particular case to make a
required finding would hardly warrant Judge
Trott’s extraordinary discourse regarding our
circuit’s immigration law in general. In short,
the problem which so greatly disturbs Judge
Trott is of little moment. At most, he has
shown that on occasion the agency has failed
to do its job properly. If he’s right, then surely
it will do better in the future.

18a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

Dai’s petition for review is GRANTED
and this case is REMANDED to the BIA
for the exercise of its statutory discretion
and to grant withholding of removal.
TROTT, Circuit Judge, dissenting:
The significance of my colleagues’ opinion is not that it remands this case to the
Bureau of Immigration Appeals (‘‘BIA’’)
with orders favorable to Ming Dai. In the
abstract, this result would be unremarkable. However, the serious legal consequences of their opinion as a circuit precedent are that it (1) demolishes both the
purpose and the substance of the REAL
ID Act of 2005 (‘‘Act’’) 1, (2) disregards the
appropriate standard of review, and (3)
perpetuates our idiosyncratic approach to
an Immigration Judge’s (‘‘IJ’’) determination that the testimony of an asylum seeker lacks sufficient credibility or persuasiveness to prove his case. The majority’s
opinion accomplishes these untoward results by contaminating the issue before us
with irrelevancies, the most pernicious of
which is a meritless irrebuttable presumption of credibility. The sole issue should be
whether Dai’s unedited presentation compels the conclusion that he carried his burden of proving he is a refugee and thus
eligible for a discretionary grant of asylum. Only if we can conclude that no reasonable factfinder could fail to find his
evidence conclusive can we grant his petition.
The IJ’s decision not to make an explicit
adverse credibility finding is a classic red
herring that throws our analysis off the
scent and preordains a result that is incompatible with the evidentiary record. By
omitting from their opinion the IJ’s factbased explanation of his decision, the majority elides and obscures eight material
findings of fact the IJ did make, each of
which is entitled to substantial deference.
1.

Pub. L. No. 109-13, 119 Stat. 231.

875

The majority’s artificial assertion that
‘‘there is no finding to which we can defer’’
is false. For this reason, I quote in full the
IJ’s findings and conclusions about the
persuasiveness of Dai’s presentation in
Part IV of my dissent. The eight findings
are as follows.
First, the IJ specifically found that the
information reported by the asylum officer
about his conversation with Dai was accurate. The IJ said,
As to the contents of [the asylum officer’s notes], I give the notes full weight,
insofar as the respondent has confirmed
the contents of the questions and answers given during the course of that
interview. Furthermore, I note that in
the sections in which the respondent
equivocated, stating that he was nervous
and not sure that he gave those precise
answers, I nevertheless give the Asylum
Officer’s notes some substantial weight,
in that they are consistent with the respondent’s testimony in court.
Accordingly, the IJ accepted as a fact
that Dai admitted that he did not disclose
the consequential truth about his wife’s
and daughter’s travels because he was nervous about how this would be perceived by
the asylum officer in connection with his
claim.
Second, the IJ accepted Dai’s admission
as a fact that he concealed the truth because he was afraid of giving straight answers regarding his wife’s and daughter’s
trip to the United States.
Third, the IJ determined that Dai had
deliberately omitted highly relevant information from his Form I-589 application for
asylum, information that he also tried to
conceal from the asylum officer.
Fourth, the IJ found that Dai’s omission
of his information ‘‘is consistent with his

19a

876

884 FEDERAL REPORTER, 3d SERIES

lack of forthrightness before the asylum
office[r] as to his wife and daughter’s travel with himTTTT’’
Fifth, the IJ credited Dai’s admission
that when asked by the asylum officer to
‘‘tell the real story’’ about his family’s travels, Dai said he ‘‘wanted a good environment for his child, and his wife had a job,
but he did not, and that is why he stayed
here [after his wife and daughter went
back to China].
Sixth, the IJ found that Dai admitted he
stayed here after they returned ‘‘because
he was in a bad mood and he wanted to get
a job and ‘a friend of mine is here.’ ’’
Seventh, the IJ said ‘‘I do not find that
[Dai’s] explanations for [his wife’s] return
to China while he remained here are adequate.’’ (Emphasis added).
Finally, the IJ also credited Dai’s concessions that his wife and daughter returned to China because ‘‘his daughter’s
education would be cheaper in China,’’ and
that ‘‘his wife wanted to go to take care of
her father.’’
When Dai’s subterfuge got to the BIA,
the BIA said in its decision that ‘‘the record reflects that [Dai] failed to disclose to
both the asylum officer and the IJ’’ the
true facts about his family’s travels. The
BIA noted that Dai had conceded he was
not forthcoming about this material information because he believed that the truth
about their travels ‘‘would be perceived as
inconsistent with his claims of past and
feared persecution.’’
The IJ’s specific factual findings in connection with Dai’s failure to satisfy his
burden of proof were not the product of
inferences drawn from circumstantial evidence. These findings were directly based
upon revealing answers Dai admitted he
gave to the asylum officer during his interview. These facts are beyond debate, and
they undercut Dai’s case. To quote the

BIA, these facts were ‘‘detrimental to his
claim’’ and ‘‘significant to his burden of
proof.’’ Nevertheless, the majority cavalierly brushes them aside, claiming that an
immaterial presumption of credibility overrides all of them.
In this connection, I note a peculiarity in
the majority’s approach to Dai’s case: Nowhere does Dai assert that he is entitled to
a conclusive presumption of credibility. His
brief does not contain any mention of the
presumption argument the majority conjures up on his behalf. The closest Dai
comes to invoking the majority’s inapt postulate is with a statement that we ‘‘should’’
treat as credible his testimony regarding
persecution in China. He does not take
issue with the IJ’s foundational adverse
factual findings, choosing instead to argue
that they were not sufficient in the light of
the record as a whole to support the IJ’s
ultimate determination.
For example, Dai acknowledges in his
brief that the ‘‘IJ’s or BIA’s factual findings are reviewed for substantial evidence’’ and that the ‘‘REAL ID Act’s new
standards governing adverse credibility
determinations applies to applications for
asylum, withholding of removal, and CAT
relief made on or after May 11, 2005.’’
Blue Br. 10 (emphasis added) (quotation
marks omitted). Next, he notes that ‘‘an IJ
cannot selectively examine evidence in determining credibility, but rather must
present a reasoned analysis of the evidence as a whole and cite specific instances in the record that form the basis of the
adverse credibility finding.’’ Id. (emphasis
added) (quotation marks omitted). Moreover, Dai notes that ‘‘[t]o support an adverse credibility determination, inconsistencies must be considered in light of the
totality of the circumstances, and all relevant factors’’ adding that ‘‘trivial inconsistencies TTT should not form the basis of
an adverse credibility determination.’’ Id.

20a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

at 10–11 (emphasis added) (quotation
marks omitted). He contends that he ‘‘has
provided adequate explanation’’ for his inconsistencies, i.e., the failure to disclose
his family’s travels. Id. at 14. Finally, after
attempting to pick apart the IJ’s adverse
findings, Dai’s bottom line is that ‘‘his
wife’s departure from the United States
does not adversely affect his credibility at
all,’’ an assertion that ignores his failed
coverup of it. See id. at 16.
In summary, the majority choose to ignore a material part of the evidentiary
record even though Dai implores us to
‘‘examine it as a whole,’’ as he did in his
brief to the BIA. Dai accepts that the
viability of his entire presentation is on the
line, but the majority ignores his concession. In this connection, the Attorney General has responded only to the claims and
arguments Dai included in his brief. The
Attorney General has not been given an
opportunity to respond to the majority’s
inventive analysis, nor to the theory concocted by the majority on Dai’s behalf.
Both sides will be surprised by my colleagues’ artful opinion—Dai pleasantly, the
Attorney General not so much.
I will have more to say in Part V about
our Circuit’s misinformed treatment of the
role, responsibility, and product of an asylum officer.
For these reasons, I respectfully dissent.

877

intentions with untenable methods that violate the institutional differences between
a reviewing appellate court, on one hand,
and a trial court on the other, usurping the
role of the Department of Homeland Security (‘‘DHS’’) and the BIA in the process.
Referring to our approach to witness credibility as an ‘‘idiosyncratic analytical
framework,’’ a previous panel of our court
described this inappropriate situation as
follows:
The Supreme Court has repeatedly instructed us on the proper standard to
apply when reviewing an immigration
judge’s adverse credibility determination. Time and again, however, we have
promulgated rules that tend to obscure
that clear standard and to flummox immigration judges, who must contort
what should be a simple factual finding
to satisfy our often irreconcilable precedents. The result of this sly insubordination is that a panel that takes Congress
at its word and accepts that findings of
fact are ‘‘conclusive unless any reasonable adjudicator would be compelled to
conclude the contrary,’’ TTT or follows
the Supreme Court’s admonition that
‘‘[t]o reverse the BIA finding we must
find that the evidence not only supports
that conclusion, but compels it,’’ TTT
runs a serious risk of flouting one of our
eclectic, and sometimes contradictory,
opinions.

Backdrop

Jibril v. Gonzales, 423 F.3d 1129, 1138 (9th
Cir. 2005) (alteration in original) (citations
omitted).

Over the years, our Circuit has manufactured a plethora of misguided rules regarding the credibility of political asylum
seekers. I begin with this issue because
the majority’s mishandling of it infects the
remainder of their opinion with error.
These result-oriented ad hoc hurdles for
the government stem from humanitarian
intentions, but our court has pursued these

Many of our Circuit’s contrived rules on
this subject and my colleagues’ decision
are irreconcilable with the structural principle set forth in Federal Rule of Civil
Procedure 52(a)(6) that ‘‘[f]indings of fact,
whether based on oral or other evidence,
must not be set aside unless clearly erroneous, and the reviewing court must give
due regard to the trial court’s opportunity

I

21a

878

884 FEDERAL REPORTER, 3d SERIES

to judge the witnesses’ credibility.’’ Accordingly, we are expected to apply a highly deferential standard to a trial court’s
determination regarding the credibility of
a witness. Anderson v. City of Bessemer
City, 470 U.S. 564, 573–76, 105 S.Ct. 1504,
84 L.Ed.2d 518 (1985). In discussing this
rule, the Supreme Court said that ‘‘[w]hen
findings are based on determinations regarding the credibility of witnesses, Rule
52(a) demands even greater deference to
the trial court’s findings; for only the trial
judge can be aware of the variations in
demeanor and tone of voice that bear so
heavily on the listener’s understanding of
and belief in what is said.’’ Id. at 575, 105
S.Ct. 1504. The Court added that the applicable ‘‘clearly erroneous’’ standard of review ‘‘plainly does not entitle a reviewing
court to reverse the finding of a trier of
fact simply because it is convinced that it
would have decided the case differently.
The reviewing court oversteps the bounds
of its duty under Rule 52(a) if it undertakes to duplicate the role of the lower
court.’’ Id. at 573, 105 S.Ct. 1504 (emphasis
added).
The Supreme Court sharpened this
point about our limited role in Gonzales v.
Thomas, 547 U.S. 183, 126 S.Ct. 1613, 164
L.Ed.2d 358 (2006) (per curiam), vacating
409 F.3d 1177 (9th Cir. 2005) (en banc). In
summarily vacating our obdurate en banc
opinion, the Court held that we had exceeded our authority and made a determination that belonged to the BIA. 547 U.S.
at 185–86, 126 S.Ct. 1613. The Court
agreed with the Solicitor General that ‘‘a
court’s role in an immigration case is typically one of review, not of first view.’’ Id.
at 185, 126 S.Ct. 1613 (emphasis added)
(quotation marks omitted). To support its
conclusion, the Court cited INS v. Orlando
Ventura, 537 U.S. 12, 123 S.Ct. 353, 154
L.Ed.2d 272 (2002): a ‘‘ ‘judicial judgment
cannot be made to do service for an administrative judgment.’ ’’ 547 U.S. at 186, 126

S.Ct. 1613 (quoting Ventura, 537 U.S. at
16, 123 S.Ct. 353). More about Ventura
later.
The majority’s opinion’s use of an incongruous irrebuttable presumption of credibility to erase the IJ’s findings of fact and
the BIA’s decision and thus to make us a
court of ‘‘first view’’ is another example of
our continuing intransigence. If, as they
say, we are bound by precedent to do it
their way, then its time to change our
precedent.
II
A False Premise
A.
The majority opinion’s assertion that
‘‘we must treat [Dai’s] testimony as credible’’ rests on a fallacious premise. Judge
Reinhardt writes, ‘‘Properly understood,
the rebuttable presumption provision of
the REAL ID Act applies only to appeals
to the BIA, not to petitions for review in
our court.’’ From this defective premise,
he concludes that we must ignore the IJ’s
detailed analysis and findings of fact about
Dai’s presentation. When it comes to our
task of reviewing the credibility of witnesses in a trial court or whether a witness’ testimony suffices to carry his burden of proof, however, there is no material
difference between an appeal and a petition for review, none. Federal Rule of Civil
Procedure 52(a) makes no such distinction.
As Anderson said, Rule 52(a) applies to a
‘‘reviewing court,’’ which is what we are in
this capacity. 470 U.S. at 573–74, 105 S.Ct.
1504 (emphasis added); see Thomas, 547
U.S. at 185, 126 S.Ct. 1613. Neither the
Court nor Rule 52(a) differentiate between
appeals and petitions for review. Nor
would such a distinction make any sense.
As Anderson and Thomas illustrate, the
issue is one of function, not of form or

22a

879

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

labels. The Act’s use of the word ‘‘appeal’’
does not dictate how we must go about our
process of review. Using the standards
provided by Congress, we are not in a
position to weigh a witness’s credibility or
persuasiveness.
Federal Rule of Appellate Procedure 20,
‘‘Applicability of Rules to the Review or
Enforcement of an Agency Order,’’ illustrates the soundness of treating appeals
and petitions for review with a uniform
approach. Rule 20 reads, ‘‘All provisions of
these rules TTT apply to the review or
enforcement of an agency order. In these
rules, ‘appellant’ includes a petitioner or
applicant, and ‘appellee’ includes a respondent.’’
Moreover, and directly to the point, the
Act itself does not require an IJ to make a
specific credibility finding in those precise
terms. As the BIA correctly said with respect to the Act, ‘‘[c]ontrary to the respondent’s argument on appeal, the Immigration Judge need not have made an explicit
adverse credibility finding to nevertheless
determine that the respondent did not
meet his burden of proving his asylum
claim.’’ See discussion infra Section VI. If
the IJ does not make such an explicit
finding, all the respondent is entitled to is
a ‘‘rebuttable presumption of credibility on
appeal.’’ 8 U.S.C. § 1158(b)(1)(B)(iii) (emphasis added). By attempting to restrict
this language to an appeal to the BIA, the
majority opinion conveniently frees itself
to apply derelict Ninth Circuit precedent
to Dai’s testimony and automatically to
deem it credible.2

credible.’’ The practical effect of the majority’s rule is breathtaking: The lack of a
formal adverse credibility finding becomes
a selective positive credibility finding and
dooms a fact-based determination by an IJ
and the BIA that an applicant’s case is not
sufficiently persuasive to carry his burden
of proof. The majority’s bizarre cherrypicking approach violates all the rules that
control our review of a witness’s testimony
before a factfinder.
B.
But even if we were to assume for the
sake of argument that the Act’s rebuttable
presumption applies only to the BIA, by
what logic, reason, or principle does it
follow that we as a reviewing court are
free to clothe an applicant’s testimony with
a protective presumption of credibility?
Are we free to turn a blind eye to conspicuous problems with his testimony identified by an IJ? By the BIA? Free to brush
off Rule 52(a) and the Supreme Court’s
explanation of what the Rule requires?

Over and over the majority incant an
inappropriate and counterintuitive rule
that in the absence of a formal adverse
credibility finding, ‘‘we are required [blindly] to treat the petitioner’s testimony as

A conclusive presumption of credibility
has no valid place in our task of reviewing
the persuasiveness of a witness’s testimony. Such an artifice vacuously eliminates
relevant factual evidence from consideration and violates Rule 52(a)(6). The deployment of a conclusive presumption becomes a misguided way not only of putting
a heavy thumb on one tray of the traditional scales of justice, but also of removing relevant evidence from the other. This
approach allows us to evade our responsibilities to examine and to evaluate the
entire record before an IJ, permitting us
instead to disregard facts that would otherwise discredit our final determination.

The majority cites She v. Holder, 629 F.3d
958, 964 & n.5 (9th Cir. 2010) in support of
this ipse dixit claim. However, She’s footnote

5 says that because the ‘‘rebuttable presumption’’ provision does not apply retroactively, it
had no applicability in She’s case.

2.

23a

880

884 FEDERAL REPORTER, 3d SERIES

Judge Reinhardt’s opinion writes the
REAL ID Act and its reference to a rebuttable presumption of credibility out of existence. However, Congress specifically intended the Act to govern us, the Ninth
Circuit Court of Appeals, as demonstrated
in Section III of this dissent. The evidentiary record in this case devours any such
presumption.
Judge Reinhardt’s claim that a petition
for review is ‘‘a new action against the
United States’’ is irrelevant. No matter
what he calls it, we are reviewing a decision made by an administrative agency
involving the persuasiveness of his case.

First, ‘‘[t]he burden of proof is on the
applicant to establish that the applicant is
a refugeeTTTT’’ 4
Second, ‘‘[t]he testimony of the applicant
may be sufficient to sustain the applicant’s
burden without corroboration, but only if
the applicant satisfies the trier of fact that
the applicant’s testimony is credible, is
persuasive, and refers to specific facts sufficient to demonstrate that the applicant is
a refugee.’’ 5
Third,
Considering the totality of the circumstances, and all relevant factors, a trier
of fact may base a credibility determination on the demeanor, candor, or responsiveness of the applicant or witness, the
inherent plausibility of the applicant’s or
witness’s account, the consistency between the applicant’s or witness’s written and oral statements (whenever made
and whether or not under oath, and
considering the circumstances under
which the statements were made), the
internal consistency of each such statement, the consistency of such statements
with other evidence of record (including
the reports of the Department of State
on country conditions), and any inaccuracies or falsehoods in such statements,
without regard to whether an inconsistency, inaccuracy, or falsehood goes to
the heart of the applicant’s claim, or any
other relevant factor. There is no presumption of credibility, however, if no
adverse credibility determination is explicitly made, the applicant or witness
shall have a rebuttable presumption of
credibility on appeal.6

III
The REAL ID Act
Congress enacted the REAL ID Act of
2005 because of our Circuit’s outlier precedents on this issue and our intransigent
refusal to follow the rules. The House Conference Committee Report (‘‘House Report’’) 3 explained that ‘‘the creation of a
uniform standard for credibility is needed
to address a conflict TTT between the
Ninth Circuit on one hand and other circuits and the BIA.’’ H.R. Rep. No. 109-72
at 167. The House Report also said that
the Act ‘‘resolves conflicts between administrative and judicial tribunals with respect
to standards to be followed in assessing
asylum claims.’’ Id. at 162. Nevertheless,
my colleagues hold that a key part of the
Act does not apply to us, only to the BIA.
As the Act pertains to this case, it established a number of key principles, all of
which the majority fails to follow, perpetuating the conflicts Congress attempted to
resolve.

We have attempted in a number of panel
opinions after the Act to calibrate our ap-

3.

5.

4.

H.R. Rep. No. 109-72 (2005) (Conf. Rep.),
reprinted in 2005 U.S.C.C.A.N. 240.
8 U.S.C. § 1158(b)(1)(B)(i).

6.

8 U.S.C. § 1158(b)(1)(B)(ii) (emphasis added).
8 U.S.C. § 1158(b)(1)(B)(iii).

24a

881

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

proach to applicant credibility and persuasiveness issues, but as the majority opinion
illustrates, ‘‘old ways die hard.’’ Huang v.
Holder, 744 F.3d 1149 (9th Cir. 2014) captures where we should be on this issue:
[W]e have concluded that ‘‘the REAL
ID Act requires a healthy measure of
deference to agency credibility determinations.’’ This deference ‘‘makes sense
because IJs are in the best position to
assess demeanor and other credibility
cues that we cannot readily access on
review.’’ ‘‘[A]n immigration judge alone
is in a position to observe an alien’s tone
and demeanor, to explore inconsistencies
in testimony, and to apply workable and
consistent standards in the evaluation of
testimonial evidence.’’ By virtue of their
expertise, IJs are ‘‘uniquely qualified to
decide whether an alien’s testimony has
about it the ring of truth.’’
The need for deference is particularly
strong in the context of demeanor assessments. Such determinations will often be based on non-verbal cues, and
‘‘[f]ew, if any, of these ephemeral indicia
of credibility can be conveyed by a paper
record of the proceedings and it would
be extraordinary for a reviewing court
to substitute its second-hand impression
of the petitioner’s demeanor, candor, or
responsiveness for that of the IJ.’’ Indeed, even before the enactment of the
REAL ID Act, we recognized the need
to give ‘‘special deference to a credibility
determination that is based on demeanor,’’ because the important elements of a
witness’s demeanor that ‘‘may convince
the observing trial judge that the witness is testifying truthfully or falsely’’
are ‘‘entirely unavailable to a reader of
the transcript, such as the Board or the
Court of Appeals.’’ The same principles
underlie the deference we accord to the
credibility determinations of juries and
trial judges.

Id. at 1153–54 (alterations in original) (citations omitted). This ‘‘healthy measure of
deference’’ should also apply to the agency’s determination with respect to whether
an applicant has satisfied the agency’s ‘‘trier of fact’’—not us—that his evidence is
persuasive, an issue that is in the wheelhouse of a jury or a judge or an IJ hearing
a case as a factfinder.
IV
The IJ’s Decision
The IJ in this case concluded that Ming
Dai had not satisfied his statutory burden
of establishing that he is a refugee pursuant to § 1158(b)(1)(B)(i). The IJ gave as
his ‘‘principle area of concern’’ Dai’s implausible unpersuasive testimony, another
way of saying it wasn’t credible. As Dai’s
brief correctly demonstrates, there is barely a dime’s worth of substantive difference
between ‘‘credible’’ and ‘‘persuasive.’’ Here
is how the IJ explained his decision in
terms of § 1158(b)(1)(B)(i) and (ii):
I have carefully considered the respondent’s testimony and evidence and for
the following reasons, I find that the
respondent has failed to meet his burden
of proving eligibility for asylum.
The principal area of concern with regard to the respondent’s testimony arose
during the course of his cross-examination. On cross-examination, the respondent was asked about various aspects of
his interview with an Asylum Officer.
The Department of Homeland Security
also submitted the notes of that interview as Exhibit 5. The respondent was
asked specific questions regarding several aspects of his testimony before the
Asylum Officer. In the course of crossexamination, the respondent was asked
regarding his questions and answers as
to whether his wife and daughter travelled with him to the United States. The
respondent’s responses included the

25a

882

884 FEDERAL REPORTER, 3d SERIES

question of whether the asylum officer
had asked him if his wife and daughter
travelled anywhere other than to Taiwan
and Hong Kong. The respondent conceded that he was asked this question
and that he replied yes, they had travelled to Taiwan and Hong Kong. The
respondent was asked whether the Asylum Officer inquired whether his wife
and daughter had travelled elsewhere.
The respondent then testified before the
Court that he was asked this question,
‘‘but I was nervous.’’ In this regard, I
note that the respondent did not directly
answer the question; instead leapt directly to an explanation for what his
answer may have been, namely that he
was nervous. The respondent was then
asked specifically whether the Asylum
Officer asked him if his wife had travelled to Australia in 2007. The respondent confirmed that he had been asked
this question, and he confirmed that the
answer was in the affirmative. The respondent also confirmed that the Asylum Officer had asked him whether she
had travelled anywhere else. He confirmed that he had been so asked. The
respondent was then asked whether he
answered ‘‘no,’’ that she had not travelled anywhere else. The respondent answered that he believed so, that he had
so answered. The respondent was then
asked, during the course of cross-examination, why he had not said to the Asylum Officer that yes, she had travelled
to the United States. The respondent
replied that he had not thought of it. He
stated that they did come with him
(meaning his wife and daughter) and
that he thought the Asylum Officer was
asking him if they had travelled anywhere other than the United States. He
explained that he did so because he assumed the U.S. Government had the
records of their travel to the United
States. On further questioning, the re-

spondent eventually hesitated at some
length when asked to further explain
why he did not disclose spontaneously to
the Asylum Officer that his wife and
daughter had come with him. The respondent paused at some length and I
observed that the respondent appeared
nervous and at a loss for words. However, after a fairly lengthy pause, the respondent testified that he is afraid to
say that his wife and daughter came
here and why they went back. The respondent was asked whether he told the
Asylum Officer that he was afraid to
answer directly. The respondent initially
testified that he forgot and did not remember whether he said that. He again
reiterated that he was very nervous. He
was then asked the question again as to
whether he told the Asylum Officer that
he was afraid to answer why his wife
and daughter had gone back. He then
conceded that maybe, yes, he had answered in that fashion. The respondent
was asked whether the Asylum Officer
inquired why his wife and daughter went
back, and the respondent conceded that
he had been so asked, and he further
conceded that he replied because school
in the United States cost a lot of money
(referring to the schooling for his daughter). The respondent was then asked to
confirm that the Asylum Officer eventually asked him to tell him the real story
as to why his family travelled to the
United States and returned to China.
The respondent confirmed that he was
asked this question and when asked,
whether he replied that it was because
he wanted a good environment for his
child and because his wife had a job and
he did not and that that is why he
stayed here. He confirmed that he did,
in fact, say that. The respondent was
further asked, during the course of testimony in court, why his wife and daughter returned to China. In this regard,

26a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

the respondent testified that they came
with him, but returned to China several
weeks after arrival. He testified that
they did so because his father-in-law was
elderly and needed attention, and because his daughter needed to graduate
school in China.
The respondent further claimed that his
wife had, in fact, suffered past persecution in the form of a forced abortion and
the respondent confirmed that he feared
his wife and daughter would suffer future persecution. In this regard, the respondent qualified his answer by saying
that his wife was now on an IUD, apparently thereby suggesting that the risk of
persecution is reduced. However, the respondent did concede that the risk of
future persecution also pertains to his
daughter. Indeed, in this regard, the
respondent testified that this is, at least
in part, why he applied for asylum.
As to the contents of Exhibit 5, I give
the notes full weight, insofar as the respondent has confirmed the contents of
the questions and answers given during
the course of that interview. Furthermore, I note that in the sections in
which the respondent equivocated, stating that he was nervous and not sure
that he gave those precise answers, I
nevertheless give the Asylum Officer’s
notes some substantial weight, in that
they are consistent with the respondent’s testimony in court. Specifically, I
note that the Asylum Officer’s notes
state that the respondent ultimately indicated that he was afraid of giving
straight answers regarding his daughter
and wife’s trip to the United States and
return to China. And while the respondent did not confirm this in court, he did
give a similar answer as to why he was
testifying in this regard. In other words,
the respondent appears to have stated,
both before the Asylum Officer and in
court that he did not spontaneously dis-

883

close the travel of his wife and daughter
with him to the United States and their
return because he was nervous about
how this would be perceived by the Asylum Officer in connection with his
claim. I further note that the Asylum
Officer’s notes are internally consistent
with regard to references to earlier
questions, such as whether the respondent had stated that he applied for a
visa with anyone else. At page 2 of the
notes contained in Exhibit 5, the respondent was asked whether he applied
for his visa with anyone else and the
notes indicated that he stated that, ‘‘no,
I applied by myself.’’ Similarly, I note
that the testimony before the Asylum
Officer and the Court is consistent with
the omission in the respondent’s Form
I-589 application for asylum, of an answer to the question of the date of the
previous arrival of his wife, if she had
previously been in the United States.
See Exhibit 2, page 2, part A.II, question 23. When asked about this omission,
the respondent expressed surprise, stating that he told the preparer about their
trip and indicated that he thought it had
been filled out. Notwithstanding the respondent’s statement in this regard, I do
observe that the omission is consistent
with his lack of forthrightness before the
asylum office as to his wife and daughter’s travel with him to the United
States and their subsequent return to
China shortly thereafter.
In sum, the respondent’s testimony before the Court and his testimony regarding the Asylum Officer notes, as well as
the notes themselves, clearly indicate
that the respondent failed to spontaneously disclose that his wife and daughter
came with him and then returned to
China. His testimony and the notes also
consistently demonstrate that the respondent paused at length, both before

27a

884

884 FEDERAL REPORTER, 3d SERIES

the Court and before the Asylum Officer, when asked about this topic. His
testimony and the Asylum Officer notes
are also consistent in indicating that he
ultimately testified that he was afraid to
say that his wife came here and was
afraid of being asked about why she
went back. Furthermore, the respondent
has conceded that he was asked to ‘‘tell
the real story’’ about his family’s travel
to the United States by the Asylum Officer, and that he replied that he wanted a
good environment for his child and his
wife had a job, but he did not, and that
is why he stayed here.
In Loho v. Mukasey, 531 F.3d 1016,
1018–19 (9th Cir. 2008), the Ninth Circuit addressed the situation in which an
asylum applicant has found safety in the
United States and then returns to the
country claimed of persecution before
eventually finding asylum in the United
States. The Ninth Circuit held that the
applicant’s voluntary return to the country of claimed persecution may be considered in assessing both credibility and
whether the respondent has a wellfounded fear of persecution in that country. Here, while the respondent himself
has not returned to China, his wife and
daughter did. Indeed they did so shortly
after arriving in the United States, and
the respondent confirmed that they did
so because the schooling is cheaper for
his daughter in China, as well as because his father-in-law is elderly and
needed to be cared for. The respondent
also told the Asylum Officer that the
‘‘real story’’ about whey [sic] his family
returned was that his wife had a job and
he did not, and that is why he stayed
here. This is consistent with respondent’s testimony before the Court that
he did not have a job at the time he
came to the United States. Furthermore, I note that the respondent’s claim
of persecution is founded on the alleged

forced abortion inflicted upon his wife.
That is the central element of his claim.
The respondent claims that he himself
was persecuted through his resistance to
that abortion. Nevertheless, the fact remains that the fundamental thrust of the
respondent’s claim is that his wife was
forced to have an abortion. In this regard, the respondent’s wife therefore
clearly has an equal, or stronger, claim
to asylum than the respondent himself,
assuming the facts which he claims are
true. The respondent was asked why his
wife did not stay and apply for asylum
and he replied that he did not know they
could apply for asylum at the time they
departed. The respondent was then
asked why he stayed here after they
returned; he said because he was in a
bad mood and he wanted to get a job
and a friend of mine is here.
While Loho v. Mukasey applies to the
applicant himself returning to China, I
find that the reasoning of the Ninth
Circuit in that case is fully applicable to
the respondent’s situation in that his
wife, who is the primary object of the
persecution in China, freely chose to
return to China. I do not find that the
respondent’s explanations for her return
to China while he remained here are
adequate. The respondent has stated
that he was in a bad mood and that he
had found a job and had a friend here.
The respondent has also indicated that
his daughter’s education would be
cheaper in China than here, and he has
also indicated that his wife wanted to go
to take care of her father. I do not find
that these reasons are sufficiently substantial so as to outweigh the concerns
raised by his wife and daughter’s free
choice to return to China after having
allegedly fled that country following his
wife’s and his own persecution.

28a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

In view of the for[e]going, I find that the
respondent has failed to meet his burden
of proving eligibility for asylum under
Section 208(a) of the Act.
(Emphasis added).
To erase any doubts about Dai’s problematic testimony, the following is an excerpt from it.
MS. HANNETT TO MR. DAI
Q.

And isn’t it also true that the
[asylum] officer asked why did
they go back and you replied, so
that my daughter can go to school
and in the U.S., you have to pay a
lot of money?

A.

Yes, that’s what I said.

Q.

Okay. And isn’t it also true that
the officer asked you, can you tell
me the real story about you and
your family’s travel to the U.S.,
and you replied I wanted a good
environment for my child. My
wife had a job and I didn’t, and
that is why I stayed here. My
wife and child go home first.

A.

I believe I said that.
* * *

Q.

So, once you got to the United
States, why didn’t your wife apply
for asylum?

A.

My wife just returned to China.

Q.

Right, and my question is why
didn’t she stay here and apply for
asylum?

A.

At that time, we didn’t know the
apply, we didn’t know that we can
apply for asylum.

Q.

A.

Well, if you didn’t know that you
could apply for asylum, why did
you stay here after they returned?
Because at that time, I was in a
bad mood and I couldn’t get a job,
so I want to stay here for a bit

885

longer and another friend of mine
is also here.
The asylum officer’s interview notes discussed by the IJ (and found to be consistent with Dai’s testimony before the IJ)
read as follows:
Earlier you said your wife has only traveled to Australia, Taiwan and HK. You
also said that you traveled to the US
alone. Government records indicate that
your wife traveled with you to the United States. Can you explain?
[long pause] the reason is I’m afraid
to say that my wife came here, then
why did she go back.
Your wife went back? Yes
When did she go back to China? February
Why did she go back? Because my child
go to school
Earlier you said you applied for your
visa alone. Our records indicate that
your child also obtained a visa to the US
with you. Can you explain?
[long pause]
Daughter came with wife and you in
January? Yes
Can you explain? I’m afraid
Please tell me what you are afraid of.
That is what your interview today is for.
To understand your fears?
I’m afraid you ask why my wife and
daughter go back
Why did they go back?
So that my daughter can go to school
and in the US you have to pay a lot of
money.
Can you tell me the real story about you
and your family’s travel to the US?
I wanted a good environment for my
child. My wife had a job and I didn’t

29a

886

884 FEDERAL REPORTER, 3d SERIES

and that is why I stayed here. My
wife and child go home first.
(Bracketed notations in original).
V
The Role of an Asylum Officer
The majority’s opinion perpetuates another acute error our Circuit has made in
its effort to control the DHS’s administrative process. In footnote 2, the majority
say that if Dai concealed relevant information ‘‘it was only from the asylum officer.’’
Only from the asylum officer? So Dai’s
admitted concealment under oath of germane information during a critical part of
the evaluation process is of no moment?
The majority’s demotion of the role of
an asylum officer represents a sub silentio
application of another faulty proposition on
the books in our circuit: Singh v. Gonzales,
403 F.3d 1081 (9th Cir. 2005).
Certain features of an asylum interview
make it a potentially unreliable point of
comparison to a petitioner’s testimony
for purposes of a credibility determination. Barahona-Gomez v. Reno, 236 F.3d
1115 (9th Cir. 2001), explained the significant procedural distinctions between
the initial quasi-prosecutorial ‘‘informal
conferences conducted by asylum officers’’ after the filing of an asylum application, and the ‘‘quasi-judicial functions’’
exercised by IJsTTTT
Id. at 1087 (emphasis added).
First of all, we may not have in this case
a verbatim transcript of Dai’s testimony,
but we have the asylum officer’s notes,
which the IJ explicitly found to be accurate. Moreover, when appropriately con7.

An affirmative asylum case differs from a
defensive asylum case involving someone already in removal proceedings. See Obtaining
Asylum in the United States, DEP’T OF HOMESEC.,
https://www.uscis.gov/
LAND
humanitarian/refugees-asylum/asylum/

fronted under oath with the notes, Dai
admitted they correctly captured what he
said. Under these circumstances, any concern that the asylum interview might be a
‘‘potentially unreliable point of comparison’’ to Dai’s testimony is irrelevant. The
record (thanks to Dai himself) eliminates
any potential for unreliability.
Second, the pronouncement in Singh v.
Gonzales that an asylum officer’s interview
in an affirmative asylum case is ‘‘quasiprosecutorial’’ in nature is flat wrong and
reveals our fundamental misunderstanding
of the process.7 An asylum officer in an
affirmative asylum case does not ‘‘prosecute’’ anyone during the exercise of his
responsibilities, and the process is not
‘‘quasi-prosecutorial’’ in nature. In fact, unlike a prosecutor, an asylum officer has the
primary authority and discretion to grant
asylum to an applicant should the applicant present a convincing case. The asylum
officer’s role is essentially judicial, not
prosecutorial. We miss the mark here because we see only those cases where an
affirmative asylum applicant did not present a sufficiently credible persuasive case
to an asylum officer to prevail, and we
mistakenly conclude from that unrepresentative sample that asylum officers tend
to decide against such applicants.
The true facts emerge from DHS’s June
20, 2016 report to Congress, Affirmative
Asylum Application Statistics and Decisions Annual Report, covering ‘‘FY 2015
adjudications of affirmative asylum applications by USCIS [U.S. Citizenship & Immigration Services] asylum officers for the
stated period.’’ 8 By way of background,
obtaining-asylum-united-states (last updated
Oct. 19, 2015).
8.

2016 DHS Congressional Appropriations Reports, DEP’T OF HOMELAND SEC., https://www.
dhs.gov/publication/2016-dhs-congressionalappropriations-reports (last published Feb.

30a

887

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

the Report points out that asylum officers
have a central determinative role in the
process. Asylum determinations ‘‘are made
by an asylum officer after an applicant
files an affirmative asylum application, is
interviewed, and clears required security
and background checks.’’ Id. at 2.
The Report contains statistics about the
activity of asylum officers. According to
the FY2015 statistics, asylum officers completed 40,062 affirmative asylum cases.
They approved 15,999 applications for an
approval rate of 47% for interviewed cases.
Id. at 3.
USCIS has a Policy Manual. Chapter 1
of Volume 1 establishes its ‘‘Guiding Principles.’’ 9 A ‘‘Core Principal’’ reads as follows:
The performance of agency duties inevitably means that some customers will be
disappointed if their cases are denied.
Good customer service means that everyone USCIS affects will be treated
with dignity and courtesy regardless of
the outcome of the decision.
* * *
USCIS will approach each case objectively and adjudicate each case in a
thorough and fair manner. USCIS will
carefully administer every aspect of its
immigration mission so that its customers can hold in high regard the privileges and advantages of U.S. immigration.
Id.
Finally, we look at the training given to
asylum officers in connection with their
12, 2018) (follow ‘‘United States Citizenship
and Immigration Services (USCIS)—Affirmative Asylum Application Statistics & Decisions
FY16 Report’’ hyperlink).
9.

Policy Manual, U.S. CITIZENSHIP & IMMIGRASERVS.,
https://www.uscis.gov/
policymanual/HTML/PolicyManual-Volume1
PartA-Chapter1.html (Aug. 23, 2017).

TION

interviews of affirmative asylum applicants. In USCIS’s Adjudicator’s Field
Manual, we find in Appendix 15-2, ‘‘NonAdversarial Interview Techniques,’’ the
following guidance.10
I. OVERVIEW
An immigration officer will conduct an
interview for each applicant, petitioner
or beneficiary where required by law or
regulation, or if it is determined that
such interviewed [sic] is appropriate.
The interview will be conducted in a
non-adversarial manner, separate and
apart from the general public. The officer must always keep in mind his or her
responsibility to uphold the integrity of
the adjudication process. As representatives of the United States Government,
officers must conduct the interview in a
professional manner.
* * *
Due to the potential consequences of
incorrect determinations, it is incumbent
upon officers to conduct organized, focused, and well-planned, non-adversarial interviewsTTTT
* * *
III. NON-ADVERSARIAL NATURE
OF THE INTERVIEW
A. Concept of the Non-adversarial
Interview
A non-adversarial proceeding is one in
which the parties are not in opposition
to each other. This is in contrast to
adversarial proceedings, such as civil
and criminal court proceedings, where
two sides oppose each other by advocat10. Adjudicator’s Field Manual—Redacted Public Version, U.S. CITIZENSHIP & IMMIGRATION
SERVS., https://www.uscis.gov/ilink/docView/
AFM/HTML/AFM/0-0-0-1.html (follow ‘‘Appendices’’ hyperlink; then follow ‘‘15-2 NonAdversarial Interview Techniques’’ hyperlink)
(last visited Feb. 15, 2018) (emphasis added).

31a

888

884 FEDERAL REPORTER, 3d SERIES

ing their mutually exclusive positions before a neutral arbiter until one side prevails and the other side loses. A removal
proceeding before an immigration judge
is an example of an adversarial proceeding, where the Service trial attorney
is seeking to remove a person from the
United States, while the alien is seeking
to remain.
The interview is part of a non-adversarial proceeding. The principal intent of the
Service is not to oppose the interviewee’s goal of obtaining a benefit, but to
determine whether he or she qualifies
for such benefit. If the interviewee qualifies for the benefit, it is in the Service’s
interest to accommodate that goal.
* * *
B. Points to Keep in Mind When Conducting a Non-adversarial Interview
The officer’s role in the non-adversarial
interview is to ask questions formulated
to elicit and clarify the information needed to make a determination on the petitioner or applicant’s request. This questioning must be done in a professional
manner that is non-threatening and nonaccusatory.
1. The officer must:
a. Treat the interviewee with respect.
Even if someone is not eligible for the
benefit sought based on the facts of the
claim, the officer must treat him or her
with respect. The officer may hear similar claims from many interviewees, but
must not show impatience towards any
individual. Even the most non-confrontational officer may begin to feel annoyance or frustration if he or she believes
that the interviewee is lying; however, it
is important that the officer keep these
emotions from being expressed during
the interview.
b. Be non-judgmental and non-moralistic. Interviewees may have reacted to
situations differently than the officer

might have reacted. The interviewee
may have left family members behind to
fend for themselves, or may be a member of a group or organization for which
the officer has little respect. Although
officers may feel personally offended by
some interviewee’s actions or beliefs, officers must set their personal feelings
aside in their work, and avoid passing
moral judgments in order to make neutral determinations.
c. Create an atmosphere in which the
interviewee can freely express his or her
claim. The officer must make an attempt
to put the interviewee at ease at the
beginning of the interview and continue
to do so throughout the interview. If the
interviewee is a survivor of severe trauma (such as a battered spouse), he or
she may feel especially threatened during the interview. As it is not always
easy to determine who is a survivor,
officers should be sensitive to the fact
that every interviewee is potentially a
survivor of trauma.
Treating the interviewee with respect
and being non-judgmental and non-moralistic can help put him or her at ease.
There are a number of other ways an
officer can help put an interviewee at
ease, such as:
1 Greet him or her (and others) pleasantly;
1 Introduce himself or herself by
name and explain the officer’s role;
1 Explain the process of the interview
to the interviewee so he or she will
know what to expect during the interview;
1 Avoid speech that appears to be
evaluative or that indicates that the
officer thinks he or she knows the
answer to the question;
1 Be patient with the interviewee; and

32a

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

889

1 Keep language as simple as possible.

formation on the form and the interviewee’s testimony.

d. Treat each interviewee as an individual. Although many claims may be similar, each claim must be treated on a
case-by-case basis and each interviewee
must be treated as an individual. Officers must be open to each interviewee as
a potential approval.
e. Set aside personal biases. Everyone
has individual preferences, biases, and
prejudices formed during life experiences that may cause them to view others either positively or negatively. Officers should be aware of their personal
biases and recognize that they can potentially interfere with the interview
process. Officers must strive to prevent
such biases from interfering with their
ability to conduct interviews in a nonadversarial and neutral manner.
f. Probe into all material elements of the
interviewee’s claim. The officer must
elicit all relevant and useful information
bearing on the applicant or beneficiary’s
eligibility. The officer must ask questions to expand upon and clarify the
interviewee’s statements and information contained on the form. The response to one question may lead to additional questions about a particular topic
or event that is material to the claim.
g. Provide the interviewee an opportunity to clarify inconsistencies. The officer
must provide the interviewee with an
opportunity during the interview to explain any discrepancy or inconsistency
that is material to the determination of
eligibility. He or she may have a legitimate reason for having related testimony that outwardly appears to contain an
inconsistency, or there may have been a
misunderstanding between the officer
and the interviewee. Similarly, there
may be a legitimate explanation for a
discrepancy or inconsistency between in-

On the other hand, the interviewee
may be fabricating a claim. If the officer
believes that an interviewee is fabricating a claim, he or she must be able to
clearly articulate why he or she believes
that the interviewee is not credible.
h. Maintain a neutral tone throughout
the interview. Interviews can be frustrating at times for the officer. The interviewee may be long-winded, may discuss issues that are not relevant to the
claim, may be confused by the questioning, may appear to be or may be fabricating a claim, etc. It is important that
the officer maintain a neutral tone even
when frustrated.
2. The officer must not:
1 Argue in opposition to the applicant or
petitioner’s claim (if the officer engages
in argument, he or she has lost control
of the interview);
1 Question the applicant in a hostile or
abusive manner;
1 Take sides in the applicant or petitioner’s claim;
1 Attempt to be overly friendly with the
interviewee; or
1 Allow personal biases to influence him
or her during the interview, either in
favor of or against the interviewee.
I hope that by exposing the particulars
of the affirmative application process we
will cease demeaning unspecified ‘‘certain
features’’ of the applicant’s interview, and
that we will correct our uninformed characterization of it as ‘‘quasi-prosecutorial.’’
While under oath, Dai intentionally concealed material information from the asylum officer during a critical aspect of the
process. To diminish the import of this

33a

890

884 FEDERAL REPORTER, 3d SERIES

potential crime 11 because the government
official was ‘‘only’’ an asylum officer is a
serious mistake.
VI
The BIA’s Decision
Dai unsuccessfully appealed the IJ’s decision denying his application for asylum,
withholding of removal, and protection under the Convention Against Torture. The
BIA’s decision follows.
We review for clear error the findings of
fact, including determinations of credibility, made by the Immigration Judge.
We review de novo all other issues, including whether the parties have met
the relevant burden of proof, and issues
of discretion. The respondent filed his
application for asylum after May 11,
2005, and thus review is governed by the
REAL ID Act of 2005.
We adopt and affirm the Immigration
Judge’s decision in this case. The Immigration Judge correctly denied the respondent’s applications for failure to
meet his burden of proof. The record
reflects that the respondent failed to
disclose to both the [DHS] asylum officer and the Immigration Judge that his
wife and daughter had traveled with him
to the United States and voluntarily returned to China shortly after. The respondent further conceded that he was
not forthcoming about this information
because he believed that the true reasons
for their return—that his wife had a job
in China and needed to care for her
elderly father, and that their daughter
could attend school in China for less
money than in the United States—
would be perceived as inconsistent with
11. 18 U.S.C. § 1001 makes it a crime knowingly and willfully to make a material false
statement in any matter within the jurisdiction of the executive branch of Government.

his claims of past and feared future
persecution.
The Immigration Judge correctly decided that the voluntary return of the respondent’s wife and daughter to China,
after allegedly fleeing following the persecution of the respondent and his wife,
prevents the respondent from meeting
his burden of proving his asylum claim.
Contrary to the respondent’s argument
on appeal, the Immigration Judge need
not have made an explicit adverse credibility finding to nevertheless determine
that the respondent did not meet his
burden of proving his asylum claim.
The respondent’s family voluntarily returning and his not being truthful about
it is detrimental to his claim and is
significant to his burden of proof.
(Emphasis added) (footnote and citations
omitted).
VII
The IJ Becomes a Potted Plant
My colleagues’ opinion boils down to this
faulty proposition: Simply because the IJ
did not say ‘‘I find Dai not credible’’ but
opted instead to expose the glaring factual
deficiencies in Dai’s presentation and to
explain in specific detail and at length why
Dai had not persuasively carried his burden of proving his case, my colleagues
disregard the IJ’s decision altogether and
claim we must selectively embrace as persuasive Dai’s problematic presentation regarding the core of his claim.12 Out of the
blue, unpersuasive becomes persuasive. I
invite the reader to review once again the
IJ’s decision and to decide on the merits
whether Dai’s case is persuasive. It is anything but.
12. And if an IJ does make an adverse credibility finding, we have manufactured a multitude of ways to disregard it.

34a

891

MING DAI v. SESSIONS
Cite as 884 F.3d 858 (9th Cir. 2018)

My colleagues brush off the conspicuous
blatant flaws in Dai’s performance involving demeanor, candor, and responsiveness,
claiming that ‘‘taking into account the record as a whole, nothing undermines the
persuasiveness of Dai’s credible testimonyTTTT’’ Nothing? They disregard inaccuracies, inconsistencies, and implausibilities
in his story, and his barefaced attempt to
cover up the truth about his wife’s and
daughter’s travels and situation. They even
sweep aside Dai’s admission to the asylum
officer that the ‘‘real story’’ is that (1) he
wanted a good environment for his child,
(2) his wife left him behind because she
had a job in China and he did not, and (3)
he was in a ‘‘bad mood,’’ couldn’t get a job,
and wanted to stay here ‘‘for a bit longer.’’
In their opinion, there is not a single word
regarding the factors cited by the IJ to
explain his observations, findings, and decision, including the fact that Dai’s wife,
allegedly the initial subject of persecution
in China, made a free choice to return. The
effect of the presumption is to wipe the
record clean of everything identified by
the IJ and the BIA as problematic.
The glaring irony in my colleagues’ analysis is that once they proclaim that Dai’s
testimony is credible, they pick and choose
only those parts of his favorable testimony
that support his case—not the parts that
undercut it. If we must accept Dai’s presentation as credible, then why not also his
‘‘real story’’ when confronted with the facts
that he came to the United States because
he wanted a good environment for his
daughter, and that he did not return to
China with his wife because she had a job
and he did not? What becomes of his attempted cover up of the travels of his wife
and daughter?
Furthermore, my colleagues’ backhanded treatment of the IJ’s opinion is
irreconcilable with the BIA’s wholesale
acceptance of it. In words as clear as

the English language can be, the BIA
said, ‘‘We adopt and affirm the Immigration Judge’s decision.’’ To compound
their error, the majority then seizes
upon and pick apart the BIA’s summary
explanation of why it concluded on de
novo review that the IJ’s decision was
correct. What the BIA did say was that
Dai’s failure to be truthful about his
family’s voluntary return to China was
‘‘detrimental to his claim’’ and ‘‘significant to his burden of proof.’’
VIII
Analysis
And so we come at last to the statutory
requirement of persuasiveness, an issue
uniquely suited to be determined by the
‘‘trier of fact,’’ as the Act and 8 U.S.C.
§ 1158(b)(1)(B)(ii) dictate. The majority
opinion rigs this inquiry by freighting it
with an incomplete record. The opinion
inappropriately sweeps demeanor, candor,
and plausibility considerations—as well as
the IJ’s extensive findings of fact—off the
board as though this were a parlor game.
Once again, the opinion ignores Huang, a
post-Act case.
The need for deference is particularly
strong in the context of demeanor assessments. Such determinations will often be based on non-verbal cues, and
‘‘[f]ew, if any, of these ephemeral indicia
of credibility can be conveyed by a paper
record of the proceedings and it would
be extraordinary for a reviewing court
to substitute its second-hand impression
of the petitioner’s demeanor, candor, or
responsiveness for that of the IJ.’’
744 F.3d at 1153 (alteration in original)
(quoting Jibril, 423 F.3d at 1137).
Here, the IJ determined that Dai’s testimony was not persuasive based on demeanor, non-verbal cues, and other germane material factors that went to the

35a

892

884 FEDERAL REPORTER, 3d SERIES

heart of his case. The IJ explained his
decision in exquisite detail, and our approach and analysis should be simple. In
order to reverse the BIA’s conclusion that
Dai did not carry his burden of proof, ‘‘we
must determine ‘that the evidence not
only supports [a contrary] conclusion, but
compels it—and also compels the further
conclusion’ that the petitioner meets the
requisite standard for obtaining relief.’’
Garcia-Milian v. Holder, 755 F.3d 1026,
1031 (9th Cir. 2014) (alteration in original)
(quoting INS v. Elias-Zacarias, 502 U.S.
478, 481 n.1, 112 S.Ct. 812, 117 L.Ed.2d 38
(1992) ). If anything, this record compels
the conclusion that the IJ and the BIA
were correct, not mistaken. Are my colleagues seriously going to hold that an IJ
cannot take universally accepted demeanor, candor, responsiveness, plausibility,
and forthrightness factors into consideration in assessing persuasiveness, as the
IJ did here? And that this detailed record,
which is full of Dai’s admissions of an
attempted coverup, compels the conclusion
that Dai was so persuasive as to carry his
burden? Dai accurately understood the
damaging implications of his wife’s return
to China. So did the IJ and the BIA. So
would anybody not willfully blinded by an
inappropriate conclusive presumption. As
the BIA stated, the truth is ‘‘inconsistent
with his claims of past and feared future
persecution.’’
IX
The More Things Change, The More
They Stay The Same
In Elias-Zacarias, 921 F.2d 844 (9th
Cir. 1990), rev’d, 502 U.S. 478, 112 S.Ct.
812, 117 L.Ed.2d 38 (1992), our court substituted the panel’s interpretation of the
evidence for the BIA’s. The Supreme
Court reversed our decision, calling the
first of the panel’s two-part reasoning ‘‘untrue,’’ and the second ‘‘irrelevant.’’ 502

U.S. at 481, 112 S.Ct. 812. The Court
warned us that we could not reverse the
BIA unless the asylum applicant demonstrates that ‘‘the evidence he presented
was so compelling that no reasonable factfinder could fail to find the requisite fear
of persecution.’’ Id. at 483–84, 112 S.Ct.
812 (emphasis added). In our case, we
again fail to follow this instruction.
In INS v. Orlando Ventura, 537 U.S. 12,
13, 123 S.Ct. 353, 154 L.Ed.2d 272 (2002)
(per curiam), the Court noted that both
sides, petitioner and respondent, had
asked us to remand the case to the BIA so
that it might determine in the first instance whether changed conditions in Guatemala eliminated any realistic threat of
persecution of the petitioner. Our panel did
not remand the case, evaluating instead
the government’s claim of changed conditions by itself and deciding the issue in
favor of the petitioner. Id. at 13–14, 123
S.Ct. 353. The Supreme Court summarily
reversed our decision, saying ‘‘[T]he Court
of Appeals committed clear error here. It
seriously disregarded the agency’s legally
mandated role.’’ Id. at 17, 123 S.Ct. 353.
Did we learn our lesson? Hardly. A
mere two years after Ventura’s per curiam
opinion, we knowingly made the same mistake in Thomas v. Gonzales, 409 F.3d 1177
(9th Cir. 2005) (en banc), vacated, 547 U.S.
183, 126 S.Ct. 1613, 164 L.Ed.2d 358
(2006). We disregarded four dissenters to
that flawed opinion, who argued in vain
that our court’s decision was irreconcilable
with Ventura. In short order, the Supreme
Court vacated our en banc opinion, saying
that our ‘‘error is obvious in light of Ventura, itself a summary reversal’’ and that the
same remedy was once again appropriate.
547 U.S. at 185, 126 S.Ct. 1613.
With all respect, the majority opinion
follows in our stubborn tradition of seizing
authority that does not belong to us, disregarding DHS’s statutorily mandated role.

36a

IN RE ZAPPOS.COM, INC.
Cite as 884 F.3d 893 (9th Cir. 2018)

Even the REAL ID Act has failed to
correct our errors.
Thus, I dissent.

,

893

37a

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

Ming DAI, Petitioner,

731

further action is required of the parties
until further order of the court.

v.
William BARR, Attorney General,
Respondent.
No. 15-70776
United States Court of Appeals,
Ninth Circuit.
Submitted October 13, 2017 * San
Francisco, California
Filed March 8, 2018
Amended February 22, 2019
On Petition for Review of an Order of
the Board of Immigration Appeals, Agency
No. AXXX-XX5-836
David Z. Su, Law Offices of David Z. Su,
West Covina, California, for Petitioner.
Aimee J. Carmichael, Senior Litigation
Counsel; Mary Jane Candaux, Assistant
Director; Office of Immigration, Civil Division, United States Department of Justice,
Washington, D.C.; for Respondent.
Before: Sidney R. THOMAS, Chief
Judge, and Stephen S. TROTT and Mary
H. MURGUIA **, Circuit Judges.
Dissent to Opinion by Judge Trott
ORDER
The dissent filed March 8, 2018, is
amended, with the following amended dissent to be substituted in lieu of the original. The petitions for rehearing and rehearing en banc remain pending, and no
* The panel unanimously concludes this case is
suitable for decision without oral argument.
See Fed. R. App. P. 34(a)(2).
** Prior to his death, Judge Reinhardt fully participated in this case and authored the majority opinion. Following Judge Reinhardt’s

TROTT, Circuit Judge, dissenting:
The serious legal consequences of my
colleagues’ opinion are that it (1) disregards both the purpose and the substance
of the REAL ID Act of 2005 (‘‘Act’’)1, (2)
ignores the appropriate standard of review, and (3) perpetuates our idiosyncratic
approach to an Immigration Judge’s (‘‘IJ’’)
determination that the testimony of an
asylum seeker lacks sufficient credibility
or persuasiveness to prove his case. The
majority’s opinion accomplishes these results by contaminating the issue before us
with irrelevancies, the most troublesome of
which is a meritless irrebuttable presumption of credibility. The sole issue should be
whether Dai’s unedited presentation compels the conclusion that he carried his burden of proving he is a refugee and thus
eligible for a discretionary grant of asylum. Only if we can conclude that no reasonable factfinder could fail to find his
evidence conclusive can we grant his petition.
The IJ’s decision not to make an explicit
adverse credibility finding is a red herring
that throws our analysis off the scent and
preordains a result that is incompatible
with the evidentiary record. By omitting
from their opinion the IJ’s fact-based explanation of his decision, the majority elides eight material findings of fact the IJ
did make, each of which is entitled to
substantial deference. The majority’s assertion that ‘‘there is no finding to which
we can defer’’ is false. For this reason, I
quote in full the IJ’s findings and concludeath, Judge Murguia was drawn by lot to
replace him. Ninth Circuit General Order
3.2h. Judge Murguia has reviewed all case
materials.
1.

Pub. L. No. 109-13, 119 Stat. 231.

38a

732

916 FEDERAL REPORTER, 3d SERIES

sions about the persuasiveness of Dai’s
presentation in Part IV of my dissent. The
eight findings are as follows.
First, the IJ specifically found that the
information reported by the asylum officer
about his conversation with Dai was accurate. The IJ said,
As to the contents of [the asylum officer’s notes], I give the notes full weight,
insofar as the respondent has confirmed
the contents of the questions and answers given during the course of that
interview. Furthermore, I note that in
the sections in which the respondent
equivocated, stating that he was nervous
and not sure that he gave those precise
answers, I nevertheless give the Asylum
Officer’s notes some substantial weight,
in that they are consistent with the respondent’s testimony in court.
Accordingly, the IJ accepted as a fact
that Dai admitted that he did not disclose
the consequential truth about his wife’s
and daughter’s travels because he was nervous about how this would be perceived by
the asylum officer in connection with his
claim.
Second, the IJ accepted Dai’s admission
as a fact that he concealed the truth because he was afraid of giving straight answers regarding his wife’s and daughter’s
trip to the United States.
Third, the IJ determined that Dai had
deliberately omitted highly relevant information from his Form I-589 application for
asylum, information that he also tried to
conceal from the asylum officer.
Fourth, the IJ found that Dai’s omission
of his information ‘‘is consistent with his
lack of forthrightness before the asylum
office[r] as to his wife and daughter’s travel with himTTTT’’
Fifth, the IJ credited Dai’s admission
that when asked by the asylum officer to
‘‘tell the real story’’ about his family’s trav-

els, Dai said he ‘‘wanted a good environment for his child, and his wife had a job,
but he did not, and that is why he stayed
here [after his wife and daughter went
back to China].
Sixth, the IJ found that Dai admitted he
stayed here after they returned ‘‘because
he was in a bad mood and he wanted to get
a job and ‘a friend of mine is here.’ ’’
Seventh, the IJ said ‘‘I do not find that
[Dai’s] explanations for [his wife’s] return
to China while he remained here are adequate.’’ (Emphasis added).
Finally, the IJ also credited Dai’s concessions that his wife and daughter returned to China because ‘‘his daughter’s
education would be cheaper in China,’’ and
that ‘‘his wife wanted to go to take care of
her father.’’
When Dai’s subterfuge got to the BIA,
the BIA said in its decision that ‘‘the record reflects that [Dai] failed to disclose to
both the asylum officer and the IJ’’ the
true facts about his family’s travels. The
BIA noted that Dai had conceded he was
not forthcoming about this material information because he believed that the truth
about their travels ‘‘would be perceived as
inconsistent with his claims of past and
feared persecution.’’
The IJ’s specific factual findings in connection with Dai’s failure to satisfy his
burden of proof were not the product of
inferences drawn from circumstantial evidence. These findings were directly based
upon revealing answers Dai admitted he
gave to the asylum officer during his interview. These facts are beyond debate, and
they undercut Dai’s case. To quote the
BIA, these facts were ‘‘detrimental to his
claim’’ and ‘‘significant to his burden of
proof.’’ Nevertheless, the majority brushes
them aside, claiming that an immaterial
presumption of credibility overrides all of
them.

39a

733

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

In this connection, I note a peculiarity in
the majority’s approach to Dai’s case: Nowhere does Dai assert that he is entitled to
a conclusive presumption of credibility. His
brief does not contain any mention of the
presumption argument the majority conjures up on his behalf. The closest Dai
comes to invoking the majority’s inapt postulate is with a statement that we ‘‘should’’
treat as credible his testimony regarding
persecution in China. He does not take
issue with the IJ’s foundational adverse
factual findings, choosing instead to argue
that they were not sufficient in the light of
the record as a whole to support the IJ’s
ultimate determination.
For example, Dai acknowledges in his
brief that the ‘‘IJ’s or BIA’s factual findings are reviewed for substantial evidence’’ and that the ‘‘REAL ID Act’s new
standards governing adverse credibility
determinations applies to applications for
asylum, withholding of removal, and CAT
relief made on or after May 11, 2005.’’
Blue Br. 10 (emphasis added) (quotation
marks omitted). Next, he notes that ‘‘an IJ
cannot selectively examine evidence in determining credibility, but rather must
present a reasoned analysis of the evidence as a whole and cite specific instances in the record that form the basis of the
adverse credibility finding.’’ Id. (emphasis
added) (quotation marks omitted). Moreover, Dai notes that ‘‘[t]o support an adverse credibility determination, inconsistencies must be considered in light of the
totality of the circumstances, and all relevant factors’’ adding that ‘‘trivial inconsistencies TTT should not form the basis of
an adverse credibility determination.’’ Id.
at 10–11 (emphasis added) (quotation
marks omitted). He contends that he ‘‘has
provided adequate explanation’’ for his inconsistencies, i.e., the failure to disclose
his family’s travels. Id. at 14. Finally, after
attempting to pick apart the IJ’s adverse
findings, Dai’s bottom line is that ‘‘his

wife’s departure from the United States
does not adversely affect his credibility at
all,’’ an assertion that ignores his failed
coverup of it. See id. at 16.
In summary, the majority blue pencils a
material part of the evidentiary record
even though Dai implores us to ‘‘examine it
as a whole,’’ as he did in his brief to the
BIA. Dai accepts that the viability of his
entire presentation is on the line, but the
majority ignores his concession. In this
connection, the Attorney General has responded only to the claims and arguments
Dai included in his brief. The Attorney
General has not been given an opportunity
to respond to the majority’s inventive analysis, nor to the theory concocted by the
majority on Dai’s behalf. Both sides will be
surprised by my colleagues’ artful opinion—Dai pleasantly, the Attorney General
not so much.
I will have more to say in Part V about
our Circuit’s treatment of the role, responsibility, and product of an asylum officer.
For these reasons, I respectfully dissent.
I
Backdrop
Over the years, our Circuit has manufactured misguided rules regarding the
credibility of political asylum seekers. I
begin with this issue because the majority’s mishandling of it infects the remainder of their opinion with error. These
result-oriented ad hoc hurdles for the
government stem from humanitarian intentions, but our court has pursued
these intentions with methods that violate the institutional differences between
a reviewing appellate court, on one hand,
and a trial court on the other, usurping
the role of the Department of Homeland
Security (‘‘DHS’’) and the BIA in the
process. Referring to our approach to

40a

734

916 FEDERAL REPORTER, 3d SERIES

witness credibility as an ‘‘idiosyncratic
analytical framework,’’ a previous panel
of our court described this inappropriate
situation as follows:
The Supreme Court has repeatedly instructed us on the proper standard to
apply when reviewing an immigration
judge’s adverse credibility determination. Time and again, however, we have
promulgated rules that tend to obscure
that clear standard and to flummox immigration judges, who must contort
what should be a simple factual finding
to satisfy our often irreconcilable precedents. The result of this sly insubordination is that a panel that takes Congress
at its word and accepts that findings of
fact are ‘‘conclusive unless any reasonable adjudicator would be compelled to
conclude the contrary,’’ TTT or follows
the Supreme Court’s admonition that
‘‘[t]o reverse the BIA finding we must
find that the evidence not only supports
that conclusion, but compels it,’’ TTT
runs a serious risk of flouting one of our
eclectic, and sometimes contradictory,
opinions.
Jibril v. Gonzales, 423 F.3d 1129, 1138 (9th
Cir. 2005) (alteration in original) (citations
omitted).
Many of our Circuit’s rules on this subject and my colleagues’ decision are irreconcilable with the structural principle set
forth in Federal Rule of Civil Procedure
52(a)(6) that ‘‘[f]indings of fact, whether
based on oral or other evidence, must not
be set aside unless clearly erroneous, and
the reviewing court must give due regard
to the trial court’s opportunity to judge the
witnesses’ credibility.’’ Accordingly, we are
expected to apply a highly deferential
standard to a trial court’s determination
regarding the credibility of a witness.
Anderson v. City of Bessemer City, 470
U.S. 564, 573–76, 105 S.Ct. 1504, 84
L.Ed.2d 518 (1985). In discussing this rule,

the Supreme Court said that ‘‘[w]hen findings are based on determinations regarding the credibility of witnesses, Rule 52(a)
demands even greater deference to the
trial court’s findings; for only the trial
judge can be aware of the variations in
demeanor and tone of voice that bear so
heavily on the listener’s understanding of
and belief in what is said.’’ Id. at 575, 105
S.Ct. 1504. The Court added that the applicable ‘‘clearly erroneous’’ standard of review ‘‘plainly does not entitle a reviewing
court to reverse the finding of a trier of
fact simply because it is convinced that it
would have decided the case differently.
The reviewing court oversteps the bounds
of its duty under Rule 52(a) if it undertakes to duplicate the role of the lower
court.’’ Id. at 573, 105 S.Ct. 1504 (emphasis
added).
The Supreme Court sharpened this
point about our limited role in Gonzales v.
Thomas, 547 U.S. 183, 126 S.Ct. 1613, 164
L.Ed.2d 358 (2006) (per curiam), vacating
409 F.3d 1177 (9th Cir. 2005) (en banc). In
summarily vacating our en banc opinion,
the Court held that we had exceeded our
authority and made a determination that
belonged to the BIA. 547 U.S. at 185–86,
126 S.Ct. 1613. The Court agreed with the
Solicitor General that ‘‘a court’s role in an
immigration case is typically one of review,
not of first view.’’ Id. at 185, 126 S.Ct. 1613
(emphasis added) (quotation marks omitted). To support its conclusion, the Court
cited INS v. Orlando Ventura, 537 U.S. 12,
123 S.Ct. 353, 154 L.Ed.2d 272 (2002): a
‘‘ ‘judicial judgment cannot be made to do
service for an administrative judgment.’ ’’
547 U.S. at 186, 126 S.Ct. 1613 (quoting
Ventura, 537 U.S. at 16, 123 S.Ct. 353).
More about Ventura later.
The majority’s opinion’s use of an incongruous irrebuttable presumption of credibility to erase the IJ’s findings of fact and
the BIA’s decision and thus to make us a

41a

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

court of ‘‘first view’’ is another example of
our intransigence. If, as they say, we are
bound by precedent to do it their way,
then its time to change our precedent.
II
A False Premise
The majority opinion’s assertion that
‘‘we must treat [Dai’s] testimony as credible’’ rests on a fallacious premise. Judge
Reinhardt writes, ‘‘Properly understood,
the rebuttable presumption provision of
the REAL ID Act applies only to appeals
to the BIA, not to petitions for review in
our court.’’ From this inapt premise, he
concludes that we must ignore the IJ’s
detailed analysis and findings of fact about
Dai’s presentation. When it comes to our
task of reviewing the credibility of witnesses in a trial court or whether a witness’ testimony suffices to carry his burden of proof, however, there is no material
difference between an appeal and a petition for review, none. Federal Rule of Civil
Procedure 52(a) makes no such distinction.
As Anderson said, Rule 52(a) applies to a
‘‘reviewing court,’’ which is what we are in
this capacity. 470 U.S. at 573–74, 105 S.Ct.
1504 (emphasis added); see Thomas, 547
U.S. at 185, 126 S.Ct. 1613. Neither the
Court nor Rule 52(a) differentiate between
appeals and petitions for review. Nor
would such a distinction make any sense.
As Anderson and Thomas illustrate, the
issue is one of function, not of form or
labels. The Act’s use of the word ‘‘appeal’’
does not dictate how we must go about our
process of review. Using the standards
provided by Congress, we are not in a
position to weigh a witness’s credibility or
persuasiveness.
2.

The majority cites She v. Holder, 629 F.3d
958, 964 & n.5 (9th Cir. 2010) in support of
this ipse dixit claim. However, She’s footnote

735

Federal Rule of Appellate Procedure 20,
‘‘Applicability of Rules to the Review or
Enforcement of an Agency Order,’’ illustrates the soundness of treating appeals
and petitions for review with a uniform
approach. Rule 20 reads, ‘‘All provisions of
these rules TTT apply to the review or
enforcement of an agency order. In these
rules, ‘appellant’ includes a petitioner or
applicant, and ‘appellee’ includes a respondent.’’
Moreover, and directly to the point, the
Act itself does not require an IJ to make a
specific credibility finding in those precise
terms. As the BIA correctly said with respect to the Act, ‘‘[c]ontrary to the respondent’s argument on appeal, the Immigration Judge need not have made an explicit
adverse credibility finding to nevertheless
determine that the respondent did not
meet his burden of proving his asylum
claim.’’ See discussion infra Section VI. If
the IJ does not make such an explicit
finding, all the respondent is entitled to is
a ‘‘rebuttable presumption of credibility on
appeal.’’ 8 U.S.C. § 1158(b)(1)(B)(iii) (emphasis added). By attempting to restrict
this language to an appeal to the BIA, the
majority opinion frees itself to apply derelict Ninth Circuit precedent to Dai’s testimony and automatically to deem it credible.2
My colleagues claim that in the absence
of a formal adverse credibility finding, ‘‘we
are required to treat the petitioner’s testimony as credible.’’ The practical effect of
the majority’s rule is breathtaking: The
lack of a formal adverse credibility finding
becomes a selective positive credibility
finding and dooms a fact-based determination by an IJ and the BIA that an applicant’s case is not sufficiently persuasive to
carry his burden of proof. The majority’s
5 says that because the ‘‘rebuttable presumption’’ provision does not apply retroactively, it
had no applicability in She’s case.

42a

736

916 FEDERAL REPORTER, 3d SERIES

approach violates all the rules that control
our review of a witness’s testimony before
a factfinder.
A conclusive presumption of credibility
has no valid place in our task of reviewing
the persuasiveness of a witness’s testimony. Such an artifice eliminates relevant
factual evidence from consideration and
violates Rule 52(a)(6). The deployment of a
conclusive presumption becomes a misguided way not only of putting a heavy
thumb on one tray of the traditional scales
of justice, but also of removing relevant
evidence from the other. This approach
allows us to evade our responsibilities to
examine and to evaluate the entire record
before an IJ, permitting us instead to disregard facts that would otherwise discredit
our final determination. The evidentiary
record in this case devours any such presumption. Judge Reinhardt’s opinion
writes the REAL ID Act and its reference
to a rebuttable presumption of credibility
out of existence, even though Congress
specifically intended the Act to govern us,
the Ninth Circuit Court of Appeals.
Although the case focuses on corroboration of an applicant’s testimony, our opinion in Aden v. Holder, 589 F.3d 1040 (9th
Cir. 2009) correctly explained the effect of
the REAL ID Act on our pre-Act jurisprudence.
We have a line of circuit authority for
the proposition that corroboration cannot be required from an applicant who
testifies credibly. In Ladha v. INS, [215
F.3d 889, 901 (9th Cir. 2000)] we ‘reaffirmed that an alien’s testimony, if unrefuted and credible, direct and specific, is
sufficient to establish the facts testified
without the need for any corroboration.’
Kataria v. INS [232 F.3d 1107, 1113 (9th
Cir. 2000)] relied on Ladha in stating
that ‘the BIA may not require indepen3.

H.R. Rep. No. 109-72 (2005) (Conf. Rep.),

dent corroborative evidence from an
asylum applicant who testifies credibly
in support of his application.’ Kataria
stated that ‘we must accept an applicant’s testimony as true in the absence
of an explicit adverse credibility finding.’TTT
Congress abrogated these holdings in
the REAL ID Act of 2005TTTT
The statute additionally restricts the effect of apparently credible testimony by
specifying that the IJ need not accept
such testimony as trueTTTT
Congress has thus swept away our doctrine that ‘when an alien credibly testifies to certain facts, those facts are
deemed true.’
Aden, 589 F.3d at 1044-45. More on the
Act in the next section.
III
The REAL ID Act
Congress enacted the REAL ID Act of
2005 because of our Circuit’s outlier precedents on this issue and our refusal to
follow the rules. The House Conference
Committee Report (‘‘House Report’’)3 explained that ‘‘the creation of a uniform
standard for credibility is needed to address a conflict TTT between the Ninth
Circuit on one hand and other circuits and
the BIA.’’ H.R. Rep. No. 109-72 at 167.
The House Report also said that the Act
‘‘resolves conflicts between administrative
and judicial tribunals with respect to standards to be followed in assessing asylum
claims.’’ Id. at 162. Nevertheless, my colleagues hold that a key part of the Act
does not apply to us, only to the BIA.
As the Act pertains to this case, it established a number of key principles, all of
which the majority fails to follow, perpetuating the conflicts Congress attempted to
resolve.
reprinted in 2005 U.S.C.C.A.N. 240.

43a

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

First, ‘‘[t]he burden of proof is on the
applicant to establish that the applicant is
a refugee TTTT’’4
Second, ‘‘[t]he testimony of the applicant
may be sufficient to sustain the applicant’s
burden without corroboration, but only if
the applicant satisfies the trier of fact that
the applicant’s testimony is credible, is
persuasive, and refers to specific facts sufficient to demonstrate that the applicant is
a refugee.’’5

siveness issues, but as the majority opinion
illustrates, ‘‘old ways die hard.’’ Huang v.
Holder, 744 F.3d 1149 (9th Cir. 2014) captures where we should be on this issue:
[W]e have concluded that ‘‘the REAL
ID Act requires a healthy measure of
deference to agency credibility determinations.’’ This deference ‘‘makes sense
because IJs are in the best position to
assess demeanor and other credibility
cues that we cannot readily access on
review.’’ ‘‘[A]n immigration judge alone
is in a position to observe an alien’s tone
and demeanor, to explore inconsistencies
in testimony, and to apply workable and
consistent standards in the evaluation of
testimonial evidence.’’ By virtue of their
expertise, IJs are ‘‘uniquely qualified to
decide whether an alien’s testimony has
about it the ring of truth.’’

Third,
Considering the totality of the circumstances, and all relevant factors, a trier
of fact may base a credibility determination on the demeanor, candor, or responsiveness of the applicant or witness, the
inherent plausibility of the applicant’s or
witness’s account, the consistency between the applicant’s or witness’s written and oral statements (whenever made
and whether or not under oath, and
considering the circumstances under
which the statements were made), the
internal consistency of each such statement, the consistency of such statements
with other evidence of record (including
the reports of the Department of State
on country conditions), and any inaccuracies or falsehoods in such statements,
without regard to whether an inconsistency, inaccuracy, or falsehood goes to
the heart of the applicant’s claim, or any
other relevant factor. There is no presumption of credibility, however, if no
adverse credibility determination is explicitly made, the applicant or witness
shall have a rebuttable presumption of
credibility on appeal.6

The need for deference is particularly
strong in the context of demeanor assessments. Such determinations will often be based on non-verbal cues, and
‘‘[f]ew, if any, of these ephemeral indicia
of credibility can be conveyed by a paper
record of the proceedings and it would
be extraordinary for a reviewing court
to substitute its second-hand impression
of the petitioner’s demeanor, candor, or
responsiveness for that of the IJ.’’ Indeed, even before the enactment of the
REAL ID Act, we recognized the need
to give ‘‘special deference to a credibility
determination that is based on demeanor,’’ because the important elements of a
witness’s demeanor that ‘‘may convince
the observing trial judge that the witness is testifying truthfully or falsely’’
are ‘‘entirely unavailable to a reader of
the transcript, such as the Board or the
Court of Appeals.’’ The same principles

We have attempted in a number of panel
opinions after the Act to adjust our approach to applicant credibility and persua4.
5.

8 U.S.C. § 1158(b)(1)(B)(i).
8 U.S.C. § 1158(b)(1)(B)(ii) (emphasis added).

737

6.

8 U.S.C. § 1158(b)(1)(B)(iii).

44a

738

916 FEDERAL REPORTER, 3d SERIES

underlie the deference we accord to the
credibility determinations of juries and
trial judges.
Id. at 1153–54 (alterations in original) (citations omitted). This ‘‘healthy measure of
deference’’ should also apply to the agency’s determination with respect to whether
an applicant has satisfied the agency’s ‘‘trier of fact’’—not us—that his evidence is
persuasive, an issue that is in the wheelhouse of a jury or a judge or an IJ hearing
a case as a factfinder.
In Kho v. Keisler, 505 F.3d 50 (1st Cir.
2007), the First Circuit understood the
Act’s effect on the issue of an applicant’s
credibility. Not only did our sister circuit
correctly comprehend the Act’s impact, but
it considered and rejected our approach to
this important subject.
Kho supplements his ‘disfavored group’
approach with an argument that because
the IJ did not make an explicit finding
concerning Kho’s credibility, his testimony ‘must be accepted as true’ by this
court. Kho bases this proposed rule as
well on a series of Ninth Circuit
casesTTTT
We have already rejected the proposition that aliens are entitled to a presumption of credibility on review in this
court if there is no express credibility
determination made by an IJTTTT
The REAL ID Act also provides no
support for Kho’s argument. TTT
Kho, 505 F.3d at 56-57.
The court further explained that the
Act’s reference to a ‘‘rebuttable presumption’’ applies only to an applicant’s appeal
to the BIA, not to ‘‘reviewing courts of
appeal.’’ Id. at 56.
Thus, not only does my colleagues’ opinion violate the directions of the Act, but it
creates an intercircuit conflict with Kho,
and an intra-circuit conflict with Aden.

IV
The IJ’s Decision
The IJ in this case concluded that Ming
Dai had not satisfied his statutory burden
of establishing that he is a refugee pursuant to § 1158(b)(1)(B)(i). The IJ gave as
his ‘‘principle area of concern’’ Dai’s implausible unpersuasive testimony, another
way of saying it wasn’t credible. As Dai’s
brief correctly demonstrates, there is barely a dime’s worth of substantive difference
between ‘‘credible’’ and ‘‘persuasive.’’ Here
is how the IJ explained his decision in
terms of § 1158(b)(1)(B)(i) and (ii):
I have carefully considered the respondent’s testimony and evidence and for
the following reasons, I find that the
respondent has failed to meet his burden
of proving eligibility for asylum.
The principal area of concern with regard to the respondent’s testimony arose
during the course of his cross-examination. On cross-examination, the respondent was asked about various aspects of
his interview with an Asylum Officer.
The Department of Homeland Security
also submitted the notes of that interview as Exhibit 5. The respondent was
asked specific questions regarding several aspects of his testimony before the
Asylum Officer. In the course of crossexamination, the respondent was asked
regarding his questions and answers as
to whether his wife and daughter travelled with him to the United States. The
respondent’s responses included the
question of whether the asylum officer
had asked him if his wife and daughter
travelled anywhere other than to Taiwan
and Hong Kong. The respondent conceded that he was asked this question
and that he replied yes, they had travelled to Taiwan and Hong Kong. The
respondent was asked whether the Asylum Officer inquired whether his wife
and daughter had travelled elsewhere.

45a

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

The respondent then testified before the
Court that he was asked this question,
‘‘but I was nervous.’’ In this regard, I
note that the respondent did not directly
answer the question; instead leapt directly to an explanation for what his
answer may have been, namely that he
was nervous. The respondent was then
asked specifically whether the Asylum
Officer asked him if his wife had travelled to Australia in 2007. The respondent confirmed that he had been asked
this question, and he confirmed that the
answer was in the affirmative. The respondent also confirmed that the Asylum Officer had asked him whether she
had travelled anywhere else. He confirmed that he had been so asked. The
respondent was then asked whether he
answered ‘‘no,’’ that she had not travelled anywhere else. The respondent answered that he believed so, that he had
so answered. The respondent was then
asked, during the course of cross-examination, why he had not said to the Asylum Officer that yes, she had travelled
to the United States. The respondent
replied that he had not thought of it. He
stated that they did come with him
(meaning his wife and daughter) and
that he thought the Asylum Officer was
asking him if they had travelled anywhere other than the United States. He
explained that he did so because he assumed the U.S. Government had the
records of their travel to the United
States. On further questioning, the respondent eventually hesitated at some
length when asked to further explain
why he did not disclose spontaneously to
the Asylum Officer that his wife and
daughter had come with him. The respondent paused at some length and I
observed that the respondent appeared
nervous and at a loss for words. However, after a fairly lengthy pause, the respondent testified that he is afraid to

739

say that his wife and daughter came
here and why they went back. The respondent was asked whether he told the
Asylum Officer that he was afraid to
answer directly. The respondent initially
testified that he forgot and did not remember whether he said that. He again
reiterated that he was very nervous. He
was then asked the question again as to
whether he told the Asylum Officer that
he was afraid to answer why his wife
and daughter had gone back. He then
conceded that maybe, yes, he had answered in that fashion. The respondent
was asked whether the Asylum Officer
inquired why his wife and daughter went
back, and the respondent conceded that
he had been so asked, and he further
conceded that he replied because school
in the United States cost a lot of money
(referring to the schooling for his daughter). The respondent was then asked to
confirm that the Asylum Officer eventually asked him to tell him the real story
as to why his family travelled to the
United States and returned to China.
The respondent confirmed that he was
asked this question and when asked,
whether he replied that it was because
he wanted a good environment for his
child and because his wife had a job and
he did not and that that is why he
stayed here. He confirmed that he did,
in fact, say that. The respondent was
further asked, during the course of testimony in court, why his wife and daughter returned to China. In this regard,
the respondent testified that they came
with him, but returned to China several
weeks after arrival. He testified that
they did so because his father-in-law was
elderly and needed attention, and because his daughter needed to graduate
school in China.
The respondent further claimed that his
wife had, in fact, suffered past persecu-

46a

740

916 FEDERAL REPORTER, 3d SERIES

tion in the form of a forced abortion and
the respondent confirmed that he feared
his wife and daughter would suffer future persecution. In this regard, the respondent qualified his answer by saying
that his wife was now on an IUD, apparently thereby suggesting that the risk of
persecution is reduced. However, the respondent did concede that the risk of
future persecution also pertains to his
daughter. Indeed, in this regard, the
respondent testified that this is, at least
in part, why he applied for asylum.
As to the contents of Exhibit 5, I give
the notes full weight, insofar as the respondent has confirmed the contents of
the questions and answers given during
the course of that interview. Furthermore, I note that in the sections in
which the respondent equivocated, stating that he was nervous and not sure
that he gave those precise answers, I
nevertheless give the Asylum Officer’s
notes some substantial weight, in that
they are consistent with the respondent’s testimony in court. Specifically, I
note that the Asylum Officer’s notes
state that the respondent ultimately indicated that he was afraid of giving
straight answers regarding his daughter
and wife’s trip to the United States and
return to China. And while the respondent did not confirm this in court, he did
give a similar answer as to why he was
testifying in this regard. In other words,
the respondent appears to have stated,
both before the Asylum Officer and in
court that he did not spontaneously disclose the travel of his wife and daughter
with him to the United States and their
return because he was nervous about
how this would be perceived by the Asylum Officer in connection with his
claim. I further note that the Asylum
Officer’s notes are internally consistent
with regard to references to earlier
questions, such as whether the respon-

dent had stated that he applied for a
visa with anyone else. At page 2 of the
notes contained in Exhibit 5, the respondent was asked whether he applied
for his visa with anyone else and the
notes indicated that he stated that, ‘‘no,
I applied by myself.’’ Similarly, I note
that the testimony before the Asylum
Officer and the Court is consistent with
the omission in the respondent’s Form
I-589 application for asylum, of an answer to the question of the date of the
previous arrival of his wife, if she had
previously been in the United States.
See Exhibit 2, page 2, part A.II, question 23. When asked about this omission,
the respondent expressed surprise, stating that he told the preparer about their
trip and indicated that he thought it had
been filled out. Notwithstanding the respondent’s statement in this regard, I do
observe that the omission is consistent
with his lack of forthrightness before the
asylum office as to his wife and daughter’s travel with him to the United
States and their subsequent return to
China shortly thereafter.
In sum, the respondent’s testimony before the Court and his testimony regarding the Asylum Officer notes, as well as
the notes themselves, clearly indicate
that the respondent failed to spontaneously disclose that his wife and daughter
came with him and then returned to
China. His testimony and the notes also
consistently demonstrate that the respondent paused at length, both before
the Court and before the Asylum Officer, when asked about this topic. His
testimony and the Asylum Officer notes
are also consistent in indicating that he
ultimately testified that he was afraid to
say that his wife came here and was
afraid of being asked about why she
went back. Furthermore, the respondent
has conceded that he was asked to ‘‘tell

47a

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

the real story’’ about his family’s travel
to the United States by the Asylum Officer, and that he replied that he wanted a
good environment for his child and his
wife had a job, but he did not, and that
is why he stayed here.
In Loho v. Mukasey, 531 F.3d 1016,
1018–19 (9th Cir. 2008), the Ninth Circuit addressed the situation in which an
asylum applicant has found safety in the
United States and then returns to the
country claimed of persecution before
eventually finding asylum in the United
States. The Ninth Circuit held that the
applicant’s voluntary return to the country of claimed persecution may be considered in assessing both credibility and
whether the respondent has a wellfounded fear of persecution in that country. Here, while the respondent himself
has not returned to China, his wife and
daughter did. Indeed they did so shortly
after arriving in the United States, and
the respondent confirmed that they did
so because the schooling is cheaper for
his daughter in China, as well as because his father-in-law is elderly and
needed to be cared for. The respondent
also told the Asylum Officer that the
‘‘real story’’ about whey [sic] his family
returned was that his wife had a job and
he did not, and that is why he stayed
here. This is consistent with respondent’s testimony before the Court that
he did not have a job at the time he
came to the United States. Furthermore, I note that the respondent’s claim
of persecution is founded on the alleged
forced abortion inflicted upon his wife.
That is the central element of his claim.
The respondent claims that he himself
was persecuted through his resistance to
that abortion. Nevertheless, the fact remains that the fundamental thrust of the
respondent’s claim is that his wife was
forced to have an abortion. In this regard, the respondent’s wife therefore

741

clearly has an equal, or stronger, claim
to asylum than the respondent himself,
assuming the facts which he claims are
true. The respondent was asked why his
wife did not stay and apply for asylum
and he replied that he did not know they
could apply for asylum at the time they
departed. The respondent was then
asked why he stayed here after they
returned; he said because he was in a
bad mood and he wanted to get a job
and a friend of mine is here.
While Loho v. Mukasey applies to the
applicant himself returning to China, I
find that the reasoning of the Ninth
Circuit in that case is fully applicable to
the respondent’s situation in that his
wife, who is the primary object of the
persecution in China, freely chose to
return to China. I do not find that the
respondent’s explanations for her return
to China while he remained here are
adequate. The respondent has stated
that he was in a bad mood and that he
had found a job and had a friend here.
The respondent has also indicated that
his daughter’s education would be
cheaper in China than here, and he has
also indicated that his wife wanted to go
to take care of her father. I do not find
that these reasons are sufficiently substantial so as to outweigh the concerns
raised by his wife and daughter’s free
choice to return to China after having
allegedly fled that country following his
wife’s and his own persecution.
In view of the for[e]going, I find that the
respondent has failed to meet his burden
of proving eligibility for asylum under
Section 208(a) of the Act.
(Emphasis added).
To erase any doubts about Dai’s problematic testimony, the following is an excerpt from it.
MS. HANNETT TO MR. DAI

48a

742

916 FEDERAL REPORTER, 3d SERIES

Q. And isn’t it also true that the [asylum] officer asked why did they go
back and you replied, so that my
daughter can go to school and in
the U.S., you have to pay a lot of
money?
A. Yes, that’s what I said.
Q. Okay. And isn’t it also true that the
officer asked you, can you tell me
the real story about you and your
family’s travel to the U.S., and you
replied I wanted a good environment for my child. My wife had a
job and I didn’t, and that is why I
stayed here. My wife and child go
home first.
A. I believe I said that.
* * *
Q. So, once you got to the United
States, why didn’t your wife apply
for asylum?
A. My wife just returned to China.
Q. Right, and my question is why
didn’t she stay here and apply for
asylum?
A. At that time, we didn’t know the
apply, we didn’t know that we can
apply for asylum.
Q. Well, if you didn’t know that you
could apply for asylum, why did
you stay here after they returned?
A. Because at that time, I was in a
bad mood and I couldn’t get a job,
so I want to stay here for a bit
longer and another friend of mine
is also here.
The asylum officer’s interview notes discussed by the IJ (and found to be consistent with Dai’s testimony before the IJ)
read as follows:
Earlier you said your wife has only traveled to Australia, Taiwan and HK. You
also said that you traveled to the US
alone. Government records indicate that

your wife traveled with you to the United States. Can you explain?
[long pause] the reason is I’m afraid
to say that my wife came here, then
why did she go back.
Your wife went back? Yes
When did she go back to China? February
Why did she go back? Because my child
go to school
Earlier you said you applied for your
visa alone. Our records indicate that
your child also obtained a visa to the US
with you. Can you explain?
[long pause]
Daughter came with wife and you in
January? Yes
Can you explain? I’m afraid
Please tell me what you are afraid of.
That is what your interview today is for.
To understand your fears?
I’m afraid you ask why my wife and
daughter go back
Why did they go back?
So that my daughter can go to school
and in the US you have to pay a lot of
money.
Can you tell me the real story about you
and your family’s travel to the US?
I wanted a good environment for my
child. My wife had a job and I didn’t
and that is why I stayed here. My
wife and child go home first.
(bracketed notations in original).
V
The Role of an Asylum Officer
The majority’s opinion perpetuates another acute error our Circuit has made in
its effort to control the DHS’s administrative process. In footnote 2, the majority
say that if Dai concealed relevant information ‘‘it was only from the asylum officer.’’
Only from the asylum officer? So Dai’s

49a

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

admitted concealment under oath of germane information during a critical part of
the evaluation process is of no moment?
The majority’s misunderstanding of the
role of an asylum officer represents a sub
silentio application of another faulty proposition on the books in our circuit: Singh v.
Gonzales, 403 F.3d 1081 (9th Cir. 2005).
Certain features of an asylum interview
make it a potentially unreliable point of
comparison to a petitioner’s testimony
for purposes of a credibility determination. Barahona-Gomez v. Reno, 236 F.3d
1115 (9th Cir. 2001), explained the significant procedural distinctions between
the initial quasi-prosecutorial ‘‘informal
conferences conducted by asylum officers’’ after the filing of an asylum application, and the ‘‘quasi-judicial functions’’
exercised by IJsTTTT

743

reveals our fundamental misunderstanding
of the process.7 An asylum officer in an
affirmative asylum case does not ‘‘prosecute’’ anyone during the exercise of his
responsibilities, and the process is not
‘‘quasi-prosecutorial’’ in nature. In fact, unlike a prosecutor, an asylum officer has the
primary authority and discretion to grant
asylum to an applicant should the applicant present a convincing case. The asylum
officer’s role is essentially judicial, not
prosecutorial. We miss the mark here because we see only those cases where an
affirmative asylum applicant did not present a sufficiently credible persuasive case
to an asylum officer to prevail, and we
mistakenly conclude from that unrepresentative sample that asylum officers tend
to decide against such applicants.

First of all, we may not have in this case
a verbatim transcript of Dai’s testimony,
but we have the asylum officer’s notes,
which the IJ explicitly found to be accurate. Moreover, when appropriately confronted under oath with the notes, Dai
admitted they correctly captured what he
said. Under these circumstances, any concern that the asylum interview might be a
‘‘potentially unreliable point of comparison’’ to Dai’s testimony is irrelevant. The
record (thanks to Dai himself) eliminates
any potential for unreliability.

The true facts emerge from DHS’s June
20, 2016 report to Congress, Affirmative
Asylum Application Statistics and Decisions Annual Report, covering ‘‘FY 2015
adjudications of affirmative asylum applications by USCIS [U.S. Citizenship & Immigration Services] asylum officers for the
stated period.’’8 By way of background, the
Report points out that asylum officers
have a central determinative role in the
process. Asylum determinations ‘‘are made
by an asylum officer after an applicant
files an affirmative asylum application, is
interviewed, and clears required security
and background checks.’’ Id. at 2.

Second, the pronouncement in Singh v.
Gonzales that an asylum officer’s interview
in an affirmative asylum case is ‘‘quasiprosecutorial’’ in nature is flat wrong and

The Report contains statistics about the
activity of asylum officers. According to
the FY2015 statistics, asylum officers completed 40,062 affirmative asylum cases.

7.

8.

Id. at 1087 (emphasis added).

An affirmative asylum case differs from a
defensive asylum case involving someone already in removal proceedings. See Obtaining
Asylum in the United States, DEP’T OF HOMESEC.,
https://www.uscis.gov/
LAND
humanitarian/refugees-asylum/asylum/
obtaining-asylum-united-states (last updated
Oct. 19, 2015).

2016 DHS Congressional Appropriations Reports, DEP’T OF HOMELAND SEC., https://www.
dhs.gov/publication/2016-dhs-congressionalappropriations-reports (last published Feb.
12, 2018) (follow ‘‘United States Citizenship
and Immigration Services (USCIS) - Affirmative Asylum Application Statistics & Decisions
FY16 Report’’ hyperlink).

50a

744

916 FEDERAL REPORTER, 3d SERIES

They approved 15,999 applications for an
approval rate of 47% for interviewed cases.
Id. at 3.
USCIS has a Policy Manual. Chapter 1
of Volume 1 establishes its ‘‘Guiding Principles.’’9 A ‘‘Core Principal’’ reads as follows:
The performance of agency duties inevitably means that some customers will be
disappointed if their cases are denied.
Good customer service means that everyone USCIS affects will be treated
with dignity and courtesy regardless of
the outcome of the decision.
* * *
USCIS will approach each case objectively and adjudicate each case in a
thorough and fair manner. USCIS will
carefully administer every aspect of its
immigration mission so that its customers can hold in high regard the privileges and advantages of U.S. immigration.
Id.
Finally, we look at the training given to
asylum officers in connection with their
interviews of affirmative asylum applicants. In USCIS’s Adjudicator’s Field
Manual, we find in Appendix 15-2, ‘‘NonAdversarial Interview Techniques,’’ the
following guidance.10
I. OVERVIEW
An immigration officer will conduct an
interview for each applicant, petitioner
or beneficiary where required by law or
regulation, or if it is determined that
such interviewed [sic] is appropriate.
The interview will be conducted in a
non-adversarial manner, separate and
9.

Policy Manual, U.S. CITIZENSHIP & IMMIGRASERVS.,
https://www.uscis.gov/
policymanual/HTML/PolicyManual-Volume1PartA-Chapter1.html (Aug. 23, 2017).
TION

10. Adjudicator’s Field Manual - Redacted Public Version, U.S. CITIZENSHIP & IMMIGRATION

apart from the general public. The officer must always keep in mind his or her
responsibility to uphold the integrity of
the adjudication process. As representatives of the United States Government,
officers must conduct the interview in a
professional manner.
* * *
Due to the potential consequences of
incorrect determinations, it is incumbent
upon officers to conduct organized, focused, and well-planned, non-adversarial interviews TTTT
***
III. NON-ADVERSARIAL NATURE
OF THE INTERVIEW
A. Concept of the Non-adversarial Interview
A non-adversarial proceeding is one in
which the parties are not in opposition
to each other. This is in contrast to
adversarial proceedings, such as civil
and criminal court proceedings, where
two sides oppose each other by advocating their mutually exclusive positions before a neutral arbiter until one side prevails and the other side loses. A removal
proceeding before an immigration judge
is an example of an adversarial proceeding, where the Service trial attorney
is seeking to remove a person from the
United States, while the alien is seeking
to remain.
The interview is part of a non-adversarial proceeding. The principal intent of the
Service is not to oppose the interviewee’s goal of obtaining a benefit, but to
determine whether he or she qualifies
for such benefit. If the interviewee qualiSERVS., https://www.uscis.gov/ilink/docView/
AFM/HTML/AFM/0-0-0-1.html (follow ‘‘Appendices’’ hyperlink; then follow ‘‘15-2 NonAdversarial Interview Techniques’’ hyperlink)
(last visited Feb. 15, 2018) (emphasis added).

51a

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

fies for the benefit, it is in the Service’s
interest to accommodate that goal.
* * *
B. Points to Keep in Mind When Conducting a Non-adversarial Interview
The officer’s role in the non-adversarial
interview is to ask questions formulated
to elicit and clarify the information needed to make a determination on the petitioner or applicant’s request. This questioning must be done in a professional
manner that is non-threatening and nonaccusatory.
1. The officer must:
a. Treat the interviewee with respect.
Even if someone is not eligible for the
benefit sought based on the facts of the
claim, the officer must treat him or her
with respect. The officer may hear similar claims from many interviewees, but
must not show impatience towards any
individual. Even the most non-confrontational officer may begin to feel annoyance or frustration if he or she believes
that the interviewee is lying; however, it
is important that the officer keep these
emotions from being expressed during
the interview.
b. Be non-judgmental and non-moralistic. Interviewees may have reacted to
situations differently than the officer
might have reacted. The interviewee
may have left family members behind to
fend for themselves, or may be a member of a group or organization for which
the officer has little respect. Although
officers may feel personally offended by
some interviewee’s actions or beliefs, officers must set their personal feelings
aside in their work, and avoid passing
moral judgments in order to make neutral determinations.
c. Create an atmosphere in which the
interviewee can freely express his or her
claim. The officer must make an attempt
to put the interviewee at ease at the

745

beginning of the interview and continue
to do so throughout the interview. If the
interviewee is a survivor of severe trauma (such as a battered spouse), he or
she may feel especially threatened during the interview. As it is not always
easy to determine who is a survivor,
officers should be sensitive to the fact
that every interviewee is potentially a
survivor of trauma.
Treating the interviewee with respect
and being non-judgmental and non-moralistic can help put him or her at ease.
There are a number of other ways an
officer can help put an interviewee at
ease, such as:
1 Greet him or her (and others) pleasantly;
1 Introduce himself or herself by
name and explain the officer’s role;
1 Explain the process of the interview
to the interviewee so he or she will
know what to expect during the interview;
1 Avoid speech that appears to be
evaluative or that indicates that the
officer thinks he or she knows the
answer to the question;
1 Be patient with the interviewee; and
1 Keep language as simple as possible.
d. Treat each interviewee as an individual. Although many claims may be similar, each claim must be treated on a
case-by-case basis and each interviewee
must be treated as an individual. Officers must be open to each interviewee as
a potential approval.
e. Set aside personal biases. Everyone
has individual preferences, biases, and
prejudices formed during life experiences that may cause them to view others either positively or negatively. Officers should be aware of their personal
biases and recognize that they can po-

52a

746

916 FEDERAL REPORTER, 3d SERIES

tentially interfere with the interview
process. Officers must strive to prevent
such biases from interfering with their
ability to conduct interviews in a nonadversarial and neutral manner.
f. Probe into all material elements of the
interviewee’s claim. The officer must
elicit all relevant and useful information
bearing on the applicant or beneficiary’s
eligibility. The officer must ask questions to expand upon and clarify the
interviewee’s statements and information contained on the form. The response to one question may lead to additional questions about a particular topic
or event that is material to the claim.
g. Provide the interviewee an opportunity to clarify inconsistencies. The officer
must provide the interviewee with an
opportunity during the interview to explain any discrepancy or inconsistency
that is material to the determination of
eligibility. He or she may have a legitimate reason for having related testimony that outwardly appears to contain an
inconsistency, or there may have been a
misunderstanding between the officer
and the interviewee. Similarly, there
may be a legitimate explanation for a
discrepancy or inconsistency between information on the form and the interviewee’s testimony.
On the other hand, the interviewee
may be fabricating a claim. If the officer
believes that an interviewee is fabricating a claim, he or she must be able to
clearly articulate why he or she believes
that the interviewee is not credible.
h. Maintain a neutral tone throughout
the interview. Interviews can be frustrating at times for the officer. The interviewee may be long-winded, may discuss issues that are not relevant to the
claim, may be confused by the question11. 18 U.S.C. § 1001 makes it a crime knowingly and willfully to make a material false

ing, may appear to be or may be fabricating a claim, etc. It is important that
the officer maintain a neutral tone even
when frustrated.
2. The officer must not:
1 Argue in opposition to the applicant or
petitioner’s claim (if the officer engages
in argument, he or she has lost control
of the interview);
1 Question the applicant in a hostile or
abusive manner;
1 Take sides in the applicant or petitioner’s claim;
1 Attempt to be overly friendly with the
interviewee; or
1 Allow personal biases to influence him
or her during the interview, either in
favor of or against the interviewee.
I hope that by exposing the particulars
of the affirmative application process we
will correct our understanding of the applicant interview process, and that we will
drop our uninformed characterization of it
as ‘‘quasi-prosecutorial.’’ While under oath,
Dai intentionally concealed material information from the asylum officer during a
critical aspect of the process. To diminish
the import of this potential crime 11 because the government official was ‘‘only’’
an asylum officer is a serious mistake.
VI
The BIA’s Decision
Dai unsuccessfully appealed the IJ’s decision denying his application for asylum,
withholding of removal, and protection under the Convention Against Torture. The
BIA’s decision follows.
We review for clear error the findings of
fact, including determinations of credibility, made by the Immigration Judge.
statement in any matter within the jurisdiction of the executive branch of Government.

53a

747

DAI v. BARR
Cite as 916 F.3d 731 (9th Cir. 2018)

We review de novo all other issues, including whether the parties have met
the relevant burden of proof, and issues
of discretion. The respondent filed his
application for asylum after May 11,
2005, and thus review is governed by the
REAL ID Act of 2005.
We adopt and affirm the Immigration
Judge’s decision in this case. The Immigration Judge correctly denied the respondent’s applications for failure to
meet his burden of proof. The record
reflects that the respondent failed to
disclose to both the [DHS] asylum officer and the Immigration Judge that his
wife and daughter had traveled with him
to the United States and voluntarily returned to China shortly after. The respondent further conceded that he was
not forthcoming about this information
because he believed that the true reasons
for their return—that his wife had a job
in China and needed to care for her
elderly father, and that their daughter
could attend school in China for less
money than in the United States—
would be perceived as inconsistent with
his claims of past and feared future
persecution.
The Immigration Judge correctly decided that the voluntary return of the respondent’s wife and daughter to China,
after allegedly fleeing following the persecution of the respondent and his wife,
prevents the respondent from meeting
his burden of proving his asylum claim.
Contrary to the respondent’s argument
on appeal, the Immigration Judge need
not have made an explicit adverse credibility finding to nevertheless determine
that the respondent did not meet his
burden of proving his asylum claim.
The respondent’s family voluntarily re12. And if an IJ does make an adverse credibility finding, we have manufactured a multi-

turning and his not being truthful about
it is detrimental to his claim and is
significant to his burden of proof.
(Emphasis added) (footnote and citations
omitted).
VII
The IJ Becomes a Potted Plant
My colleagues’ opinion boils down to this
faulty proposition: Simply because the IJ
did not say ‘‘I find Dai not credible’’ but
opted instead to expose the glaring factual
deficiencies in Dai’s presentation and to
explain in specific detail and at length why
Dai had not persuasively carried his burden of proving his case, we must selectively embrace as persuasive Dai’s problematic
presentation regarding the core of his
claim.12 I invite the reader to review once
again the IJ’s decision and to decide on the
merits whether Dai’s case is persuasive. It
is anything but.
My colleagues expunge from the record
the blatant flaws in Dai’s performance involving demeanor, candor, and responsiveness, claiming that ‘‘taking into account
the record as a whole, nothing undermines
the persuasiveness of Dai’s credible testimonyTTTT’’ Nothing? They disregard inaccuracies, inconsistencies, and implausibilities in his story, and his barefaced attempt
to cover up the truth about his wife’s and
daughter’s travels and situation. They even
sweep aside Dai’s admission to the asylum
officer that the ‘‘real story’’ is that (1) he
wanted a good environment for his child,
(2) his wife left him behind because she
had a job in China and he did not, and (3)
he was in a ‘‘bad mood,’’ couldn’t get a job,
and wanted to stay here ‘‘for a bit longer.’’
In their opinion, there is not a single word
regarding the factors cited by the IJ to
tude of ways to disregard it.

54a

748

916 FEDERAL REPORTER, 3d SERIES

explain his observations, findings, and decision, including the fact that Dai’s wife,
allegedly the initial subject of persecution
in China, made a free choice to return. The
effect of the presumption is to wipe the
record clean of everything identified by
the IJ and the BIA as problematic.
The irony in my colleagues’ analysis is
that once they proclaim that Dai’s testimony is credible, they pick and choose only
those parts of his favorable testimony that
support his case—not the parts that undercut it. If we must accept Dai’s presentation as credible, then why not also his
‘‘real story’’ when confronted with the facts
that he came to the United States because
he wanted a good environment for his
daughter, and that he did not return to
China with his wife because she had a job
and he did not? What becomes of his attempted cover up of the travels of his wife
and daughter?
Furthermore, my colleagues’ treatment
of the IJ’s opinion is irreconcilable with
the BIA’s wholesale acceptance of it. In
words as clear as the English language can
be, the BIA said, ‘‘We adopt and affirm the
Immigration Judge’s decision.’’ To compound their error, the majority then seizes
upon and pick apart the BIA’s summary
explanation of why it concluded on de novo
review that the IJ’s decision was correct.
What the BIA did say was that Dai’s failure to be truthful about his family’s voluntary return to China was ‘‘detrimental to
his claim’’ and ‘‘significant to his burden of
proof.’’
VIII
Analysis
And so we come at last to the statutory requirement of persuasiveness, an issue uniquely suited to be determined by
the ‘‘trier of fact,’’ as the Act and 8
U.S.C. § 1158(b)(1)(B)(ii) dictate. The ma-

jority opinion freights this inquiry with
an incomplete record. The opinion sweeps
demeanor, candor, and plausibility considerations—as well as the IJ’s extensive
findings of fact—off the board. Once
again, the opinion ignores Huang, a postAct case.
The need for deference is particularly
strong in the context of demeanor assessments. Such determinations will often be based on non-verbal cues, and
‘‘[f]ew, if any, of these ephemeral indicia
of credibility can be conveyed by a paper
record of the proceedings and it would
be extraordinary for a reviewing court
to substitute its second-hand impression
of the petitioner’s demeanor, candor, or
responsiveness for that of the IJ.’’
744 F.3d at 1153 (alteration in original)
(quoting Jibril, 423 F.3d at 1137).
Here, the IJ determined that Dai’s testimony was not persuasive based on demeanor, non-verbal cues, and other germane material factors that went to the
heart of his case. The IJ explained his
decision in exquisite detail, and our approach and analysis should be simple. In
order to reverse the BIA’s conclusion that
Dai did not carry his burden of proof, ‘‘we
must determine ‘that the evidence not
only supports [a contrary] conclusion, but
compels it—and also compels the further
conclusion’ that the petitioner meets the
requisite standard for obtaining relief.’’
Garcia-Milian v. Holder, 755 F.3d 1026,
1031 (9th Cir. 2014) (alteration in original)
(quoting INS v. Elias-Zacarias, 502 U.S.
478, 481 n.1, 112 S.Ct. 812, 117 L.Ed.2d 38
(1992)). If anything, this record compels
the conclusion that the IJ and the BIA
were correct, not mistaken. Are my colleagues seriously going to hold that an IJ
cannot take universally accepted demeanor, candor, responsiveness, plausibility,
and forthrightness factors into consideration in assessing persuasiveness, as the

55a

AMERICAN BEVERAGE ASS’N v. CITY & CNTY. SAN FRANC.
Cite as 916 F.3d 749 (9th Cir. 2019)

IJ did here? And that this detailed record,
which is full of Dai’s admissions of an
attempted coverup, compels the conclusion
that Dai was so persuasive as to carry his
burden? Dai accurately understood the
damaging implications of his wife’s return
to China. So did the IJ and the BIA. As
the BIA stated, the truth is ‘‘inconsistent
with his claims of past and feared future
persecution.’’
IX
The More Things Change, The More
They Stay The Same
In Elias-Zacarias, 921 F.2d 844 (9th
Cir. 1990), rev’d, 502 U.S. 478, 112 S.Ct.
812, 117 L.Ed.2d 38 (1992), our court substituted the panel’s interpretation of the
evidence for the BIA’s. The Supreme
Court reversed our decision, calling the
first of the panel’s two-part reasoning ‘‘untrue,’’ and the second ‘‘irrelevant.’’ 502
U.S. at 481, 112 S.Ct. 812. The Court
warned us that we could not reverse the
BIA unless the asylum applicant demonstrates that ‘‘the evidence he presented
was so compelling that no reasonable factfinder could fail to find the requisite fear
of persecution.’’ Id. at 483–84, 112 S.Ct.
812 (emphasis added). In our case, we
again fail to follow this instruction.
In INS v. Orlando Ventura, 537 U.S. 12,
13, 123 S.Ct. 353, 154 L.Ed.2d 272 (2002)
(per curiam), the Court noted that both
sides, petitioner and respondent, had
asked us to remand the case to the BIA so
that it might determine in the first instance whether changed conditions in Guatemala eliminated any realistic threat of
persecution of the petitioner. Our panel did
not remand the case, evaluating instead
the government’s claim of changed conditions by itself and deciding the issue in
favor of the petitioner. Id. at 13–14, 123
S.Ct. 353. The Supreme Court summarily
reversed our decision, saying ‘‘[T]he Court

749

of Appeals committed clear error here. It
seriously disregarded the agency’s legally
mandated role.’’ Id. at 17, 123 S.Ct. 353.
A mere two years after Ventura’s per
curiam opinion, we knowingly made the
same mistake in Thomas v. Gonzales, 409
F.3d 1177 (9th Cir. 2005) (en banc), vacated, 547 U.S. 183, 126 S.Ct. 1613, 164
L.Ed.2d 358 (2006). We disregarded four
dissenters to that flawed opinion, who argued in vain that our court’s decision was
irreconcilable with Ventura. In short order, the Supreme Court vacated our en
banc opinion, saying that our ‘‘error is
obvious in light of Ventura, itself a summary reversal’’ and that the same remedy
was once again appropriate. 547 U.S. at
185, 126 S.Ct. 1613.
With all respect, the majority opinion
follows in our tradition of seizing authority
that does not belong to us, disregarding
DHS’s statutorily mandated role. Even the
REAL ID Act has failed to correct our
errors.
Thus, I dissent.

,
AMERICAN BEVERAGE ASSOCIATION; California Retailers Association, Plaintiffs-Appellants,
and
California State Outdoor Advertising
Association, Plaintiff,
v.
CITY AND COUNTY OF SAN
FRANCISCO, DefendantAppellee.

56a

1143

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

the majority’s opinion, which would inevitably exist even after further disclosures
are attempted, parties may shift to using
arbitrators who are unaffiliated with any
arbitration firm. These arbitrators may be
less likely to have expertise—but be at
least equally likely to want to retain the
business of potential repeat customers. Cf.
ANR Coal Co., Inc. v. Cogentrix of N.C.,
Inc., 173 F.3d 493, 498–99 (4th Cir. 1999)
(‘‘[S]ubjecting arbitrators to extremely rigorous disclosure obligations would diminish
one of the key benefits of arbitration: an
arbitrator’s familiarity with the parties’
business.’’ (citing Commonwealth Coatings, 393 U.S. at 150, 89 S.Ct. 337 (White,
J., concurring))).

to arbitration instead. It is especially unfortunate when arbitrations involve a nonrepeat player party that had no choice but
to agree to arbitration in order to acquire
employment, purchase a product, or obtain
a necessary service. The majority laudably
seeks to mitigate disparities between repeat players and one-shot players in the
arbitration system. But I disagree that
requiring disclosures about the elephant
that everyone knows is in the room will
address those disparities. It will only cause
many arbitrations to be re-done, and endless litigation over how many repeated arbitrations there will be.

Although I would affirm the Arbitrator’s
award in favor of Monster, I note that lack
of disclosure about a party’s prior arbitrations might require vacatur in some instances. For example, if one of the parties
had used the exact same arbitrator to resolve numerous disputes, and the arbitrator always ruled in its favor, vacatur might
be appropriate based on the arbitrator’s
failure to disclose that arbitration history.
But the facts of this case are nowhere near
so extreme. The Arbitrator had previously
decided one dispute between Monster and
a distributor, and that proceeding resulted
in an award of almost $400,000 against
Monster. The Arbitrator had also been
selected to decide a dispute between Monster and another distributor, which was
still pending at the time of the arbitration
involving Monster and Olympic Eagle. The
disclosure the Arbitrator made to the parties provided accurate information about
both arbitrations.

,

II.
To the extent that the private arbitration system favors repeat players, I think
it is unfortunate that so many parties forgo the protections of Article III and turn

I therefore respectfully dissent.

MING DAI, Petitioner,
v.
William P. BARR, Attorney
General, Respondent.
No. 15-70776
United States Court of Appeals,
Ninth Circuit.
Filed October 22, 2019
Agency No. AXXX-XX5-836
David Z. Su, Law Offices of David Z. Su,
West Covina, California; David J. Zimmer,
Goodwin Procter LLP, Boston, Massachusetts; William M. Jay, Goodwin Procter
LLP, Washington, D.C.; for Petitioner.
Aimee J. Carmichael, Senior Litigation
Counsel; Mary Jane Candaux and John W.
Blakeley, Assistant Directors; Donald
Keener, Deputy Director; Office of Immigration, Civil Division, United States De-

57a

1144

940 FEDERAL REPORTER, 3d SERIES

partment of Justice, Washington, D.C.; for
Respondent.
Before: SIDNEY R. THOMAS, Chief
Circuit Judge, and STEPHEN S. TROTT
and MARY H. MURGUIA, Circuit Judges.
Order; Statement Respecting Denial by
Judge TROTT; Dissent by Judge
CALLAHAN; Statement Respecting
Denial by Judges O’SCANNLAIN and
TROTT; Dissent by Judge COLLINS
ORDER
The full court has been advised of the
petition for rehearing en banc. A judge
requested a vote on whether to rehear the
matter en banc. The matter failed to receive a majority of the votes of the nonrecused active judges in favor of en banc
consideration. Fed R. App. P. 35. Judge
Miller was recused and did not participate
in the vote.
The petition for rehearing en banc is
denied. Attached are dissents from and
statements respecting the denial of rehearing en banc.
TROTT, Circuit Judge,** with whom R.
NELSON, Circuit Judge, joins, respecting
the denial of rehearing en banc:
Instead of following the REAL ID Act
(‘‘Act’’), our court has perpetuated a contrived rule that in the absence of an adverse credibility finding, a petitioner must
be deemed credible. We then use that
conclusion to override an Immigration
Judge’s (‘‘IJ’’) and the Board of Immigration Appeals’ (‘‘Board’’) well-supported determination that this petitioner’s case was
not ‘‘persuasive.’’ In so doing, we have
** As a judge of this court in senior status, I no
longer have the power to vote on calls for
rehearing cases en banc or formally to join a
dissent from failure to rehear en banc. See 28
U.S.C. § 46(c); Fed. R. App. P. 35(a). Follow-

rewritten the Act. We have a long history
of ignoring Congress and the Supreme
Court, and here we have done it again. See
Dai v. Sessions, 884 F.3d 858, 875–93 (9th
Cir. 2018) (Trott, J., dissenting). Moreover,
the panel majority opinion creates an intercircuit conflict. I will address that problem later in Part IV.
I
As explained in his thorough and convincing decision, Immigration Judge Stephen Griswold, determined that Dai had
not met his statutory burden of persuasion
on the central issue of whether he was
eligible as a refugee for asylum. The documented fatal flaws in Dai’s case were (1)
his glaring attempt to deceive the asylum
officer by concealing highly probative damaging facts that go to the very core of his
case, facts that Dai also omitted from his
Form I-589 application for asylum, (2) his
admission when pressed that his deceit
was intentional, driven by his understanding that the concealed evidence would
damage his probability of success, (3) his
inadequate explanations for the contradictions in his presentation, (4) his telling
demeanor on cross examination, and (5)
the ‘‘real story’’ behind his departure from
China and his decision not to return with
his wife and daughter. The IJ regarded
these flaws as demonstrating a ‘‘lack of
forthrightness.’’ Accordingly, the IJ concluded pursuant to the language of the Act
that Dai’s case was not ‘‘persuasive.’’
Reviewing de novo whether Dai had adequately met his burden of persuasion that
he was eligible for asylum, the Board of
Immigration Appeals agreed that he had
not. To support its conclusion, the Board
ing our court’s general orders, however, I
may participate in discussions of en banc
proceedings. See Ninth Circuit General Order
5.5(a).

58a

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

referenced the same material flaws the IJ
found as facts. Their reasoned decision
should end this case, but with all respect,
the panel majority and now our court have
converted this straightforward matter into
a textbook example of elevating form over
substance, taking a blue pencil to the Act’s
requirement that an applicant’s case must
be ‘‘persuasive’’ and inappropriately substituting our judgment for the Board’s.
II
Here is Judge Griswold’s compelling decision. Reading it illustrates how wrong
our court’s analysis is.
I have carefully considered the respondent’s testimony and evidence and for
the following reasons, I find that the
respondent has failed to meet his burden
of proving eligibility for asylum.
The principal area of concern with regard to the respondent’s testimony arose
during the course of his cross-examination. On cross-examination, the respondent was asked about various aspects of
his interview with an Asylum Officer.
The Department of Homeland Security
also submitted the notes of that interview as Exhibit 5. The respondent was
asked specific questions regarding several aspects of his testimony before the
Asylum Officer. In the course of crossexamination, the respondent was asked
regarding his questions and answers as
to whether his wife and daughter travelled with him to the United States. The
respondent’s responses included the
question of whether the asylum officer
had asked him if his wife and daughter
travelled anywhere other than to Taiwan
and Hong Kong. The respondent conceded that he was asked this question
and that he replied yes, they had travelled to Taiwan and Hong Kong. The
respondent was asked whether the Asylum Officer inquired whether his wife

1145

and daughter had travelled elsewhere.
The respondent then testified before the
Court that he was asked this question,
‘‘but I was nervous.’’ In this regard, I
note that the respondent did not directly
answer the question; instead leapt directly to an explanation for what his
answer may have been, namely that he
was nervous. The respondent was then
asked specifically whether the Asylum
Officer asked him if his wife had travelled to Australia in 2007. The respondent confirmed that he had been asked
this question, and he confirmed that the
answer was in the affirmative. The respondent also confirmed that the Asylum Officer had asked him whether she
had travelled anywhere else. He confirmed that he had been so asked. The
respondent was then asked whether he
answered ‘‘no,’’ that she had not travelled anywhere else. The respondent answered that he believed so, that he had
so answered. The respondent was then
asked, during the course of cross-examination, why he had not said to the Asylum Officer that yes, she had travelled
to the United States. The respondent
replied that he had not thought of it. He
stated that they did come with him
(meaning his wife and daughter) and
that he thought the Asylum Officer was
asking him if they had travelled anywhere other than the United States. He
explained that he did so because he assumed the U.S. Government had the
records of their travel to the United
States. On further questioning, the respondent eventually hesitated at some
length when asked to further explain
why he did not disclose spontaneously to
the Asylum Officer that his wife and
daughter had come with him. The respondent paused at some length and I
observed that the respondent appeared
nervous and at a loss for words. However, after a fairly lengthy pause, the re-

59a

1146

940 FEDERAL REPORTER, 3d SERIES

spondent testified that he is afraid to
say that his wife and daughter came
here and why they went back. The respondent was asked whether he told the
Asylum Officer that he was afraid to
answer directly. The respondent initially
testified that he forgot and did not remember whether he said that. He again
reiterated that he was very nervous. He
was then asked the question again as to
whether he told the Asylum Officer that
he was afraid to answer why his wife
and daughter had gone back. He then
conceded that maybe, yes, he had answered in that fashion. The respondent
was asked whether the Asylum Officer
inquired why his wife and daughter went
back, and the respondent conceded that
he had been so asked, and he further
conceded that he replied because school
in the United States costs a lot of money
(referring to the schooling for his daughter). The respondent was then asked to
confirm that the Asylum Officer eventually asked him to tell him the real story
as to why his family travelled to the
United States and returned to China.
The respondent confirmed that he was
asked this question and when asked,
whether he replied that it was because
he wanted a good environment for his
child and because his wife had a job and
he did not and that that is why he
stayed here. He confirmed that he did,
in fact, say that. The respondent was
further asked, during the course of testimony in court, why his wife and daughter returned to China. In this regard,
the respondent testified that they came
with him, but returned to China several
weeks after arrival. He testified that
they did so because his father-in-law was
elderly and needed attention, and because his daughter needed to graduate
school in China.
The respondent further claimed that his
wife had, in fact, suffered past persecu-

tion in the form of a forced abortion and
the respondent confirmed that he feared
his wife and daughter would suffer future persecution. In this regard, the respondent qualified his answer by saying
that his wife was now on an IUD, apparently thereby suggesting that the risk of
persecution is reduced. However, the respondent did concede that the risk of
future persecution also pertains to his
daughter. Indeed, in this regard, the
respondent testified that this is, at least
in part, why he applied for asylum.
As to the contents of Exhibit 5, I give
the notes full weight, insofar as the respondent has confirmed the contents of
the questions and answers given during
the course of that interview. Furthermore, I note that in the sections in
which the respondent equivocated, stating that he was nervous and not sure
that he gave those precise answers, I
nevertheless give the Asylum Officer’s
notes some substantial weight, in that
they are consistent with the respondent’s testimony in court. Specifically, I
note that the Asylum Officer’s notes
state that the respondent ultimately indicated that he was afraid of giving
straight answers regarding his daughter
and wife’s trip to the United States and
return to China. And while the respondent did not confirm this in court, he did
give a similar answer as to why he was
testifying in this regard. In other words,
the respondent appears to have stated,
both before the Asylum Officer and in
court that he did not spontaneously disclose the travel of his wife and daughter
with him to the United States and their
return because he was nervous about
how this would be perceived by the Asylum Officer in connection with his
claim. I further note that the Asylum
Officer’s notes are internally consistent
with regard to references to earlier

60a

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

questions, such as whether the respondent had stated that he applied for a
visa with anyone else. At page 2 of the
notes contained in Exhibit 5, the respondent was asked whether he applied
for his visa with anyone else and the
notes indicated that he stated that, ‘‘no,
I applied by myself.’’ Similarly, I note
that the testimony before the Asylum
Officer and the Court is consistent with
the omission in the respondent’s Form
I-589 application for asylum, of an answer to the question of the date of the
previous arrival of his wife, if she had
previously been in the United States.
See Exhibit 2, page 2, part A.II, question 23. When asked about this omission,
the respondent expressed surprise, stating that he told the preparer about their
trip and indicated that he thought it had
been filled out. Notwithstanding the respondent’s statement in this regard, I do
observe that the omission is consistent
with his lack of forthrightness before the
asylum office as to his wife and daughter’s travel with him to the United
States and their subsequent return to
China shortly thereafter.
In sum, the respondent’s testimony before the Court and his testimony regarding the Asylum Officer notes, as well as
the notes themselves, clearly indicate
that the respondent failed to spontaneously disclose that his wife and daughter
came with him and then returned to
China. His testimony and the notes also
consistently demonstrate that the respondent paused at length, both before
the Court and before the Asylum Officer, when asked about this topic. His
testimony and the Asylum Officer notes
are also consistent in indicating that he
ultimately testified that he was afraid to
say that his wife came here and was
afraid of being asked about why she
went back. Furthermore, the respondent
has conceded that he was asked to ‘‘tell

1147

the real story’’ about his family’s travel
to the United States by the Asylum Officer, and that he replied that he wanted a
good environment for his child and his
wife had a job, but he did not, and that
is why he stayed here.
In Loho v. Mukasey, 531 F.3d 1016,
1018–19 (9th Cir. 2008), the Ninth Circuit addressed the situation in which an
asylum applicant has found safety in the
United States and then returns to the
country claimed of persecution before
eventually finding asylum in the United
States. The Ninth Circuit held that the
applicant’s voluntary return to the country of claimed persecution may be considered in assessing both credibility and
whether the respondent has a wellfounded fear of persecution in that country. Here, while the respondent himself
has not returned to China, his wife and
daughter did. Indeed they did so shortly
after arriving in the United States, and
the respondent confirmed that they did
so because the schooling is cheaper for
his daughter in China, as well as because his father-in-law is elderly and
needed to be cared for. The respondent
also told the Asylum Officer that the
‘‘real story’’ about whey [sic] his family
returned was that his wife had a job and
he did not, and that is why he stayed
here. This is consistent with respondent’s testimony before the Court that
he did not have a job at the time he
came to the United States. Furthermore, I note that the respondent’s claim
of persecution is founded on the alleged
forced abortion inflicted upon his wife.
That is the central element of his claim.
The respondent claims that he himself
was persecuted through his resistance to
that abortion. Nevertheless, the fact remains that the fundamental thrust of the
respondent’s claim is that his wife was
forced to have an abortion. In this re-

61a

1148

940 FEDERAL REPORTER, 3d SERIES

gard, the respondent’s wife therefore
clearly has an equal, or stronger, claim
to asylum than the respondent himself,
assuming the facts which he claims are
true. The respondent was asked why his
wife did not stay and apply for asylum
and he replied that he did not know they
could apply for asylum at the time they
departed. The respondent was then
asked why he stayed here after they
returned; he said because he was in a
bad mood and he wanted to get a job
and a friend of mine is here.
While Loho v. Mukasey applies to the
applicant himself returning to China, I
find that the reasoning of the Ninth
Circuit in that case is fully applicable to
the respondent’s situation in that his
wife, who is the primary object of the
persecution in China, freely chose to
return to China. I do not find that the
respondent’s explanations for her return
to China while he remained here are
adequate. The respondent has stated
that he was in a bad mood and that he
had found a job and had a friend here.
The respondent has also indicated that
his daughter’s education would be
cheaper in China than here, and he has
also indicated that his wife wanted to go
to take care of her father. I do not find
that these reasons are sufficiently substantial so as to outweigh the concerns
raised by his wife and daughter’s free
choice to return to China after having
allegedly fled that country following his
wife’s and his own persecution.
In view of the for[e]going, I find that the
respondent has failed to meet his burden
of proving eligibility for asylum under
Section 208(a) of the Act.
(Emphasis added).
III
Assuming for the sake of argument only
that the Immigration Judge’s findings of

Dai’s (1) ‘‘lack of forthrightness,’’ (2) guilty
demeanor, (3) inadequate explanations for
his admittedly contradictory answers, and
(4) willful concealment of relevant information did not amount to an ‘‘explicit’’ adverse credibility determination, then Dai is
statutorily entitled to a ‘‘rebuttable presumption of credibility on appeal’’ – to the
Board. On appeal to the Board, however,
they dismissed this presumption, as was
their statutory prerogative, concluding in
the words of the Act that Dai’s case was
not persuasive:
We review for clear error the findings of
fact, including determinations of credibility, made by the Immigration Judge.
We review de novo all other issues, including whether the parties have met
the relevant burden of proof, and issues
of discretion. The respondent filed his
application for asylum after May 11,
2005, and thus review is governed by the
REAL ID Act of 2005.
We adopt and affirm the Immigration
Judge’s decision in this case. The Immigration Judge correctly denied the respondent’s applications for failure to
meet his burden of proof. The record
reflects that the respondent failed to
disclose to both the [DHS] asylum officer and the Immigration Judge that his
wife and daughter had traveled with him
to the United States and voluntarily returned to China shortly after. The respondent further conceded that he was
not forthcoming about this information
because he believed that the true reasons
for their return – that his wife had a job
in China and needed to care for her
elderly father, and that their daughter
could attend school in China for less
money than in the United States –
would be perceived as inconsistent with
his claims of past and feared future
persecution.

62a

1149

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

The Immigration Judge correctly decided that the voluntary return of the respondent’s wife and daughter to China,
after allegedly fleeing following the persecution of the respondent and his wife,
prevents the respondent from meeting
his burden of proving his asylum claim.
Contrary to the respondent’s argument
on appeal, the Immigration Judge need
not have made an explicit adverse credibility finding to nevertheless determine
that the respondent did not meet his
burden of proving his asylum claim.
The respondent’s family voluntarily returning and his not being truthful about
it is detrimental to his claim and is
significant to his burden of proof.
(Emphasis added) (footnote and citations
omitted).
IV
In Kho v. Keisler, 505 F.3d 50 (1st Cir.
2007), the First Circuit understood the
Act’s effect on the issue of an applicant’s
credibility. Not only did our sister circuit
correctly comprehend the Act’s impact, but
it considered and rejected our approach to
this important subject.
Kho supplements his ‘disfavored group’
approach with an argument that because
the IJ did not make an explicit finding
concerning Kho’s credibility, his testimony ‘must be accepted as true’ by this
court. Kho bases this proposed rule as
well on a series of Ninth Circuit cases.
TTT
We have already rejected the proposition that aliens are entitled to a presumption of credibility on review in this
court if there is no express credibility
determination made by an IJTTTT
The REAL ID Act also provides no
support for Kho’s argument. TTT
Kho, 505 F.3d at 56–57.
The court further explained that the
Act’s reference to a ‘‘rebuttable presump-

tion’’ applies only to an applicant’s appeal
to the BIA, not to ‘‘reviewing courts of
appeal.’’ Id. at 56.
Accordingly, not only does our court’s
decision violate the directions of the Act,
but it creates an intercircuit conflict with
Kho.
V
Whether or not this petitioner attains
asylum in our country is of minor concern,
but the significant damage our court has
done to the Act and to Congress’ attempt
to stop us from substituting our judgment
for the Board’s are matters that must be
corrected. Thus, I disagree with our decision not to rehear en banc this case.
CALLAHAN, Circuit Judge, with whom
BYBEE, BEA, M. SMITH, IKUTA,
BENNETT, R. NELSON, BADE,
COLLINS, LEE, Circuit Judges, join,
dissenting from denial of rehearing en
banc:
Under the REAL ID Act of 2005, an
immigration judge (IJ) has the task of
evaluating an asylum application. Here, in
denying en banc review, we have condoned
a decision by a three-judge panel that
takes the extraordinary position of holding
that, absent an explicit adverse credibility
ruling, an IJ must take as true an asylum
applicant’s testimony that supports a claim
for asylum, even in the face of other testimony from the applicant that would undermine an asylum claim. This makes no
sense and ignores the realities of factfinding. Our decision restores our prior errant
rule that Congress abrogated. As we have
declined to correct this erroneous decision
ourselves, hopefully the Supreme Court
will do so.
Before Congress enacted the REAL ID
Act, our court had fashioned unique rules
devised to restrict the agency’s discretion

63a

1150

940 FEDERAL REPORTER, 3d SERIES

in adjudicating asylum claims. The REAL
ID Act broadened the agency’s discretion.
In explaining the amendments, Congress
singled out our court for adopting rules
that strayed from all other circuits and the
Board of Immigration Appeals. In this
case, the divided panel ignored this history
and revived a rule that we previously said
was ‘‘swept away’’ by the REAL ID Act.
Aden v. Holder, 589 F.3d 1040, 1045 (9th
Cir. 2009).
The immigration judge here was presented with conflicting statements from
the asylum applicant, Ming Dai, about why
he came to and sought to remain in the
United States. The IJ did not make an
express adverse credibility finding but instead found Dai’s testimony was not sufficiently persuasive to meet his burden of
proof. The panel majority erroneously concluded that, absent an explicit, cogentlyexplained adverse credibility finding, an IJ
is required to accept the favorable portions
of an asylum applicant’s testimony as the
unassailable truth.
According to the panel, in weighing the
persuasiveness of the asylum applicant’s
testimony, an IJ must ignore any unfavorable testimony because such testimony—
which could impugn the applicant’s credibility—‘‘cannot be smuggled into the persuasiveness inquiry.’’ Dai v. Sessions, 884
F.3d 858, 872 (9th Cir. 2018). The panel’s
holding allowed it to ‘‘expunge from the
record the blatant flaws in Dai’s performance involving demeanor, candor, and responsiveness,’’ Dai v. Barr, 916 F.3d 731,
747 (9th Cir. 2018) (Trott, J., dissenting),
thus tying the IJ’s hands in carrying out
the statutory role as trier of fact.
The panel’s holding is contrary to the
statute, our own precedent, and the rulings
of our sister circuits. In addition to overstepping our limited role in reviewing the
agency’s decision, the holding is also bad
policy. Just because testimony is credible

(i.e., believable), it doesn’t mean it must be
wholly accepted as the truth. A factfinder
may resolve factual issues against a party
without expressly finding that party not
credible. This is a regular, non-controversial occurrence in everyday litigation.
On close examination, the panel’s artful
evasion of the REAL ID Act is nothing
short of an outright arrogation of the
agency’s statutory duty as trier of fact.
After adopting its ill-advised rule, the panel took up the mantle of factfinder and
pronounced that Dai’s testimony is persuasive. In doing so, the panel ‘‘intrude[d]
upon the [factfinding] domain which Congress has exclusively entrusted to an administrative agency.’’ INS v. Ventura, 537
U.S. 12, 16, 123 S.Ct. 353, 154 L.Ed.2d 272
(2002) (quoting SEC v. Chenery Corp., 318
U.S. 80, 88, 63 S.Ct. 454, 87 L.Ed. 626
(1943)). We are asking yet again to be
summarily reversed for violating the ‘‘ordinary remand rule.’’ See Gonzales v. Thomas, 547 U.S. 183, 187, 126 S.Ct. 1613, 164
L.Ed.2d 358 (2006); Ventura, 537 U.S. at
18, 123 S.Ct. 353.
I.
A.
Petitioner Ming Dai, a citizen of China,
challenged the IJ’s finding—adopted and
affirmed by the BIA—that Dai’s testimony
was not persuasive in showing that he is a
refugee. Dai’s claim for asylum is premised
on events occurring in China in July 2009,
when family planning officials came to take
his pregnant wife for an abortion. Dai
claimed he fought with officers, after
which he was detained for ten days and
eventually fired from his job. While Dai
was detained, his wife was allegedly subjected to a forced abortion.
Dai stated in the affidavit accompanying
his application that he sought asylum because he wished to ‘‘bring [his] wife and

64a

1151

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

daughter to safety.’’ In fact, Dai’s wife and
daughter had entered the United States
with him but had voluntarily returned to
China shortly thereafter. Dai neglected to
disclose this information in his application,
affidavit, interview with the asylum officer,
or on direct examination before the IJ.
The IJ found Dai’s claim for asylum
unpersuasive. In the IJ’s view, ‘‘[t]he principal area of concern’’ was Dai’s testimony
during cross-examination. The IJ noted
Dai’s evasive answers to questions about
his interview with the asylum officer. During cross-examination, Dai was asked why
he had not revealed that his wife and
daughter had come with him to the United
States and why they returned to China
shortly thereafter. ‘‘[A]fter a fairly lengthy
pause,’’ and appearing to the IJ to be
‘‘nervous and at a loss for words,’’ Dai
stated that he was afraid to speak about
his wife and daughter. When asked by the
asylum officer what he was afraid of, Dai
said he was afraid the officer would ask
why his wife and daughter willingly went
back to China. Dai was apparently concerned that revealing the facts about his
wife and daughter would undercut his
claim that he wished to bring them to
safety. Dai eventually admitted that the
‘‘real story’’ for why he stayed in the United States when his family returned to China was because ‘‘he was in a bad mood and
he wanted to get a job and a friend of mine
is here.’’ In essence, the IJ credited Dai’s
‘‘real story’’ that he came to the United
States to seek employment, rather than his
story that he came to flee persecution.
1.

The statute actually says ‘‘may be sufficient,’’ not ‘‘is sufficient.’’ See 8 U.S.C.
§ 1158(b)(1)(B)(ii).

2.

As noted in Judge Trott’s dissent, because
the government ‘‘responded only to the claims
and arguments Dai included in his brief,’’ it
did not have ‘‘an opportunity to respond to

The BIA adopted and affirmed the IJ’s
decision, concluding that the voluntary return of Dai’s family to China and his failure to be forthcoming with that information was ‘‘detrimental to his claim’’ and
‘‘significant to his burden of proof.’’
B.
Dai sought review in our court. In his
brief, Dai presumed the agency made an
adverse credibility finding, and he argued
only that the IJ’s determination that he
failed to meet his burden of proof was not
supported by substantial evidence. The
government, in response, argued Dai failed
to show that the record compels a conclusion that he met his burden of proof.
A split panel granted Dai’s petition. The
majority stated that, under the REAL ID
Act, an applicant’s testimony alone ‘‘is sufficient’’1 to establish eligibility for asylum
provided the ‘‘testimony is credible, is persuasive, and refers to specific facts sufficient to demonstrate that the applicant is a
refugee.’’ Dai, 884 F.3d at 867 (citing 8
U.S.C. § 1158(b)(1)(B)(ii)). Departing from
the issue as framed by the parties,2 the
majority held that, because neither the IJ
nor BIA made an explicit adverse credibility ruling, Dai must be ‘‘deemed credible.’’
Dai, 884 F.3d at 868. The majority concluded that nothing in the REAL ID Act
abrogated our pre-REAL ID Act rule that
an applicant must be deemed credible in
the absence of an explicit adverse credibility determination. Id. at 868–69.
The panel majority then expanded the
impact of that holding by adopting a novel
the majority’s inventive analysis, nor to the
theory concocted by the majority on Dai’s
behalf.’’ Dai, 916 F.3d at 733 (Trott, J., dissenting). Judge Trott predicted that ‘‘[b]oth
sides will be surprised by my colleagues’ artful opinion—Dai pleasantly, the Attorney General not so much.’’ Id.

65a

1152

940 FEDERAL REPORTER, 3d SERIES

rule constraining an IJ’s ability to weigh
the evidence when no express adverse
credibility ruling has been made. The majority held that, in weighing the persuasiveness of an applicant’s claim, an IJ is
precluded from considering evidence—
even the applicant’s own admissions—that
might impugn the applicant’s credibility.
Id. at 872 (‘‘Credibility concerns that do
not justify an adverse credibility finding
cannot be smuggled into the persuasiveness inquiry TTTT’’). That remarkable holding bears repeating: An applicant’s admissions (or other evidence) that undermine
the persuasiveness of an asylum claim
must be disregarded if that evidence also
bears on the applicant’s credibility.
This invented rule enabled the majority
to reject the agency’s reasons for finding
Dai’s claim not persuasive. Id. at 870–73.
Having wiped from the record Dai’s unfavorable testimony, the majority assumed
the role of trier of fact and pronounced
that ‘‘nothing [in the (now-cleansed) record] undermines the persuasiveness of
Dai’s credible testimony.’’ Id. at 871. The
majority thus held that Dai was eligible for
asylum and entitled to withholding of removal. Id. at 874. The majority remanded
with instructions to grant withholding of
removal and to decide whether Dai should
also be granted asylum as a matter of
discretion. Id.
In dissent, Judge Trott wrote that ‘‘[t]he
practical effect of the majority’s rule is
breathtaking: The lack of a formal adverse
credibility finding becomes a selective positive credibility finding and dooms a fact3.

In some of our cases, we have not been
careful in our phrasing, using the expressions
‘‘deemed credible’’ and ‘‘deemed true’’ interchangeably. For example, the primary case
that the panel majority cited in support of the
proposition that the ‘‘deemed credible’’ rule
survives the REAL ID Act states that the testimony must be treated as though it is ‘‘true.’’
Hu v. Holder, 652 F.3d 1011, 1013 n.1 (9th

based determination by an IJ and the BIA
that an applicant’s case is not sufficiently
persuasive to carry his burden of proof.’’
Dai, 916 F.3d at 735 (Trott, J., dissenting).
Judge Trott argued that ‘‘[t]he IJ’s decision not to make an explicit adverse credibility finding is a red herring that throws
our analysis off the scent and preordains a
result that is incompatible with the evidentiary record.’’ Id. at 731. Judge Trott asserted that the majority ignored ‘‘the IJ’s
fact-based explanation for his decision’’
and several material findings of fact, ‘‘each
of which is entitled to substantial deference.’’ Id.
II.
A.
Before the enactment of the REAL ID
Act, our court created what we characterized as a ‘‘deemed true’’ rule. Ladha v.
INS, 215 F.3d 889, 900 (9th Cir. 2000).
Under that rule, when ‘‘an alien credibly
testifies to certain facts, those facts are
deemed true.’’ Id. The ‘‘deemed true’’ rule
developed as an extension of two other
rules—the rule that an applicant would
be deemed credible in the absence of an
adverse credibility ruling and the rule
prohibiting factfinders from requiring corroborative evidence from credible applicants.3 Id. at 899–900; see id. at 899
(‘‘ ‘[T]his court does not require corroborative evidence,’ Cordon-Garcia v. INS,
204 F.3d 985, 992 (9th Cir. 2000), from
applicants for asylum and withholding of
deportation who have testified credibly.’’).
Cir. 2011). Before the REAL ID Act and its
introduction of a requirement for corroborative evidence and the weighing of credible
evidence, this imprecision of language arguably made no practical difference. The new
provisions of 8 U.S.C. § 1158(b)(1)(B) now
require adjudicators to distinguish between
credibility and truth.

66a

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

The ‘‘deemed true’’ rule and the rule
against requiring corroborative evidence
did not escape criticism. In prior opinions,
members of our court observed that some
of our rules concerning credibility and
standard of proof were out of line with the
approach followed by other circuits and
contrary to the limited standard of review
mandated by Congress. See, e.g., Quan v.
Gonzales, 428 F.3d 883, 892 (9th Cir. 2005)
(O’Scannlain, J., dissenting) (‘‘I do not believe that an IJ’s decision should be overturned merely because the reviewing panel
disagrees with it or can point to a plausibly
analogous case from our abundant and inconsistent precedent.’’); Jibril v. Gonzales,
423 F.3d 1129, 1138 (9th Cir. 2005) (‘‘Time
and again, however, we have promulgated
rules that tend to obscure th[e] clear standard [of review] and to flummox immigration judges, who must contort what should
be a simple factual finding to satisfy our
often irreconcilable precedents.’’); Abovian
v. INS, 257 F.3d 971, 980 (9th Cir. 2001)
(Kozinski, J., dissenting from denial of rehearing en banc) (‘‘[T]his case is hardly
atypical of our circuit’s immigration law
jurisprudence. Rather, it is one more example of the nitpicking we engage in as
part of a systematic effort to dismantle the
reasons immigration judges give for their
decisions.’’).
To correct our misguided rules, Congress passed the REAL ID Act. Congress
made clear its intent to bring us—the
Ninth Circuit—in line with other circuits
and the BIA. See H.R. Rep. No. 109-72, at
167 (2005) (Conf. Rep.), as reprinted in
2005 U.S.C.C.A.N. 240 (‘‘[T]he creation of
4.

Again, precision of language is important
here. Even assuming that when the agency
makes no credibility finding, the petitioner’s
testimony is deemed credible, that is not
enough. Credibility alone doesn’t make a person persuasive or eligible for asylum, nor
must credible testimony be accepted as true.
Aden, 589 F.3d at 1044 (‘‘Credible testimony

1153

a uniform standard for credibility is needed to address a conflict on this issue between the Ninth Circuit on the one hand
and other circuits and the BIA.’’). The
REAL ID Act states that the applicant
‘‘may’’ sustain his burden through testimony alone, ‘‘but only if the applicant satisfies
the trier of fact that the applicant’s testimony is credible, is persuasive, and refers
to specific facts sufficient to demonstrate
that the applicant is a refugee.’’ 8 U.S.C.
§ 1158(b)(1)(B)(ii). That provision also
states that ‘‘the trier of fact may weigh the
credible testimony along with other evidence of record.’’ Id. The REAL ID Act
creates a ‘‘bias toward corroboration’’ that
makes asylum litigation more like other
types of litigation in that the trier of fact
need not accept testimony as true even if
it’s credible. Aden, 589 F.3d at 1045. Lest
there was any doubt that the REAL ID
Act abrogated our ‘‘presumed true’’ rule,
we expressly stated so in Aden: ‘‘Congress
has thus swept away our doctrine that
‘when an alien credibly testifies to certain
facts, those facts are deemed true.’ ’’ Id.
(quoting Ladha, 215 F.3d at 900).
Ignoring what we said in Aden, the panel majority crafted a new rule that, in
conjunction with the deemed credible rule,
operates to revive the congressionally disapproved ‘‘deemed true’’ rule. This revival
occurred in two steps. The panel first held
that nothing in the REAL ID Act ‘‘explicitly or implicitly repealed the rule that in
the absence of an adverse credibility finding by the IJ or the BIA, the petitioner is
deemed credible.’’ Dai, 884 F.3d at 868.4
is not by itself enough.’’); see also Sandie v.
Att’y Gen. of U.S., 562 F.3d 246, 252 (3d Cir.
2009) (‘‘But the assumption that his testimony
is credible does not imply that that testimony
is sufficient to meet his burden of proof. In
fact, credible testimony alone is not always
sufficient to meet the burden of proof.’’). An
applicant’s testimony may be sufficient to

67a

1154

940 FEDERAL REPORTER, 3d SERIES

The panel’s second, decisive step in reviving our old ‘‘deemed true’’ rule was to
limit the evidence an IJ can consider in
weighing the persuasiveness of an applicant’s testimony. The panel held that if the
agency makes no adverse credibility finding, ‘‘[c]redibility concerns TTT cannot be
smuggled into the persuasiveness inquiry.’’
Id. at 872. The panel reasoned that if the
agency makes no adverse credibility finding, any evidence that would cast doubt on
the applicant’s credibility must be ignored
when considering the persuasiveness of
the applicant’s claim. The panel deployed
its holding to erase from the record Dai’s
own admissions that undermine his claim.
For example, the IJ accepted as fact Dai’s
admission that he failed to disclose the
truth about his wife’s and his daughter’s
travels because he was nervous about how
this would be perceived by the asylum
officer. The IJ also credited Dai’s admitted
‘‘real story’’ for why he stayed in the United States when his wife and daughter returned home: ‘‘he was in a bad mood and
he wanted to get a job and a friend of mine
is here.’’ The panel’s decision bars the IJ
from considering this and other testimony
show asylum eligibility, ‘‘but only if the applicant satisfies the trier of fact that the applicant’s testimony is credible, is persuasive, and
refers to specific facts sufficient to demonstrate that the applicant is a refugee.’’ 8
U.S.C. § 1158(b)(1)(B)(ii) (emphasis added).
5.

In his dissent, Judge Trott identified other
examples of Dai’s testimony that the IJ relied
on in finding his claim unpersuasive. See Dai,
916 F.3d at 732 (Trott, J., dissenting) (listing
eight findings rendered by the IJ); id. at 747–
48 (‘‘My colleagues expunge from the record
the blatant flaws in Dai’s performance involving demeanor, candor, and responsiveness
TTTT They disregard inaccuracies, inconsistencies, and implausibilities in his story, and his
barefaced attempt to cover up the truth about
his wife’s and daughter’s travels and situation.’’).

6.

The majority turns somersaults to dodge
Congress’s explicit attempt to rein us in. The

that could be (and was) construed as detrimental to Dai’s case.5
The panel’s decision ties the hands of
IJs who are presented with conflicting evidence, effectively forcing them to accept
an applicant’s favorable testimony as the
whole truth and to disregard unfavorable
evidence—even when it is the applicant’s
own testimony—unless they affirmatively
make an adverse credibility finding. The
panel’s two-fold holding thus transforms
the lack of an express adverse credibility
ruling into an affirmative conclusion that
the applicant’s proffered reason for seeking asylum is true.
The resuscitation of our old ‘‘deemed
true’’ rule flouts Congress’s purpose in
enacting the REAL ID Act.6 First, the
panel’s holding violates the statute’s directive that the agency is to conduct the
factfinding and that our court may disturb
the agency’s decision only where ‘‘any reasonable adjudicator would be compelled to
conclude to the contrary.’’ 8 U.S.C.
§ 1252(b)(4)(B). ‘‘[T]he law is that ‘[t]o
reverse the BIA finding we must find that
the evidence not only supports that conclusion, but compels it.’ ’’ Aden, 589 F.3d at
statute provides: ‘‘There is no presumption of
credibility, however, if no adverse credibility
determination is explicitly made, the applicant or witness shall have a rebuttable presumption of credibility on appeal.’’ 8 U.S.C.
§ 1158(b)(1)(B)(iii). The majority, ignoring the
phrase ‘‘[t]here is no presumption of credibility,’’ apparently presumed it to apply only in
immigration court proceedings. The majority
reasoned that the ‘‘rebuttable presumption of
credibility on appeal’’ does not apply in our
court because this case is a petition for review
not an appeal. Dai, 884 F.3d at 869 (‘‘A provision that applies ‘on appeal’ therefore does
not apply to our review, but solely to the
BIA’s review on appeal from the IJ’s decision.’’). According to the majority’s logic, this
gives us carte blanche to adopt whatever rule
we want on the evidence an IJ must (and
must not) credit.

68a

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

1046 (quoting INS v. Elias-Zacarias, 502
U.S. 478, 481 n.1, 112 S.Ct. 812, 117
L.Ed.2d 38 (1992)). The majority’s holding
cannot be squared with the limited nature
of our review of the agency’s decision.
Second, the majority’s revival of the
‘‘deemed true’’ rule nullifies the statutory
provision that, ‘‘[i]n determining whether
the applicant has met the applicant’s burden, the trier of fact may weigh the credible testimony along with other evidence of
record.’’ 8 U.S.C. § 1158(b)(1)(B)(ii). We
have held that this provision means that an
‘‘IJ need not accept [credible] testimony as
true.’’ Aden, 589 F.3d at 1044. If credible
testimony must be accepted as true, there
would be nothing for the trier of fact to
‘‘weigh.’’ See Doe v. Holder, 651 F.3d 824,
830 (8th Cir. 2011) (‘‘Congress thus rejected a rule that ‘credible’ testimony necessarily means that the facts asserted in that
testimony must be accepted as true.’’ (citing Aden, 589 F.3d at 1045)).7
B.
In addition to contravening the language
and intent of the REAL ID Act, the panel’s decision squarely conflicts with our
own precedent and every other circuit to
address the issue.
The panel’s decision is contrary to
Aden’s clear acknowledgement that the
REAL ID Act abrogated our ‘‘deemed
true’’ rule. The decision is also at odds
with Singh v. Holder, 753 F.3d 826 (9th
Cir. 2014). In Singh, we held that the
agency did not err in discounting the petitioner’s credible evidence that the police
were looking for him, when weighed
7.

To be clear, the panel majority held that
absent an adverse credibility ruling, the trier
of fact must disregard any evidence that
would call into question the applicant’s credibility. See Dai, 884 F.3d at 872 (‘‘Credibility
concerns that do not justify an adverse credibility finding cannot be smuggled into the

1155

against country reports that stated that
the police no longer targeted Sikh activists
like the petitioner. Singh, 753 F.3d at 836.
We recognized that ‘‘there is a difference
between an adverse credibility determination, on the one hand, and a decision concerning how to weigh conflicting evidence,
on the other hand.’’ Id. We emphasized
that, even in the absence of a credibility
ruling, the immigration judge was required
to weigh the persuasiveness of the testimony against the record as a whole. Id.
In Doe, the Eighth Circuit held that an
applicant’s inability to provide important
details and key dates—information the immigration judge identified as ‘‘damaging to
[Doe’s] credibility,’’ but without making an
‘‘explicit’’ adverse credibility finding—was
sufficient to support the BIA’s conclusion
that his testimony was unpersuasive. Doe,
651 F.3d at 829–30 (alteration in original).
The court relied in part on our decision in
Aden for the proposition that testimony
may be ‘‘credible’’ without being persuasive, and thus need not be ‘‘accepted as
true.’’ Id. at 830.
Similarly, the First Circuit has rejected
the notion that a reviewing court is bound
‘‘to accept a petitioner’s statements as fact
whenever an IJ simply has not made an
express adverse credibility determination.’’
Kho v. Keisler, 505 F.3d 50, 56 (1st Cir.
2007). The Tenth Circuit likewise held that
the agency was free to ‘‘discount’’ the applicant’s testimony based on ‘‘gaps’’ in his
story, even though there was no adverse
credibility ruling. Gutierrez-Orozco v.
Lynch, 810 F.3d 1243, 1246 (10th Cir.
2016) (citing Aden, 589 F.3d at 1044–45).
persuasiveness inquiry so as to undermine the
finding of credibility we are required to afford
Dai’s testimony.’’). There is no meaningful
difference between this holding and a suggestion that credible testimony must be accepted
as true.

69a

1156

940 FEDERAL REPORTER, 3d SERIES

The panel’s holding splits with Aden and
places us again at a table of one when it
comes to interpreting the standards applicable to the agency’s determination of asylum eligibility.
C.
The panel majority’s rule also ignores
the common sense reality that triers of
fact may—and frequently do—decide factual issues against a party without affirmatively finding that party not credible.
Opposing parties who present conflicting
factual accounts might both be credible
even if only one party’s version is true.8
And even if a witness’s testimony is treated as ‘‘honest or ‘credible,’ ’’ the ‘‘inability
to provide important details and key
dates’’ may render ‘‘the testimony unpersuasive in establishing a likelihood of torture.’’ Doe, 651 F.3d at 830.
Indeed, we regularly require that juries
decide between competing versions of the
‘‘facts’’ and we do not suggest that one
perspective can be discounted only if the
witness is not believable (i.e., not credible).
The REAL ID Act recognizes this reality
when it commands the trier of fact to
‘‘weigh the credible testimony along with
other evidence of record.’’ 8 U.S.C.
§ 1158(b)(1)(B)(ii). A rule that bars an IJ
from questioning the persuasiveness of a
witness’s testimony unless the witness is
affirmatively found to be not credible ignores the realities of factfinding.
The panel’s holding here defies common
sense for another reason. The evidence
that the IJ and the BIA found to weigh
against asylum eligibility was Dai’s own
testimony. As Judge Trott pointed out, the
agency thus credited Dai’s admissions that
tended to undercut his claim. It makes no
8.

As we stated in Aden, ‘‘[a]pparently honest
people may not always be telling the truth,
apparently dishonest people may be telling
the absolute truth, and truthful people may be

sense to say that the IJ is powerless to
credit unfavorable testimony given by an
applicant unless the IJ expressly finds the
applicant not credible.
This case is an instance of our court
‘‘promulgat[ing] rules that tend to obscure
[the proper] standard and to flummox immigration judges.’’ Jibril, 423 F.3d at 1138.
By essentially forcing IJs to make an express adverse credibility finding whenever
they do not accept an applicant’s proffered
reasons as the whole truth, the panel’s
holding calls into question virtually every
IJ decision denying a claim for asylum that
lacks an explicit adverse credibility finding. Cf. Morgan v. Holder, 634 F.3d 53, 57
(1st Cir. 2011) (declining to require a ‘‘gratuitous credibility determination’’ when the
IJ’s decision was premised on the petitioner’s ‘‘failure to carry his burden of proof’’).
With all of the cases we see that are
adjudicated at the asylum eligibility stage,
the impact of the panel’s holding will be
far-reaching.
D.
The panel’s revival of the ‘‘deemed true’’
rule effectively strips the agency of its
factfinding role, allowing us to take that
role for ourselves. Indeed, that is exactly
what the panel did here. After ‘‘wip[ing]
the record clean of everything identified
by the IJ and the BIA as problematic,’’ see
Dai, 916 F.3d at 748 (Trott, J., dissenting),
the majority stepped into the void created
by its new rule and weighed for itself the
persuasiveness of Dai’s testimony. ‘‘[T]aking into account the record as a whole,’’
the majority concluded, ‘‘nothing undermines the persuasiveness of Dai’s credible
honestly mistaken or relying on unreliable
evidence or inference themselves.’’ Aden, 589
F.3d at 1045.

70a

1157

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

testimony.’’ Dai, 884 F.3d at 871.9 That is
not our role.

light of its own expertise.’’ Id. at 17, 123
S.Ct. 353.

In addition to creating a rule that conflicts with the statute and precedent, the
panel compounded its error by failing to
remand to allow the agency the first shot
at applying the majority’s new rule against
‘‘smuggl[ing]’’ credibility concerns ‘‘into
the persuasiveness inquiry,’’ see Dai, 884
F.3d at 872. The Supreme Court has summarily reversed us on multiple occasions
for making this very error. See, e.g.,
Thomas, 547 U.S. at 187, 126 S.Ct. 1613;
Ventura, 537 U.S. at 18, 123 S.Ct. 353.

The clear, unanimous reversal in Ventura should have been enough, but, as Judge
Trott put it, ‘‘old ways die hard.’’ Dai, 916
F.3d at 737 (Trott, J., dissenting). Just two
years later, we repeated our error in
Thomas, only this time we were sitting en
banc when we adopted a new rule and
applied it to the case without allowing the
agency to consider the question. Thomas,
547 U.S. at 184, 126 S.Ct. 1613. The Supreme Court agreed with the Solicitor
General that not only was our failure to
remand erroneous, our error was ‘‘obvious
in light of Ventura.’’ Id. at 185, 126 S.Ct.
1613.

In Ventura, a panel of our court took it
upon itself to consider (and reject) the
government’s factual argument that had
been accepted by the IJ but not ruled on
by the BIA. Ventura, 537 U.S. at 13–14,
123 S.Ct. 353. The Supreme Court concluded that ‘‘well-established principles of administrative law’’ required a remand to the
agency:
Within broad limits the law entrusts the
agency to make the basic asylum eligibility decision here in question. ‘‘In such
circumstances a ‘judicial judgment cannot be made to do service for an administrative judgment.’ Nor can an ‘appellate court TTT intrude upon the domain
which Congress has exclusively entrusted to an administrative agency.’ ’’
Id. at 16, 123 S.Ct. 353 (citations omitted)
(quoting Chenery Corp., 318 U.S. at 88, 63
S.Ct. 454). In summarily reversing us, the
Court stated that we ‘‘committed clear error,’’ ‘‘seriously disregarded the agency’s
legally mandated role,’’ and ‘‘created potentially far-reaching legal precedent TTT
without giving the BIA the opportunity to
address the matter in the first instance in
9.

When the panel majority quoted the statute’s requirement of persuasiveness, it left out
the part that an asylum applicant must ‘‘satisf[y] the trier of fact that the applicant’s

Setting aside for the moment the problems with the majority’s new rule, the
panel should have remanded to allow the
agency an opportunity to determine Dai’s
eligibility for asylum within the new constraints imposed by the panel’s decision.
III.
The panel’s insistence that an IJ must
accept an applicant’s favorable testimony
as the whole truth, unless the IJ makes an
explicit adverse credibility finding, is contrary to our limited scope of review under
the REAL ID Act, contrary to precedent
(from both our court and other circuits),
contrary to reality, and just plain wrong.
And in directing the agency to grant withholding of removal and treat Dai as eligible for asylum, rather than allowing the
agency to apply the panel’s new rule, the
panel disregarded the Supreme Court’s repeated admonishment against our seizing
the role statutorily given to the agency.
testimony is TTT persuasive,’’ 8 U.S.C.
§ 1158(b)(1)(B)(ii) (emphasis added). See Dai,
884 F.3d at 867.

71a

1158

940 FEDERAL REPORTER, 3d SERIES

I respectfully dissent from the denial of
rehearing en banc.
O’SCANNLAIN and TROTT, Senior
Circuit Judges, respecting the denial of
rehearing en banc:
We agree with the views expressed by
Judge CALLAHAN in her dissent from
the denial of rehearing en banc.
COLLINS, Circuit Judge, with whom
BYBEE, BEA, IKUTA, BENNETT, R.
NELSON, and BADE, Circuit Judges,
join, dissenting from the denial of
rehearing en banc:
I agree with Judge Callahan that the
panel majority’s opinion effectively revives,
for a potentially wide swath of cases, this
court’s discredited prior rule that when an
alien seeking asylum is either found or
deemed to have testified credibly to certain facts, those facts will be conclusively
deemed to be true. As Judge Callahan
persuasively explains, the panel majority’s
effective revival of this previously disavowed ‘‘deemed-true’’ rule contravenes
controlling statutory language, the precedent of this court, the decisions of other
circuits, and common sense. I therefore
join in full her dissent from the order
denying rehearing en banc.
In my view, however, the problems
with the panel majority’s opinion run
even deeper, thereby greatly augmenting
the potential damage that may flow from
its flawed decision. Specifically, the panel
majority commits a further serious legal
error, and reinforces a circuit split, in
holding that the REAL ID Act does not
abrogate a second rule that we have applied in asylum cases—namely, the rule
that unless the agency has made an explicit finding that the applicant’s testimony is not credible, this court will conclusively presume that testimony to be
credible. As this case well illustrates, we

have inflexibly applied this conclusive
presumption as, in effect, a ‘‘Simon says’’
rule: even where (as here) the record
overwhelmingly confirms that the agency
actually disbelieved critical portions of
the applicant’s testimony, we will nonetheless conclusively treat that testimony
as credible if the agency did not make
an explicit adverse credibility determination. The panel majority’s reaffirmation
of this unwarranted ‘‘deemed-credible’’
rule thus perpetuates a regime in
which—unlike other circuits—this court
misreads the evidentiary record in asylum cases through the truth-distorting
lens of counterfactual conclusive presumptions. In doing so, the panel majority defies Congress’s elimination of the
deemed-credible rule in the REAL ID
Act, which expressly replaces that rule’s
conclusive presumption of credibility with
(at most) a ‘‘rebuttable presumption of
credibility.’’ 8 U.S.C. § 1158(b)(1)(B)(iii)
(emphasis added). But the panel majority
here slips the Act’s bonds, and we have
abetted that escape by failing to take
this case en banc. I respectfully dissent.
I.
In reviewing whether substantial evidence supports the agency’s factual findings in asylum cases, this court has long
employed a variety of ‘‘rules that tend to
obscure’’ what should be a clear and deferential standard of review. Jibril v. Gonzales, 423 F.3d 1129, 1138 (9th Cir. 2005).
Among those rules are a pair of presumptions about how to read the record in
asylum cases—namely, our deemed-credible rule and our deemed-true rule. Under
our traditional deemed-credible rule, both
this court and the Board of Immigration
Appeals (‘‘BIA’’) were required to apply a
conclusive presumption that an applicant
was credible unless the Immigration Judge
(‘‘IJ’’) made an explicit adverse credibility

72a

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

finding. See, e.g., Dai v. Sessions, 884 F.3d
858, 868 (9th Cir. 2018) (‘‘Prior to the
REAL ID Act, we held that in the absence
of an explicit adverse credibility finding by
the IJ or the BIA we are required to treat
the petitioner’s testimony as credible.’’);
She v. Holder, 629 F.3d 958, 964 (9th Cir.
2010) (‘‘Absent an adverse credibility finding, the BIA is required to ‘presume the
petitioner’s testimony to be credible.’ ’’).
Under our further deemed-true rule, the
facts recited in testimony found to be credible—or presumed to be credible by virtue
of our deemed-credible rule—would then
in turn be taken as true. See, e.g., Kataria
v. INS, 232 F.3d 1107, 1114 (9th Cir. 2000)
(‘‘In the absence of an explicit adverse
credibility finding, we must assume that
Kataria’s factual contentions are true.’’);
Yazitchian v. INS, 207 F.3d 1164, 1168
(9th Cir. 2000) (‘‘Because the immigration
judge found the Yazitchians’ testimony
credible, and the BIA did not make a
contrary finding, we must accept as undisputed the facts as petitioners testified to
them.’’).
By requiring the application of potentially counterfactual conclusive presumptions,
these rules create an obvious risk of seriously distorting appellate review of the
factual record. Thus, under our deemedcredible rule, no matter how clear it might
be from the overall record that the IJ in
fact disbelieved portions of the petitioner’s
testimony, that obvious disbelief must be
ignored if the IJ did not explicitly state
that the IJ disbelieved that testimony. In
turn, under our deemed-true rule, the facts
recited in that now-deemed-credible testimony then have to be taken as true.
This case well illustrates the truth-distorting effect of applying these conclusive
presumptions. As both the BIA and the IJ
1.

At the time Judge Trott filed his amended
panel dissent, the case caption had changed
to reflect the corresponding change in Attor-

1159

explained, Dai’s claim that his wife’s forced
abortion in China caused him to have a
well-founded fear of persecution (thereby
rendering him eligible for asylum) was severely undercut by the fact that his wife
and daughter had not stayed with him in
the United States but had voluntarily returned to China—a critical fact that Dai
had initially attempted to conceal. Dai v.
Barr, 916 F.3d 731, 738–42, 746–47 (9th
Cir. 2018) (Trott, J., dissenting) (reproducing relevant portions of the IJ’s and BIA’s
decisions).1 As Judge Trott’s panel dissent
explains in detail, the IJ made eight specific findings concerning Dai’s statements
about his wife’s and daughter’s voluntary
return from the United States and about
Dai’s motivations for staying in this country, and those detailed findings are flatly
incompatible with the view that the IJ
credited all of Dai’s statements. Id. at 732.
Because the record amply confirms that
the IJ obviously (even if not explicitly)
disbelieved certain of Dai’s statements
about his family’s return, the BIA properly
construed the IJ’s findings as establishing
that Dai had ‘‘ ‘not be[en] truthful’ ’’ about
his ‘‘ ‘family voluntarily returning.’ ’’ Id. at
747 (quoting BIA decision) (emphasis added by Judge Trott). Put another way, a
review of the record confirms that any
presumption that the IJ found Dai’s core
statements to be credible has been overwhelmingly rebutted. Nonetheless, because the IJ did not explicitly find Dai’s
testimony not to be credible, the panel
majority invokes a counterfactual conclusive presumption of credibility—and in doing so, it ‘‘expunge[s] from the record the
blatant flaws in Dai’s performance involving demeanor, candor, and responsiveness’’
and ‘‘disregard[s] inaccuracies, inconsistencies, and implausibilities in his story, and
ney General since the earlier filing of the
panel opinion. See Fed. R. App. P. 43(c)(2).

73a

1160

940 FEDERAL REPORTER, 3d SERIES

his barefaced attempt to cover up the
truth about his wife’s and daughter’s travels and situation.’’ Id. Moreover, by holding that ‘‘[c]redibility concerns that do not
justify an adverse credibility finding cannot be smuggled into the persuasiveness
inquiry so as to undermine the finding of
credibility’’ required by the deemed-credible rule, see 884 F.3d at 872, the panel
majority effectively requires that this
deemed-credible testimony must also be
deemed true. See Judge Callahan’s Dissent
at 1155.
The REAL ID Act sought to eliminate
our use of such truth-distorting conclusive
presumptions. Indeed, we have previously
recognized that the REAL ID Act indisputably ‘‘swept away’’ our deemed-true
rule, Aden v. Holder, 589 F.3d 1040, 1045
(9th Cir. 2009), and the panel majority’s
opinion does not expressly dispute that
point. Instead, as Judge Callahan explains,
the panel majority effectively revives the
deemed-true rule, as a practical matter, by
improperly ‘‘limit[ing] the evidence an IJ
can consider’’ in determining whether an
alien’s credible testimony is sufficiently
persuasive, in light of the record as a
whole, to carry the alien’s burden of proof.
See Judge Callahan’s Dissent at 1154; see
also 8 U.S.C. § 1158(b)(1)(B)(ii) (asylum
applicant’s testimony may be sufficient to
carry burden of proof if it ‘‘is credible, is
persuasive, and refers to specific facts sufficient to demonstrate that the applicant is
a refugee’’) (emphasis added).
As to the deemed-credible rule, the panel majority itself acknowledges that the
REAL ID Act frees the BIA from having
to follow that rule’s conclusive presumption, ‘‘so that the BIA [now] must only
afford ‘a rebuttable presumption of credibility’ when the IJ does not make an adverse credibility finding.’’ Dai, 884 F.3d at
868 n.8 (citation omitted); see also 8 U.S.C.
§ 1158(b)(1)(B)(iii) (‘‘if no adverse credibili-

ty determination is explicitly made, the
applicant or witness shall have a rebuttable presumption of credibility on appeal’’).
Nonetheless, the panel majority insists
that the REAL ID Act preserves the
deemed-credible rule’s conclusive presumption in this court. 884 F.3d at 868–69.
As a result, the panel majority reasoned
that if the IJ does not make an explicit
adverse credibility determination and the
BIA does not explicitly determine that the
resulting presumption of credibility on appeal has been rebutted, then this court
must conclusively presume the petitioner’s
testimony to be credible. Id. at 869–70.
Concluding that ‘‘neither the IJ nor the
BIA made an adverse credibility determination in Dai’s case,’’ the panel majority
held that the deemed-credible rule applies
and that this court therefore ‘‘must treat
his testimony as credible.’’ Id. at 870.
In my view, the panel majority’s invocation of the deemed-credible rule rests on
two critical legal errors, and we should
have taken this case en banc to correct and
clarify the governing principles in this vital
area of the law.
II.
First, even if the panel majority were
correct in concluding that ‘‘neither the IJ
nor the BIA made an adverse credibility
determination,’’ Dai, 884 F.3d at 870; but
see infra at 1163–65, the REAL ID Act
expressly prohibits this court from then
applying a conclusive presumption of credibility. Instead, in reviewing the record, we
would at most apply a rebuttable presumption of credibility—and here the facts
found by the IJ overwhelmingly rebut any
presumption that the IJ believed Dai’s
statements concerning his family’s return
to China. See Dai, 916 F.3d at 747 (Trott,
J., dissenting) (‘‘Simply because the IJ did
not say ‘I find Dai not credible’ but opted
instead to expose the glaring factual defi-

74a

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

1161

ciencies in Dai’s presentation and to explain in specific detail and at length why
Dai had not persuasively carried his burden,’’ the majority wrongly holds that ‘‘we
must selectively embrace [his testimony]
as persuasiveTTT.’’).

nation) the IJ did not believe certain aspects of the applicant’s statements, the
‘‘presumption of credibility on appeal’’ is
rebutted, and the BIA and this court no
longer need to close their eyes to that fact
and no longer need to pretend that the IJ
found the testimony credible.

A.

The panel majority conceded that this
statutory language abrogates our deemedcredible rule and replaces it with a ‘‘ ‘rebuttable presumption of credibility on appeal,’ ’’ Dai, 884 F.3d at 868 (quoting 8
U.S.C. § 1158(b)(1)(B)(iii)), but the majority holds that this provision ‘‘applies only to
appeals to the BIA, not to petitions for
review in our court,’’ id. (emphasis added);
see also id. at 868 n.8. That is true, the
panel majority concludes, because the rebuttable presumption applies by its terms
only
‘‘on
appeal,’’
8
U.S.C.
§ 1158(b)(1)(B)(iii), and (unlike the BIA)
we exercise review in immigration cases by
way of a ‘‘petition for review’’ under section 242(a)(5) of the INA, 8 U.S.C.
§ 1252(a)(5), and not by way of an ‘‘appeal.’’ 884 F.3d at 869 (noting the formal
differences between a ‘‘petition for review’’
and an ‘‘appeal’’). Because, according to
the panel majority, the BIA here failed to
invoke the REAL ID Act’s rebuttable presumption to determine that any aspect of
Dai’s testimony was not credible, but see
infra at 1163–65, this court is required to
adhere to our deemed-credible rule and to
conclusively presume that Dai’s testimony
is credible.

Section 208(b)(1)(B) of the Immigration
and Nationality Act (‘‘INA’’), as added by
section 101(a)(3) of the REAL ID Act of
2005, Pub. L. 109-13, Div. B, 119 Stat. 302,
303 (2005), directly addresses the questions of whether and when a presumption
of credibility should be applied in reviewing an application for asylum. Specifically,
subsection 208(b)(1)(B)(iii) provides, in relevant part, as follows:
There is no presumption of credibility,
however, if no adverse credibility determination is explicitly made, the applicant
or witness shall have a rebuttable presumption of credibility on appeal.
8 U.S.C. § 1158(b)(1)(B)(iii). There is an
obvious scrivener’s error in this run-on
sentence (the first comma should have
been a semi-colon), but the effect of its
‘‘however’’ clause is nonetheless clear: it
abrogates our deemed-credible rule’s conclusive presumption of credibility and replaces it with only a ‘‘rebuttable presumption of credibility.’’ Id. (emphasis added).
As noted earlier, see supra at 1158, under
our pre-REAL ID Act case law, ‘‘in the
absence of an explicit adverse credibility
finding’’ by the IJ, both the BIA and this
court were ‘‘required to treat the petitioner’s testimony as credible.’’ Dai, 884 F.3d
at 868. But after the REAL ID Act’s
amendments, the IJ’s failure to make an
explicit adverse credibility determination
gives rise only to a rebuttable presumption
that the IJ found the applicant’s testimony
to be credible. Thus, if a review of the
record otherwise makes clear that (despite
the lack of an express credibility determi-

This argument fails, because the panel
majority’s sharp distinction between a ‘‘petition for review’’ and an ‘‘appeal’’ is refuted by the very statutory provision on
which the majority relies. Section 242 of
the INA does in fact state that our review
of removal orders is by means of a ‘‘petition for review,’’ 8 U.S.C. § 1252(a)(5), but
elsewhere in that very same section, the
resulting proceeding in this court is ex-

75a

1162

940 FEDERAL REPORTER, 3d SERIES

pressly referred to as an ‘‘appeal.’’ See 8
U.S.C. § 1252(b)(3)(C) (stating that, if the
alien fails to file a brief in support of the
‘‘petition for judicial review,’’ then ‘‘the
court shall dismiss the appeal’’) (emphasis
added). Given that the judicial-review provision on which the panel majority relies
itself expressly refers to a ‘‘petition for
review’’ as giving rise to an ‘‘appeal,’’ there
is no textual basis for the panel majority’s
conclusion that the reference to an ‘‘appeal’’ in section 208(b)(1)(B)(iii) excludes a
‘‘petition for review.’’ See Pereira v. Sessions, ––– U.S. ––––, 138 S. Ct. 2105, 2115,
201 L.Ed.2d 433 (2018) (reaffirming, and
applying to the INA, the ‘‘ ‘normal rule of
statutory construction that identical words
used in different parts of the same act are
intended to have the same meaning’ ’’) (citation omitted). Moreover, applying section
208(b)(1)(B)(iii)’s ‘‘rebuttable presumption
of credibility on appeal’’ to both the BIA
and the courts of appeals is consistent with
the ordinary meaning of the phrase ‘‘on
appeal,’’ which refers to the process of
appellate review, without regard to whether such review is formally denominated as
an ‘‘appeal.’’ See Dai, 916 F.3d at 735
(Trott, J., dissenting) (‘‘[T]he issue is one
of function, not of form or labels.’’). Congress’s explicit abrogation of the deemedcredible rule thus extends to this court.
Contrary to the panel majority’s view,
the abrogation of the deemed-credible rule
in this court, and its replacement with a
rebuttable presumption of credibility,
would not intrude on the agency’s factfinding role. See Dai, 884 F.3d at 874 & n.14.
As applied on appeal, the REAL ID Act’s
rebuttable presumption provides a rule
about how to read the record of the IJ’s
factfinding: if no express adverse credibility determination was made by the IJ, we
should presume that the IJ found the applicant’s statements credible unless (as
here) the findings as a whole nonetheless
confirm that certain statements were dis-

believed by the IJ. The rebuttable presumption is thus not a license for the BIA
or this court to engage in factfinding. Cf. 8
C.F.R. § 1003.1(d)(3)(iv) (‘‘Except for taking administrative notice of commonly
known facts such as current events or the
contents of official documents, the Board
will not engage in factfinding in the course
of deciding appeals.’’). Instead, it is an
instruction to stop reading IJ decisions
through the distorted lens of our deemedcredible rule. In fact, it is the panel majority’s adherence to the deemed-credible
rule’s irrebuttable presumption of credibility that usurps the agency’s authority. As
this case well illustrates, the effect of that
rule is to require the Court automatically
to accept as credible statements that the
IJ plainly disbelieved. See 916 F.3d at 747
(Trott, J., dissenting).
B.
But even if the panel majority were
correct that the REAL ID Act’s ‘‘rebuttable presumption’’ of credibility does not
apply to petitions for review in this court,
that would not have the consequence of
preserving the deemed-credible rule. On
the contrary, it would have the opposite
effect: it would mean that no presumption
of credibility applies in this court.
The panel majority overlooks the full
language of the last sentence of section
208(b)(1)(B)(iii), which (1) establishes a
general rule that ‘‘[t]here is no presumption of credibility’’ at all, and (2) then
carves out an exception under which a
rebuttable presumption of credibility will
apply ‘‘on appeal’’ if ‘‘no adverse credibility
determination is explicitly made.’’ 8 U.S.C.
§ 1158(b)(1)(B)(iii). Indeed, this sentence of
the REAL ID Act previously contained
only the initial language eliminating entirely any presumption of credibility, see
151 Cong. Rec. H536–37 (daily ed. Feb. 10,

76a

1163

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

2005) (reproducing text of H.R. 418, as
considered by the House); the exception to
that general rule was later added by a
House-Senate conference committee before final passage, see H.R. Conf. Rep. No.
109-72, at 73–74 (2005); see also id. at 168,
reprinted in 2005 U.S.C.C.A.N. 240, 293.
Accordingly, if the panel majority is correct that the ‘‘rebuttable presumption’’ exception does not apply in this court, then
the result would be that the default general rule applies instead—i.e., that ‘‘[t]here is
no presumption of credibility’’ in this court.
That would abrogate the deemed-credible
rule completely, and it would mean that
this court would not use any presumption
of credibility (rebuttable or irrebuttable) in
conducting its otherwise deferential review
of the agency’s decision. See Huang v.
Holder, 744 F.3d 1149, 1153 (9th Cir.
2014).
Notably, such a reading of section
208(b)(1)(B)(iii) would bring our approach
to review in line with that of the First
Circuit, which has ‘‘rejected the proposition that aliens are entitled to a presumption of credibility on review in this court if
there is no express credibility determination made by an IJ.’’ Kho v. Keisler, 505
F.3d 50, 56 (1st Cir. 2007); see also Zeru v.
Gonzales, 503 F.3d 59, 73 (1st Cir. 2007)
(‘‘There is no presumption that an alien
seeking refugee status is credible. Nor is
there an assumption that if the IJ has not
made an express finding of non-credibility,
the alien’s testimony must be taken as
credible.’’). Although Kho agrees with the
panel majority’s conclusion that the REAL
ID Act’s rebuttable presumption of credibility does not apply in the courts of appeals, see 505 F.3d at 56—a conclusion I
think is wrong for the reasons stated
above—the First Circuit reached that conclusion only in the course of rejecting the
petitioner’s contention that the REAL ID
2.

Throughout its opinion, the panel majority

Act required the First Circuit to replace
its rule of no presumption of credibility
with a rebuttable presumption. See id. at
56–57. The resulting First Circuit position—that no presumption of credibility
applies—conflicts with our continued
adherence to the deemed-credible rule,
thereby confirming a circuit split. Moreover, unlike our deemed-credible rule, the
First Circuit’s no-presumption rule is at
least consistent with the default rule that
would apply under the REAL ID Act if
the First Circuit and the panel majority
were correct in holding that the rebuttable-presumption exception does not apply
in the courts of appeals. See 8 U.S.C.
§ 1158(b)(1)(B)(iii) (‘‘There is no presumption of credibilityTTT.’’).
III.
Second, the panel majority committed a
wholly separate legal error in declining to
give effect to the BIA’s express conclusion
that, given the IJ’s detailed findings, Dai
had not been truthful concerning his family’s return to China.
While agreeing that the IJ had not made
an ‘‘explicit adverse credibility finding,’’
the BIA here went on to note that the IJ’s
detailed findings established that Dai had
not been ‘‘truthful’’ about his ‘‘family voluntarily returning’’ to China. Dai, 916 F.3d
at 747 (Trott, J., dissenting) (reproducing
BIA decision). In thus correctly recognizing that the IJ’s findings precluded any
suggestion that the IJ found these aspects
of Dai’s statements credible, the BIA did
not engage in its own factfinding, but instead properly read the record of the IJ’s
findings in accord with the applicable rebuttable presumption of credibility. 8
U.S.C. § 1158(b)(1)(B)(iii); cf. 8 C.F.R.
§ 1003.1(d)(3)(iv) (BIA does not engage in
independent factfinding).2 Although the
uses imprecise language that could be mis-

77a

1164

940 FEDERAL REPORTER, 3d SERIES

BIA did not expressly invoke that rebuttable presumption, its analysis in construing
the IJ’s findings reflects precisely what
the REAL ID Act authorizes the BIA to
do. In turn, the resulting express adverse
credibility determination that is properly
recited in the BIA’s decision should have
precluded the panel majority from invoking the deemed-credible rule even on that
rule’s own terms. Cf. Tijani v. Holder, 628
F.3d 1071, 1080 (9th Cir. 2010) (so long as
the finding is ‘‘explicit,’’ an ‘‘adverse credibility finding does not require the recitation of a particular formula’’).

sought to remain in the United States, and
it refuted his claim that he had a wellfounded fear of persecution if he returned
to China. See Dai, 916 F.3d at 747–48
(Trott, J., dissenting). For the same reasons, the panel majority is equally wrong
in its assertion that Dai’s untruthfulness
related only to a ‘‘tangential point.’’ Dai,
884 F.3d at 873.

First, the panel majority wrongly dismissed the BIA’s determination as the
‘‘ ‘sort of passing statement [that] does not
constitute an adverse credibility finding.’ ’’
Dai, 884 F.3d at 867 (quoting Kaur v.
Holder, 561 F.3d 957, 962–63 (9th Cir.
2009)) (emphasis added). As Judge Trott’s
dissent makes clear, the BIA’s express
adverse credibility determination on this
point was not a ‘‘passing’’ one—it related
directly to the central issue of why Dai

The panel majority’s citation of Kaur
only highlights its error on this score. In
Kaur, we held that the BIA erred when it
invoked the IJ’s vague and passing comment that ‘‘there are certain instances
where this court does not find the Applicants’ testimony to be credible’’ in order to
overturn the IJ’s explicit ‘‘affirmative credibility finding’’ as to one of the two Applicants—i.e., Kaur. 561 F.3d at 962–63; see
also id. at 962 (noting that the IJ had
found that Kaur was ‘‘a convincing witness’’ with a ‘‘credible demeanor’’ and
whose ‘‘testimony was detailed, consistent
and plausible’’). As we explained, the IJ’s
‘‘passing’’ and ‘‘selected reference’’ was
‘‘not even specific to Kaur’’ and could not
properly be read to ‘‘undermine or detract’’ from the specific and detailed ‘‘positive credibility finding’’ as to Kaur. Id. at
963; see also id. (‘‘From this truncated
reference, one would be hard pressed to
identify any basis for finding a lack of
credibility as the IJ identified none.’’).
Here, in sharp contrast to Kaur, (1) the

read to suggest that, under the REAL ID Act,
the BIA has independent authority to make an
adverse ‘‘finding’’ of credibility that the IJ did
not make. See, e.g., Dai, 884 F.3d at 863 (‘‘We
think it not too much to ask of IJs and the
BIA that they make an explicit adverse credibility finding’’) (emphasis added); id. at 865
(‘‘The BIA acknowledged that the IJ did not
make an adverse credibility finding and also
did not make one itself.’’) (emphasis added);
id. at 867 (noting that the BIA ‘‘also made no
adverse credibility finding’’) (emphasis added); id. at 869 (deemed-credible rule applies
‘‘when the BIA has on appeal neither affirmed an adverse credibility finding made by

the IJ nor made its own finding after deeming
the presumption of credibility rebutted’’) (emphasis added). Given that only the IJ engages
in factual finding, and not the BIA, see 8
C.F.R. § 1003.1(d)(3)(iv), I construe these
comments by the panel majority to instead be
referring only to the BIA’s explicit authority
under the REAL ID Act to determine that the
record rebuts the presumption that the IJ
found the applicant credible. To avoid any
suggestion that the BIA is itself engaging in
independent factfinding, I will refer in this
dissent to the BIA’s ‘‘determination’’ concerning what the IJ’s findings show about the
applicant’s credibility.

The panel majority nonetheless refused
to give effect to the BIA’s explicit determination that the record established that Dai
had not been truthful, and it therefore
proceeded to apply the deemed-credible
rule. The panel majority gave several reasons for doing so, but all of them are
flawed.

78a

1165

MING DAI v. BARR
Cite as 940 F.3d 1143 (9th Cir. 2019)

BIA did not overturn an express finding of
credibility by the IJ; and (2) the BIA made
a specific determination that the IJ’s findings established that Dai was not credible
as to a particular point.
Second, the panel majority alternatively
stated that the BIA’s determination that
Dai had ‘‘lied about one particular fact’’
could be disregarded because it did not
amount to a ‘‘general adverse credibility
finding.’’ Dai, 884 F.3d at 867 (emphasis
added). That is plainly incorrect, and the
implications of such a rule would be quite
troubling. The normal rule in any adjudication is that a trier of fact may believe or
disbelieve a witness’s testimony in whole
or in part, see, e.g., Li v. Holder, 738 F.3d
1160, 1163 (9th Cir. 2013), and there is no
basis for adopting, in the immigration context, the distinctive (and illogical) rule that
credibility must be determined on a ‘‘general’’ basis. Cf. Toufighi v. Mukasey, 538
F.3d 988, 994–95 (9th Cir. 2008) (although,
as the applicant noted, ‘‘the IJ found him
generally credible,’’ this court concluded
‘‘that the IJ did make an express adverse
credibility determination’’ as to the specific
issue of his ‘‘claim that he converted to
Christianity’’). In support of its position,
the panel majority pointed to authority
holding that a vague and tentative statement ‘‘ ‘that a petitioner is ‘‘not entirely
credible’’ is not enough’ to constitute an
adverse credibility finding,’’ Dai, 884 F.3d
at 867 (quoting Aguilera-Cota v. INS, 914
F.2d 1375, 1383 (9th Cir. 1990)) (emphasis
added), but here the BIA’s adverse credibility determination was explicit, direct,
and specific. Accordingly, nothing in Aguilera-Cota supports the panel majority’s
novel suggestion that a partial finding of
untruthfulness is inadequate, and that only
a ‘‘general adverse credibility finding’’ will
do. (And if Aguilera-Cota had adopted that
view, then we should overrule that case en
banc as well.)

Moreover, by failing to give effect to the
BIA’s explicit determination that the record revealed Dai’s partial lack of truthfulness, the panel majority effectively created
yet another flawed ‘‘Simon says’’ rule, in
addition to our deemed-credible rule. Under the panel majority’s decision, the
BIA’s failure to expressly state that it was
invoking the REAL ID Act’s rebuttable
presumption in this case means that this
court should act as if the BIA had not done
so. The panel majority erred by yet again
devising counterfactual presumptions that
distort our reading of the administrative
record on appeal.
***
Given that we have eschewed a magicwords approach to explicit credibility determinations, the BIA’s express statement
that Dai was not ‘‘truthful’’ was a permissible application of the REAL ID Act’s rebuttable presumption of credibility, and
that statement is sufficiently explicit to
preclude application of the deemed-credible rule on its own terms. But more importantly, the REAL ID Act expressly abrogates the deemed-credible rule entirely
and replaces it with, at most, a rebuttable
presumption of credibility. And here, any
presumption that the IJ actually believed
Dai’s statements about his family’s voluntary return has been amply rebutted. Our
persistence in applying an irrebuttable
presumption that is at odds with the statute and at odds with a common-sense
reading of this record is deeply troubling
and warrants en banc review.
I respectfully dissent from the denial of
rehearing en banc.

,

